No. 21In the

Supreme Court of the United States
ANDERSON & ANDERSON LLP-GUANGZHOU,
GUANGDONG HUATU LAW FIRM, BEIJING
KAIMING LAW OFFICES,
Petitioners,
v.
NORTH AMERICAN FOREIGN TRADING CORP.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

David C. Buxbaum
Counsel of Record
A nderson & A nderson LLP
30 Wall Street, 8th Floor
New York, New York 10005
(212) 709-8278
anderson.newyork@anallp.com
Counsel for Petitioners

306268

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED FOR REVIEW
Whether the United States Court of Appeals for the
Second Circuit erred when it affirmed the United States
District Court for the Southern District of New York’s
grant of then-Defendant-Appellee North American
Foreign Trading Corporation’s Motion to Dismiss thenPlaintiff-Appellants’ Amended Complaint.

ii
LIST OF PARTIES IN COURT BELOW
1.

Anderson & Anderson LLP – Guangzhou: Plaintiff,
Appellant, Petitioner

2.

Guangdong Huatu Law Firm: Plaintiff, Appellant,
Petitioner

3.

Beijing Kaiming Law Offices: Plaintiff, Appellant,
Petitioner

4.

North American Foreign Trading Corporation:
Defendant, Appellee, Respondent

5.

Estate of Edith Lowinger: Defendant to Original
Complaint

iii
CORPORATE DISCLOSURE STATEMENT
Petitioners, the Plaintiffs-Appellants of Anderson &
Anderson LLP-Guangzhou, Guangdong Huatu Law Firm,
and Beijing Kaiming Law Offices, make this corporate
disclosure statement pursuant to Supreme Court Rule
29.6: This is Petitioners’ original Corporate Disclosure
Statement.
1.

Petitioners have no parent corporations.

2.

No publicly-held corporation owns 10 percent or more
of the stock of any of Petitioners.

iv
LIST OF CASES DIRECTLY RELATED
• Anderson & Anderson LLP-Guangzhou, Beijing
Kaiming Law Offices, Guangdong Huatu Law Firm,
and Anderson & Anderson LLP v. North American
Foreign Trading Corp., Index Number 651010/2011,
Supreme Court of the State of New York, County
of New York (Commercial Division), (IAS Part 3).
Judgment entered Nov. 29, 2017.
• Anderson & Anderson LLP-Guangzhou, et al., v.
North American Foreign Trading Corp., Index
Number 651010/2011, Supreme Court of the State
of New York, Appellate Division, First Department.
Judgment entered Oct. 18, 2018.
• Anderson & Anderson LLP, Guangdong Huatu
Law Firm; Beijing Kaiming Law Offices v. North
American Foreign Trading Corp., No. 18-CV-2491
(CM), US District Court for the Southern District of
New York. Judgment entered Apr. 17, 2018.
• Anderson & Anderson LLP Guangzhou; Guangdong
Huatu Law Firm, & Beijing Kaiming Law Offices v.
North American-Foreign Trading Corp., No. 19-CV3369 (RA), US District Court for the Southern District
of New York. Judgment entered Mar. 18, 2020.
• Anderson & Anderson LLP-Guangzhou, Guangdong
Huatu Law Firm, Beijing Kaiming Law Offices v.
North American Foreign Trading Corporation,
Estate of Edith Lowinger, No. 20-1322, US Court of
Appeals for the Second Circuit. Judgment entered
Feb. 2, 2021.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW . . . . . . . . . . i
LIST OF PARTIES IN COURT BELOW . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
LIST OF CASES DIRECTLY RELATED . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  xi
PETITION FOR CERTIORARI . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 5
B. Procedural History. . . . . . . . . . . . . . . . . . . . . . . . . 8

vi
Table of Contents
Page
i.

State Court Action . . . . . . . . . . . . . . . . . . . . . 8

ii.

Federal Court Action . . . . . . . . . . . . . . . . . . 27

REASON FOR GRANTING THE PETITION  . . . . . 29
A. For the Sake of the Reputation of the
American Judiciary. . . . . . . . . . . . . . . . . . . . . . . . 29
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N IO N O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
FEBRUARY 2, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED MAY 8, 2020  . . . . . . . . . . . . . 7a
APPENDIX C — OPINION & ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED MARCH 18, 2020 . . . . . . . . 12a
APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT,
DATED MARCH 3, 2021 . . . . . . . . . . . . . . . . . . . . . 34a
APPENDIX E — DECISION AND ORDER
OF THE SU PREME COURT OF THE
STAT E OF NEW YORK , NEW YORK
COUNTY, DATED SEPTEMBER 25, 2017 . . . . . 36a
APPENDIX F — LETTER TO HONORABLE
EI LEEN BR A NS T EN FROM DAV I D
C. BUXBAUM, DATED JUNE 20, 2017 . . . . . . . . 62a

viii
Table of Appendices
Page
A P P E N DI X G — L E T T E R T O T H E
HONOR A BL E EI L EEN BR A NS T EN
FROM COU RT N EY DEL A NO W EST,
DATED JUNE 20, 2017 . . . . . . . . . . . . . . . . . . . . . . 65a
A PPEN DI X H — OR DER OF T H E
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF NE W YORK,
FILED JUNE 19, 2017 . . . . . . . . . . . . . . . . . . . . . . . 67a
A PPENDI X I — LET TER TO JUSTICE
LAWRENCE K. MARKS FROM DAVID
C. BUXBAUM, DATED JUNE 5, 2017 . . . . . . . . . 69a
A P P E N DI X J — A F F I R M A T ION OF
COURTNEY DELA NO W EST IN THE
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF NEW YORK,
DATED APRIL 11, 2017 . . . . . . . . . . . . . . . . . . . . . . 94a
APPENDIX K — LETTER FROM THE NAFT,
DATED NOVEMBER 15, 2016 . . . . . . . . . . . . . . .  110a
A P P EN DI X L — A F F I R M A T ION OF
DAVID C. BUXBAUM IN THE SUPREME
COURT OF THE STATE OF NEW YORK,
DATED JANUARY 27, 2015 . . . . . . . . . . . . . . . . .  114a
A PPENDIX M — AFFIRMATION OF FU
QIANG IN THE SUPREME COURT OF
THE STATE OF NEW YORK, COUNTY OF
NEW YORK, DATED JANUARY 26, 2015 . . . . . 119a

ix
Table of Appendices
Page
A P P EN DI X N — A F F I R M A T ION OF
H AO X I AODONG IN THE SU PREME
COURT OF THE STATE OF NEW YORK,
DATED JANUARY 26, 2015 . . . . . . . . . . . . . . . . . 124a
A P P EN DI X O — A F F I R M A T ION OF
Y O S E F Y. W E I N T R A U B I N T H E
SUPREME COURT OF THE STATE OF
NE W YORK, COUNTY OF NEW YORK,
DATED MAY 15, 2014 . . . . . . . . . . . . . . . . . . . . . . .128a
A P P EN DI X P — A F F I R M A T ION OF
A N DR E W G . L O W I NG E R I N T H E
SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF NEW YORK,
FILED FEBRUARY 13, 2014 . . . . . . . . . . . . . . . . 134a
APPENDIX Q — DECISION AND ORDER
OF THE SUPREME COURT, APPELLATE
DIVISION, FIRST DEPARTMENT, FILED
MAY 20, 2013 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 138a
APPENDIX R — AFFIRMATION OF DAVID
C. BUXBAUM IN THE SUPREME COURT
OF THE STATE OF NEW YORK, COUNTY
OF NEW YORK, FILED MARCH 6, 2013 . . . . .  141a
APPENDIX S — E-MAIL FROM ANDERSON
& A N DER S ON LL P T O S CH L A M
STONE & DOLA N LLP SUBMITTING
DISCOVERY, DATED JANUARY 11, 2013 . . . . 145a

x
Table of Appendices
Page
APPENDIX T — E-MAIL FROM ANDERSON
& ANDERSON LLP TO SCHLAM STONE
& DOLAN LLP - DISCOVERY RESPONSE,
DATED DECEMBER 28, 2012 . . . . . . . . . . . . . . .  147a
APPENDIX U — E-MAIL FROM ANDERSON
& ANDERSON LLP TO SCHLAM STONE &
DOLAN LLP SUBMITTING DISCOVERY,
DATED DECEMBER 20, 2012 . . . . . . . . . . . . . . . 150a
APPENDIX V — E-MAIL FROM ANDERSON
& ANDERSON LLP TO SCHLAM STONE &
DOLAN LLP SUBMITTING DISCOVERY,
DATED DECEMBER 7, 2012 . . . . . . . . . . . . . . . . 153a
APPENDIX W — NOTICES OF DEPOSITION
IN THE SU PREME COURT OF THE
STATE OF NEW YORK, COUNT Y OF
NEW YORK, DATED MARCH 5, 2011 . . . . . . . . 156a
APPENDIX X — ENGLISH TRANSLATION
OF C H I N E S E J U D GM EN T, F I L ED
NOVEMBER 3, 2009  . . . . . . . . . . . . . . . . . . . . . . . 162a

xi
TABLE OF CITED AUTHORITIES
Page
CASES
Anderson & Anderson LLP Guangzhou v.
N. Am.-Foreign Trading Corp.,
No. 19-CV-3369 (RA), 2020 U.S. Dist.
LEXIS 47358, (S.D.N.Y. Mar. 18, 2020) . . . . . . . . . . . 1
Anderson & Anderson LLP v.
N. Am. Foreign Trading Corp.,
2016 NY Slip Op 03669, 139 A.D.3d 464,
31 N.Y.S.3d 60 (App. Div. 1st Dept.) . . . . . . . . . . . . . 15
Anderson & Anderson LLP v.
N. Am.-Foreign Trading Corp.,
No. 19-CV-3369 (RA), 2020 U.S. Dist.
LEXIS 82423 (S.D.N.Y. May 8, 2020)  . . . . . . . . . . . . 1
Anderson & Anderson LLP-Guangzhou v.
N. Am. Foreign Trading Corp.,
2014 NY Slip Op 51530(U), 45 Misc. 3d 1210(A),
3 N.Y.S.3d 284 (Sup. Ct.)  . . . . . . . . . . . . . . . . . . . . . . 15
Anderson & Anderson LLP-Guangzhou v.
N. Am. Foreign Trading Corp.,
844 F. App’x 382 (2d Cir. 2021)  . . . . . . . . . . . . . . . . . . 1
Andrea v. Arnone, Hedin, Casker, Kennedy &
Drake, Architects & Landscape Architects, P.C.,
5 N.Y.3d 514 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Carven Assoc. v. American Home Assur. Corp.,
84 N.Y.2d 927 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . 31

xii
Cited Authorities
Page
Daluise v. Sottile,
837 N.Y.S.2d 175 (App. Div. 2007) . . . . . . . . . . . . . . . 32
Deutsche Bank Nat. Trust Co. v.
Quicken Loans Inc.,
810 F.3d 861 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 32
Doyle v. Am. Home Products Corp.,
583 F.3d 167 (2d Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 32
Duval v. Centerlight Health Sys., Inc.,
2019 N.Y. Slip Op. 50133(U), 113 N.Y.S.3d 478
(Sup. Ct.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31, 32
Goldheart Int’l, Ltd. v. Vulcan Constr. Corp.,
508 N.Y.S.2d 182 (App. Div. 1st Dep’t 1986)  . . . . . .  17
Hoffman v. Kraus,
688 N.Y.S.2d 575 (App. Div. 2d Dep’t 1999) . . . . . . . 26
Ivory v. Ekstrom,
98 A.D. 2d 763 (2d Dep’t 1983) . . . . . . . . . . . . . . . . . . 31
N. Am. Foreign Trading Corp. v.
Mitsui Sumitomo Ins. USA, Inc.,
292 F. App’x 73 (2d Cir. 2008)  . . . . . . . . . . . . . . . . . . . 4
Roth v. Jennings,
489 F.3d 499 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . . . . .9

xiii
Cited Authorities
Page
Yu Hui Chen v. Chen Li Zhi,
81 A.D.3d 818, 916 N.Y.S.2d 525
(App. Div. 2nd Dept. 2011) . . . . . . . . . . . . . . . . . . . . . 26
Statutes
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1332  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1367  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CPLR § 205 (a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 27, 28
Rules
Fed. R. App. P. 40(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Second Circuit LR 40.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Supreme Court Rule 14.1(g)(ii) . . . . . . . . . . . . . . . . . . . . . 5

1
PETITION FOR CERTIORARI
The firms of Anderson & Anderson LLP-Guangzhou,
Guangdong Huatu Law Firm, and Beijing Kaiming Law
Offices (“Petitioners”) respectfully petition for a writ
of certiorari to review the judgment of the US Court of
Appeals for the Second Circuit.
OPINIONS BELOW
On March 18, 2020, the SDNY issued an Opinion and
Order granting NAFT’s motion to dismiss. Anderson &
Anderson LLP Guangzhou v. N. Am.-Foreign Trading
Corp., No. 19-CV-3369 (RA), 2020 U.S. Dist. LEXIS
47358, (S.D.N.Y. Mar. 18, 2020) (Appendix (“App.”) C).
On May 8, 2020, it denied a motion for reconsideration.
Anderson & Anderson LLP v. N. Am.-Foreign Trading
Corp., No. 19-CV-3369 (RA), 2020 U.S. Dist. LEXIS 82423
(S.D.N.Y. May 8, 2020) (App. B).
On February 2, 2021, the US Court of Appeals for the
Second Circuit (“Second Circuit”) affirmed the SDNY’s
grant of the motion to dismiss. Anderson & Anderson
LLP-Guangzhou v. N. Am. Foreign Trading Corp., 844
F. App’x 382 (2d Cir. 2021) (App. A). The Second Circuit
denied then-Appellants’ petition for a panel rehearing on
March 3, 2021. That order is not reported. (App. D).
JURISDICTION
Petitioners invoke this Court’s jurisdiction under 28
U.S. Code § 1254(1). Petitioners’ appeal to the Second
Circuit to reverse the SDNY’s grant of the Motion to
Dismiss was denied on February 2, 2021. (App. A).

2
Petitioners timely filed a petition for a panel rehearing
on February 16, 2021. See Case No. 20-1322 [hereinafter
“Second Circuit Dkt.”], No. 106; Fed. R. App. P. 40(a)(1);
Second Circuit LR 40.1. Such petition for a rehearing
was denied on March 3, 2021. (App. D). Pursuant to the
US Supreme Court’s Order dated March 19, 2020, the
deadline was extended to 150 days, creating a deadline for
this Petition of August 2, 2021. The US Supreme Court’s
Order dated July 19, 2021 establishes that where the order
denying a timely petition for rehearing was issued prior
to July 19, 2021, the deadline to file a petition for a writ of
certiorari remains extended to 150 days from the date of
that order. Therefore, this Petition is timely filed.
STATUTORY PROVISION INVOLVED
The New York Civil Practice Laws and Rules
(“C.P.L.R.”) § 205 (a) provides as follows:
“New action by plaintiff. If an action is timely
commenced and is terminated in any other
manner than by a voluntary discontinuance,
a failure to obtain personal jurisdiction over
the defendant, a dismissal of the complaint
for neglect to prosecute the action, or a final
judgment upon the merits, the plaintiff, or,
if the plaintiff dies, and the cause of action
survives, his or her executor or administrator,
may commence a new action upon the same
t ra nsact ion or occu r rence or ser ies of
transactions or occurrences within six months
after the termination provided that the new
action would have been timely commenced
at the time of commencement of the prior

3
action and that service upon defendant is
effected within such six-month period. Where
a dismissal is one for neglect to prosecute
the action made pursuant to rule thirty-two
hundred sixteen of this chapter or otherwise,
the judge shall set forth on the record the
specific conduct constituting the neglect, which
conduct shall demonstrate a general pattern
of delay in proceeding with the litigation.”
C.P.L.R. § 205(a).
INTRODUCTION
Petitioners concede that this case is not typically one
which could normally be expected to be considered for a
Writ of Certiorari. Nonetheless, if this Court will review
the undeniable events that have taken place, it will agree
such a Writ is necessary.
This case has history, and its international implications
reach far beyond the Question Presented. There are two
foremost contenders for international leadership in the
world community – China and the USA. One important
criticism of China is that it lacks a proper rule of law.
The author of this Petition, an American lawyer, has
worked in China for most of his life and he has devoted
important efforts to encourage the development of the rule
of law therein. Indeed, China has made progress in this
regard. This case involves three firms in China who were
cheated out of their contingency fee by an unscrupulous
American company, despite that they timely performed
all the work required by their contingency contract, that
their client received its money, and that, pursuant to their
work, the American company could have received much

4
more than the $11,200,000 for which it ultimately sold its
interest. Whereas these firms were never paid – and if
this Court does not reverse this injustice, perhaps never
will be – there is some reason to believe this unscrupulous
American company may have been paid twice for the same
claim. See generally, N. Am. Foreign Trading Corp. v.
Mitsui Sumitomo Ins. USA, Inc., 292 F. App’x 73 (2d
Cir. 2008).
The case at the heart of this Petition represents the
worst possible results in American judicial proceedings.
Indeed, in the previous state court stage, the Defendant
and its defense counsel routinely employed blatant and
reckless unethical practices, consistently fooling the
judiciary and obstructing the enforcement of rights to
payment that cannot be denied on the facts. Then, the
federal courts below washed their hands of the matter,
ignoring both the facts and law to absurdly hold – against
any basis in reality – that in a case where the state court
would not let the litigants litigate, that Petitioners had
actually been dismissed therefrom for neglect to do so.
Despite the frailties of the Chinese judicial system, no
case this awful could occur there. Before it now, the US
Supreme Court has perhaps the worst case in American
history to turn into a Petition. In this ten-year nightmare,
it can be clearly seen how the lying and cheating by highly
unethical litigants and their lawyers can twist American
law however desired. Any lawyer who did not know about
this case would never believe it could have occurred.
Again, it has been over ten years since Petitioners filed
in New York state court.
For the sake of redeeming the good name of the
American legal system, the US Supreme Court would be

5
remiss if it did not grant certiorari. All this is not to say
that this Honorable Court should rule on anything but the
facts and the law. But, unlike any of the courts that have
handled this case thus far, it must actually review those
facts and law. It must put an end to what will otherwise
be a permanent blot on the reputation of the American
judicial system.
STATEMENT OF THE CASE
This matter is appealed from the Second Circuit.
Pursuant to Supreme Court Rule 14.1(g)(ii), the basis for
federal court jurisdiction is provided below:
The SDNY has jurisdiction over this matter pursuant
to 28 U.S.C. § 1332, and has jurisdiction over any state-law
claims pursuant to 28 U.S.C. § 1367. See Case No. 19-cv03369 (RA), [hereinafter “SDNY Dkt.”] No. 18, ¶¶ 15-21.
As shown in the Amended Complaint, all Petitioners
are Chinese firms. See id. ¶¶ 11-17. Respondent North
American Foreign Trading Corporation (“NAFT”), the
only Defendant to the Amended Complaint, is an American
corporation organized and operating under the laws of the
State of New York with its principal place of business in
New York. Id. ¶ 18
A. Factual Background
The facts ultimately underlying this petition date
back over a decade and a half at this point. On October
4, 2005, the International Centre for Dispute Resolution
Commercial Arbitration Tribunal issued a decision
granting NAFT an arbitration award for monetary
damages in the amount of $22,096,376.81, plus simple

6
annual 9% interest on any unpaid portion of that amount
from August 15, 2003 forward (“Arbitration Award”).
SDNY Dkt. No. 18, ¶¶ 2-23. NAFT, seeking assistance
enforcing this award in China, approached Anderson &
Anderson LLP-Guangzhou (“Anderson-Guangzhou”),
which introduced them to Guangdong Huatu Law Firm
(“Huatu”). Id. ¶¶ 24-25. On or about December 29, 2005,
Huatu and NAFT entered into a written contingency
contract regarding the enforcement of the award. Id.
¶ 26. On or around January 26, 2006, Huatu commenced
enforcement proceedings. Id. ¶ 33.
After years of diligent efforts, on June 24, 2009, the
parties agreed to bring in another firm, Beijing Kaiming
Law Offices (“Kaiming”). See id. at ¶¶ 33-35. This
supplementary agreement was added to the contingency
contract which indicated a contingency-based success fee
of 18% of all monies or assets enforced and obtained by the
Petitioners. See id. ¶¶ 36-38. This agreement was clear that
if certain assets were sealed by a Chinese Court, Huatu
was entitled to payment subject to certain conditions. See
id. ¶ 40. A handwritten amendment established that if, on
or before December 31, 2009, a Chinese court judgment
was entered granting enforcement of the Arbitration
Award, then Anderson-Guangzhou and Kaiming would
be likewise be entitled to their compensation. Id. ¶ 41.
Less than a year later, on November 3, 2009, a threejudge court of Shenzhen City issued a Civil Decision
recognizing and enforcing the Arbitration Award. Id.
¶¶ 42-43; App. X. It bears noting that the firms had
initially submitted the matter to the Intermediate People’s
Court on February 7, 2006. SDNY Dkt. No. 18, ¶ 42.

7
This Civil Decision allowed the firms to attach
172,544,050 shares of restricted tradable stock held by
Lionda Group, which a court-appointed appraiser valued
at 283,250,000 RMB as of September 30, 2009 (equivalent
to $41,488,457 under the prevailing exchange rate in effect
on that date). Id. ¶¶ 44-46. However, on October 8, 2010,
NAFT, against the advice of Petitioners, sold its interest in
the attached assets for $11,200,000, in partial satisfaction
of the Arbitration Award, simultaneously releasing the
balance for nominal consideration of 1 RMB. Id. ¶¶ 4850. At the time of cash settlement, the unpaid balance
of the Arbitration Award had grown to approximately
$36,315,395, inclusive of interest charges. Id. ¶¶ 9, 51.
This Court must see that the agreements are clear
that Petitioners are owed their money. As the New York
Supreme Court, Appellate Division, 1st Department would
hold in May of 2013:
the 2009 retainer agreement provided for the
payment of the agreed upon contingency fee if a
judgment granting enforcement of the arbitral
decision was issued by the Chinese court prior
to the expiration date. It is undisputed that a
copy of such a judgment issued by the Shenzhen
Intermediate People’s Court on November 3, 2009
is annexed to the complaint.1 (App. Q at 140a).
NAFT’s judgment had accrued to $34,581,661 as of
November 15, 2009, and Plaintiffs were entitled under
Chinese Law to receive a contingency fee of 18% of
this amount, which would be approximately $6,224,699,
1. Remittitur, May 20, 2013, Doc. 190.

8
exclusive of fees, costs or interest. 2 Even assuming
arguendo that Chinese Law were not applicable, which
it clearly is, Petitioners would nevertheless be entitled
to a minimum contingent recovery of 18% of the cash
settlement amount that the NAFT received. 3 Therefore,
even under the most favorable calculation for NAFT,
Petitioners would have been entitled to recover a minimum
of $2,016,000, plus annual interest and any fees and costs
awarded, which is calculated from eighteen percent of
the $11,200,000 cash received by NAFT.4 But, to date,
Petitioners, who devoted years of hard work on NAFT’s
behalf, have received absolutely nothing in return, except
over a decade of litigation to get nowhere.
B. Procedural History.
i.

State Court Action

As NAFT refused to honor its contractual obligations,
Petitioners were forced to file in the Commercial Division
of the New York State Supreme Court, which they did on
April 15, 2011 (the “State Court Action”). 5 SDNY Dkt.
No. 18, ¶ 55. The e-filings of the State Court Action can
be found for free at the link provided in the Amended
Complaint, reproduced herein.6 See id. ¶ 55, n.2. As the
2. See Buxbaum Affirmation, January 8, 2014, Doc. 212.
3. See id.
4. See id.
5. Summons and Complaint, April 15, 2011, Doc. 1.
6. The State Court Action’s NYSCEF E-Docket is available
at the following link: https://iapps.courts.state.ny.us/nyscef/

9
SDNY properly recognized below, “the state court filings
are incorporated into the First Amended Complaint by
reference.” (App. C at 15a, n.2 (citing Roth v. Jennings,
489 F.3d 499, 509 (2d Cir. 2007)). And so the federal courts
should have, and this Court must, see what actually took
place in the previous litigation. Essentially all citations in
the footnotes of this Petition are to the State Court Action
filings, identified by New York State Courts Electronic
Filing (“NYSCEF”) Docket number.
Almost immediately after the State Court Action
commenced, NAFT frivolously moved to dismiss the breach
of contract claim,7 which Judge Eileen Bransten granted. 8
As quoted from above, the Appellate Division unanimously
reversed her, thereby legitimizing Petitioners’ claims,
recognizing the clarity of the merits, and reinstating the
contract claim.9 (App. Q at 140a).
In July and August of 2012, NAFT was served with
Sets of Interrogatories and a Demand for Production of
Documents.10 On August 16 and 17, 2012, NAFT submitted
objections to each, generally claiming it had nothing to
produce.11 This would ultimately result in a discovery
DocumentList?docketId=l3l6EUv tMQHts81l47wOlg==&
display=jidrHbHgd/NTDtbTxRcPkw==.
7. Notice of Motion to Dismiss Complaint, May 27, 2011,
NYSCEF Doc. 4.
8. See Decision + Order, February 14, 2012, Doc. 19.
9. See Remittitur, May 20, 2013, Doc. 190.
10. See Memorandum of Law, February 18, 2013, Doc. 120.
11. See Exhibits 2-4, February 18, 2013, Docs. 124-126.

10
conference with Judge Bransten, on October 23, 2012.12
Thereat, Judge Bransten held that “To [the] extent
applicable, [Defendant] to respond to [Plaintiffs’] D + I
with respect to the surviving claim [within] 45 days.”13
However, when Petitioners went to proceed pursuant
to the discovery plan, NAFT refused, consistently
representing that “In answer to your question, NAFT
has no documents or additional interrogatory responses
that are responsive to your document requests and
interrogatories, as modified by the compliance conference
order.” 14 By contrast, in 2012 and 2013, Petitioners
produced thousands of documents.15 (See App. S-V; App.
R at 143a). NAFT’s refusal to engage in discovery would
lead to a motion for sanctions in February of 2013 by
Petitioners.16 Even after Petitioners withdrew this motion,
NAFT continued to refuse to comply, leading to an attempt
by Petitioners to re-instate such motion for sanctions.17
Based on the undisputed facts in this case and
encouraged by the Appellate Division’s holding, Petitioners
sought to move for summary judgment in 2013. 18
12. See Order, November 15, 2012, Doc. 100.
13. Order – Status Conference, November 15, 2012, Doc. 100.
14. See Exhibits 9-12, February 18, 2013, Docs. 131-134.
15. See Exhibits 6-8, 13, February 18, 2013, Docs. 128-130,
135; see also Buxbaum Reply Affirmation, March 6, 2013, Doc. 148.
16. Notice of Motion, February 18, 2013, Doc. 117.
17. See Letter to Re-instate Motion for Sanctions, May 17,
2013, Doc. 181.
18. See Notice of Motion, August 2, 2013, Doc. 195.

11
Nonetheless, no summary judgment would be had –
NAFT’s tactics and the court’s inability to handle the case
would thwart this attempt and all others.
First, in August of 2013, the court, at NAFT’s request,19
forced Petitioners to decide between withdrawing
the motion for summary judgment or amending the
complaint, and so they chose the latter. 20 On January 8,
2014, Petitioners filed again for summary judgment. 21 On
January 14, 2014 the parties attended a status conference,
administered by court-appointed attorney Alan Gotthelf,
attempting to schedule Petitioners’ motion. 22 The next day,
NAFT’s counsel submitted a letter to the court, lying that:
“at Mr. Gotthelf’s recommendation, I write to
request that the Court direct the summary
judgment motion filed by Plaintiffs last week
be held in abeyance pending of fact and expert
discovery.” 23
Actually, the opposite position had been taken by Mr.
Gotthelf at the conference, recommending that “the motion
[for summary judgment] should not be held in abeyance
… [and, among other reasons] … Defendant’s request for
an abeyance of the motion is borderline frivolous. …” 24
(App. O at 129a-130a).
19. See Letter to Court, August 7, 2013, Doc. 202.
20. See Letter to Court, August 15, 2013, Doc. 204.
21. See Notice of Motion, January 8, 2014, Doc. 211.
22. See Letter to David Wohlstadter, January 15, 2014, Doc. 217
23. Id.
24. See Yosef Weintraub Affirmation, May 20, 2014, Doc. 251.

12
This period is described by the SDNY in its March
opinion as follows: “Shortly after filing their second
amended complaint, the plaintiffs moved for summary
judgment despite the fact that no discovery had taken
place.” (App. C at 15a (citing SDNY Dkt. 29 (Affirmation
of Niall D. O’Murchadha), ¶ 23 (citing State Court Action
Doc. Nos. 211-215))). In doing so, it relies on opposing
counsel for NAFT, one of the very individuals who can be
found lying in the State Court Action. Here, the SDNY is
even overstating his misrepresentation, missing that he
actually only swore that “almost no discovery had taken
place,” which, while wildly misleading, is at least possibly
subjective. See SDNY Dkt. 29, ¶ 23. Respectfully, had the
federal court visited the state court docket cited, it would
have noticed the events it cites Mr. O’Murchadha citing
occurred in January of 2014, nearly a year after Plaintiffs
swore they previously provided thousands of documents
to Defendant NAFT, in support of a motion for sanctions. 25
(See App. S-V; App. R at 143a). Rather, it had been NAFT,
not the Plaintiffs who refused to provide discovery. Even,
in NAFT’s efforts to force the withdrawal of Petitioners’
2013 summary judgment motion, it sought a stay of
discovery, because it “has been expending significant
time and resources translating hundreds of documents
produced by Plaintiffs that are written in Chinese.” 26 In
2016, Mr. O’Murchadha also discusses these voluminous
productions from Petitioners. 27 (App. K at 112a). And
25. Buxbaum Reply Affirmation, March 6, 2013, Doc. 148.
26. See Letter to Court, August 7, 2013, Doc. 202 (filed by
“O’Murchadha, N.”)
27. Exhibit (“11-15-16 Letter to Star”) (Submitted by
O’Murchadha), April 7, 2017, Doc. 610.

13
even, January of 2014 is long past when NAFT purports
to have produced deposition notices, dated March 5,
2011 and attested to have actually been served March
5, 2012. 28 (But see App. J at 104a-105a). But here is one
example of the lack of comprehension the federal courts
had for Petitioners’ situation, missing facts undeniable
and plainly visible, finding a reality wherein Petitioners
to be later held as dismissed for neglect to prosecute had
oddly moved for summary judgment before any discovery
had taken place.
Shortly after NAFT’s January 2014 lies to the court,
in another attempt to delay and avoid summary judgment,
it engaged in a bad-faith disqualification of Petitioners
then-counsel David C. Buxbaum, filing such application
on February 18, 2014. 29 Note, this occurred after nearly
two years of no objection from NAFT since Mr. Buxbaum
first appeared as counsel, on May 1, 2012. 30 Here we
have another instance in the SDNY opinion where it
again blindly relies on NAFT’s counsel instead of the
record, creating law on facts that did not happen. Mr.
O’Murchadha’s affirmation says Mr. Buxbaum appeared
on March 26, 2012, and that “A copy of Mr. Buxbaum’s
notice of appearance is attached as Exhibit 2.” SDNY Dkt.
29, ¶ 7. His Exhibit 2 is the notice of an unrelated event
from March 12, 2012 (See SDNY Dkt. 29-2 (“PLEASE
TAKE NOTICE that effective March 12, 2012, the law
28. See Niall D. O’Murchadha Affirmation, April 7, 2017,
Doc. 609.
29. Order to Show Cause (Proposed), February 18, 2014,
Doc. 229.
30. Notice of Appearance, May 1, 2012, Doc. 59.

14
firm of Guzov Ofsink, LLC ... has changed its name to
Guzov, LLC”)). Mr. Buxbaum appeared on May 1, 2012
plainly in the state court record. 31 Yet, adopting NAFT’s
facts without checking, the SDNY writes “On March
26, 2012, David Buxbaum of the law firm Anderson &
Anderson LLP appeared as counsel on behalf of the
plaintiffs.” (App. C at 15a).
As to NAFT’s 2014 disqualification tactic, Mr. Buxbaum
immediately realized its true purpose was to obstruct the
motion for summary judgment, and he communicated this
to the court. 32 Such disqualification was for purported
violations of Mr. Buxbaum of the attorney witness rule and
the former client rule and based on a demonstrably false
affirmation by an individual calling himself an “agent” of
NAFT, Andrew G. Lowinger. 33 (See App. P).
This “agent” alleged that Mr. Bu xbaum was
largely responsible for negotiating the initial Retainer
Agreements. 34 Not only is this untrue, it is also not
information Mr. Lowinger could have known because
those negotiations took place in China and he was not
in China but in the USA, and so Petitioners explained
the document’s falsity. 35 (App. L-N). Nonetheless,
31. Notice of Appearance, May 1, 2012, Doc. 59.
32. Letter to David Wohlstadter, February 21, 2014, Doc. 233.
33. See Andrew Lowinger Affirmation, February 18, 2014,
Doc. 231.
34. Andrew Lowinger Affirmation, February 18, 2014, Doc.
231, ¶ 7.
35. See Buxbaum Affirmation, January 27, 2015, Doc. 290;
Hao Xiaodong Affirmation, January 27, 2015, Doc. 291; Fu Qiang
Affirmation, January 27, 2015, Doc. 292.

15
after much delay caused by this unethical application,
Mr. Buxbaum and Anderson & Anderson LLP were
disqualified on October 20, 2014. Anderson & Anderson
LLP-Guangzhou v. N. Am. Foreign Trading Corp., 2014
NY Slip Op 51530(U), 45 Misc. 3d 1210(A), 3 N.Y.S.3d
284 (Sup. Ct.). The Appellate Division affirmed on May
10, 2016. Anderson & Anderson LLP v. N. Am. Foreign
Trading Corp., 2016 NY Slip Op 03669, 139 A.D.3d 464,
31 N.Y.S.3d 60 (App. Div. 1st Dept.). The federal courts’
analyses do not account for any of this context. The Second
Circuit does not even mention the disqualification of Mr.
Buxbaum despite that it was key to understanding the
eventual dismissal from state court.
NAFT’s use of perjury would continue to haunt this
case. Mr. Lowinger had separately lied under oath that
NAFT thought it had been dealing at all times with the
“New York firm of Anderson & Anderson LLP, which
had offices in China.” 36 In a July 21, 2015 hearing Judge
Bransten denied a motion for summary judgment on the
grounds that the caption needing modifying to account
for Anderson & Anderson LLP, a New York law firm
separate from Anderson-Guangzhou. 37 Many facts were
provided to the court which outlined the absurdity of Mr.
Lowinger’s perjury on this point, including that Anderson
& Anderson (New York) LLP did not exist during the time
period which he swears NAFT thought it was dealing
with an entity other than Anderson-Guangzhou, and that
NAFT paid fees to and communicated exclusively with
36. See Andrew Lowinger Affirmation, February 12, 2014,
Doc. 226.
37. See Decision + Order, August 10, 2015, Doc. 352.

16
Asian offices. 38 Nonetheless, now this was the roadblock
for why Petitions could not proceed with their case in state
court. Tellingly, this July 21, 2015 hearing is also where
Judge Bransten expressed, on the record, in reference
to NAFT, that “if you tell me, gee, I think I need more
discovery, I don’t think so, I don’t think there is anything
to discover any longer. I think that’s been done.”39 So, she
clearly recognized the lack of discovery issues left by this
point. Even, in a hearing on July 12, 2016, Judge Bransten
indicated she agreed no depositions were required.40
Seeing that Petitioners may be permitted to prosecute
their claim, NAFT, pursuing a new way to obstruct
summary judgment, presented seemingly fake notices of
deposition as an exhibit on August 30, 2016.41 These notices
of deposition were dated March 5, 2011 – the month before
Petitioners filed in state court. (App. W). NAFT’s counsel
would swear that the notices of deposition were dated May
11, 2012,42 which they are not. Separately, NAFT’s counsel
has sworn that they were meant to be dated March of
38. See Buxbaum Affirmation, May 20, 2014, Doc. 250;
Memorandum in Support of Motion, May 20, 2014, Doc. 252.
39. Decision + Order, August 10, 2015, Doc. 352.
40. See Exhibit S (Transcript of July 12, 2016), September
22, 2016, Doc. 409 (J. Bransten to Mr. O’Murchadha: “Yeah. But,
you see, none of [those arguments] – all right – has to do with any
depositions. [Petitioners are] saying that this is an issue of contract
interpretation. That’s what they’re saying, like it or not. It doesn’t
need to have a deposition in order to get the contract to the Court
for the contract interpretation. That’s what they’re saying.”)
41. See Exhibit 4, August 30, 2016, Doc. 377.
42. O’Murchadha Affirmation, August 30, 2016, Doc. 373, ¶ 31.

17
2012.43 Even if they were dated March (or May) of 2012,
these notices of deposition include Huatu in the caption,
despite that that party was not added until July 23,
2012.44 Even though the parties had stipulated to Huatu’s
inclusion at an earlier date, including it in the caption long
before it became one is dubious, and in any event, despite
the proof of service NAFT produced, Petitioners never
saw these notices until their submission in August of 2016
and there is absolutely no record of them appearing in the
case files prior thereto. Nonetheless, these conveniently
resurrected notices of deposition accomplished NAFT’s
unethical goal.
Crucially, Judge Bransten with the defendant’s
encouragement held the completely false position that
a note of issue is required before summary judgment,
and such note of issue should be filed after discovery
is complete. 45 However, an order “which preclude[s]
the parties from moving for summary judgment until
completion of discovery, [is] in conflict with CPLR 3212
(a), which provides, ‘Any party may move for summary
judgment in any action, after issue has been joined.’”
Goldheart Int’l, Ltd. v. Vulcan Constr. Corp., 508 N.Y.S.2d
182, 182 (App. Div. 1st Dept. 1986). In other words, her
43. O’Murchadha Affirmation, April 7, 2017, Doc. 609, ¶ 18.
44. Decision + Order, July 25, 2012, Doc. 76.
45. See Exhibit F (Transcript of September 1, 2016 Hearing),
September 22, 2016, Doc. 408 (“…my rules that you get one shot
at the summary judgment motion and that should be after the
Note of Issue is filed.”); Decision + Order, November 2, 2016,
Doc. 457 (“You get one summary judgment motion in this court
and that is after the note of issue is properly filed after discovery
is complete.”).

18
rule directly violates New York law. Nonetheless, Judge
Bransten simply would not allow a summary judgment
motion to be made otherwise, despite that it would have
succeeded. And her flawed insistence that a note of issue
precede any such motion would become the turning point
for the case.
Judge Bransten would firstly require against New
York law that a note of issue be first filed by Petitioners,
and so they complied on August 11, 2016. 46 Then, on
October 18, 2016, based in part on these notices of
deposition dated before the case’s summons, she vacated
that note of issue citing outstanding discovery issues.47
Here Judge Bransten expresses, in clear conflict with
the law of the State of New York, that “I do one summary
judgment motion after a note of issue – a valid note of issue
is filed.”48 This all this occurred a little over a year after
her stance that discovery has “been done” and where,
in that same 2015 hearing, she said that that it seemed
likely that there was “nothing more than a calculation to
be made.”49 It occurs mere months after she appears to
agree with Petitioners that no depositions were needed. 50
Indeed, the retainer agreements were complied with,
the assets in China were frozen on time. NAFT received
its money. What was there to discover? The only issue
46. Note of Issue, August 11, 2016, Doc. 370.
47. See Decision + Order, November 2, 2016, Doc. 457.
48. See id.
49. See Decision + Order, August 10, 2015, Doc. 352.
50. See Exhibit S (Transcript of July 12, 2016), September
22, 2016, Doc. 409.

19
was how much the Plaintiffs are to be paid, which is an
issue of the governing law, not a matter of depositions or
discovery. And again, regardless, there is no note of issue
requirement in New York for summary judgment.
None of this context is accounted for by the federal
courts. Rather, the SDNY incorporates NAFT’s counsel’s
selective quotations from that October 2016 hearing to
effectively adopt the position that “the plaintiffs’ decision
to file a note of issue [was] ‘ridiculous’ and ‘a little bit
disingenuous, to put it mildly.’” (See App. C at 16a).
Petitioners would say what happened on October 18, 2016
was more than “ridiculous” – a judge after apparently
closing discovery striking a note of issue that she directed
filed, obstructing summary judgment contra New York
law, on grounds of “outstanding” notices of deposition
dated before the Summons makes no sense at all. Yet
this was the lawless litigation in which Petitioners were
thoroughly obstructed, now described by the federal
courts through the lens of the defense counsel and judge
who caused the obstruction.
With the case now apparently far from summary
judgment in Judge Bransten’s eyes, the firm of Blank
& Star applied to withdraw and for a 120-day stay for
Petitioners to secure new counsel. Despite that such
motion was unopposed, the stay was not granted. 51 Blank
& Star, which only had to be retained at all because of
NAFT’s tactical disqualification of Mr. Buxbaum, had
been retained on a contingency basis solely for summary
judgment purposes, which they expected would readily be
51. See Order to Show Cause (Proposed), January 3, 2017,
Doc. 469; Order to Show Cause, January 12, 2017, Doc. 474.

20
granted. Although the underlying facts themselves were
(and still are) simple in this case, only special counsel
could (and can) actually handle a case of this nature. It
involves, for example, coordinating with three law firms
located in three separate locations in China, keeping
each informed and participating in the litigation despite
significant language barrier.
To take over the case, Courtney West, an employee of
Anderson-Guangzhou who was in China, put in a notice
of appearance. 52 To comply however possible with the
litigation’s schedule, Petitioners retained Christopher
Carrion, to handle a single hearing, on February 7, 2017
and nothing more.53 Mr. Carrion was a criminal law lawyer
who had absolutely no intention of taking on the case fully,
nor did Petitioners want him to do so. 54
However, on February 7, 2017, Judge Bransten granted
the withdrawal of Blank & Star (but not the unopposed
request for a stay), set a status conference for March 7,
2017, ordered – against the intentions of attorney and
client – that Mr. Carrion be held on as attorney of record,
noted that Mr. West was not allowed to represent anyone
in the case until making a motion, and directed Mr. West
52. Notice of Appearance, December 6, 2016, Doc. 467.
53. See Notice of Appearance, February 6, 2017, Doc. 502
(“CHRISTOPHER A. CARRION, ESQ. … submits this NOTICE
OF APPEARANCE, hereby appearing on behalf of the Plaintiffs,
for the limited purpose of the hearing taking place on 7 February
2017.”) (emphasis added).
54. See Notice of Appearance, February 6, 2017, Doc. 502; see
generally Decision + Order, February 27, 2017, Doc. 503; see also
Exhibit 1 (Transcript of March 17, 2017), March 24, 2017, Doc. 577.

21
to provide discovery to Mr. Carrion to provide to NAFT. 55
This is the same hearing where Scott Star of Blank & Star
said to Judge Bransten that “We communicated with the
client, they didn’t respond, because we don’t have that
information to respond, it’s in the custody of the plaintiffs
themselves. They never responded. In November of 2016
there was another notice of appearance filed on behalf of
all the plaintiffs, that was Mr. West.”56 Blank & Star had
nothing to do with discovery which explains why they had
no discovery to turn over. And now that Judge Bransten
had barred Mr. West from representing anyone until his
motion, no discovery could be turned over. Further yet,
there was no discovery to turn over because Petitioners
had done so, in 2012 and 2013. Yet, failing to account for
any context, the SDNY quotes this in part, leaving out the
line from Blank & Star about Mr. West, 57 and portrays
Petitioners as – for some reason unknown to anyone – still
refusing to prosecute their case. (See App. C at 17a).
Leading to the March 7 conference, Petitioners sent
five letters to Judge Bransten explaining the situation
to her – that she had deprived Petitioners of counsel;
that Blank & Star was retained for the limited purpose
of assisting with a summary judgment motion, and had
stopped communicating with Petitioners; why retaining
adequate counsel is difficult; that Mr. West is attempting
to act as attorney of record; that Mr. Carrion is not
Petitioners’ lawyer; that the March 7 status conference
would be ex parte because Petitioners had no lawyer who
55. See Decision + Order, February 27, 2017, Doc. 503.
56. Decision + Order, February 27, 2017, Doc. 503.
57. Notice of Appearance, December 6, 2016, Doc. 467.

22
could appear before her; that NAFT’s counsel refused
to communicate with Mr. West; and that the conference
needed to be postponed. 58
Not only did Judge Bransten refuse to postpone
the conference, but also, after forcing him to remain
on as counsel, she sanctioned Mr. Carrion when he
inadvertently missed the date and delayed informing the
court due to his commitments to his actual clients. 59 On
March 17, Mr. Carrion appeared, and Judge Bransten,
despite knowing he was not actually Petitioners’ attorney,
demanded to hear an update on discovery; Mr. Carrion
responded that he had “received nothing from Mr. West
or any of the firms in China.”60 Obviously he would not
have anything; as he swore in his submission to the court
dated and entered March 7, “Plaintiff’s intent was only to
retain me for the February 7, 2017 appearance, [and so] I
have been effectively discharged as counsel to Plaintiffs.
As such, I am not in receipt of any material from Plaintiffs
with respect to discovery.”61
58. See West Letter to Judge Bransten, March 3, 2017, Doc.
504; Buxbaum Letter to Judge Bransten, March 6, 2017, Doc. 509;
West Letter to Judge Bransten, March 6, 2017, Doc. 510; Fu Letter
to Judge Bransten, March 7, 2017, Doc. 522; Hao Letter to Judge
Bransten, March 7, 2017, Doc. 523.
59. See Transcript of Proceedings (of March 7, 2017), March
8, 2017, Doc. 532; Exhibit 1 (Transcript of March 17, 2017), March
24, 2017, Doc. 577; Christopher Carrion Affirmation, March 7,
2017, Doc. 525.
60. Exhibit 1 (Transcript of March 17, 2017), March 24, 2017,
Doc. 577.
61. Carrion Affirmation, March 7, 2017, Doc. 525.

23
Nonetheless, citing Mr. O’Murchadha’s affirmation,
the SDNY quotes an abridged version of Mr. Carrion’s
March 17 line as well as the above-quoted February 7
line from Mr. Star, to make out a supposed pattern of
discovery noncompliance attributable to Petitioners. (App.
C at 17a). Respectfully, she and NAFT’s lawyer took a line
from Mr. Carrion during a hearing (wherein he was being
unfairly reprimanded) out of context and held it out as
more important than his sworn testimony as to the truth
of why he had no discovery to turn over.
The Second Circuit discusses it as follows, seemingly
commending Judge Bransten for her willingness to
accommodate Petitioners – “The state court extended its
discovery deadlines on several occasions, as well as allowed
Plaintiffs-Appellants to substitute new counsel after their
attorneys moved to withdraw for reasons related to the
Plaintiffs-Appellants’ own failure to communicate.” (App.
A at 4a-5a). Despite that the Second Circuit purports
to have reviewed de novo, this crucial finding is nearly
identical to a different line from the SDNY, for which
it also credits Mr. O’Murchadha. (App. C at 32a) (“The
state court repeatedly extended its discovery deadlines
and provided Plaintiffs with ample opportunity to pursue
their action, including by allowing Plaintiffs to substitute
new counsel after multiple attorneys moved to withdraw
due to Plaintiffs’ failure to communicate. See Murchadha
Aff. ¶¶ 3-42 & Exs. 1-17.”).
On May 23, 2017, Judge Bransten granted Mr.
Carrion’s request to be relieved as counsel, but allowed
only a 30-day stay for Petitioners to find full counsel,

24
calling their request for 120 days “egregious.”62 She also
demanded that in addition to retaining counsel, Petitioners
must produce written discovery and witnesses a short time
after the stay lifts.63 Having just observed Petitioners
struggle to retain full counsel and been informed of it via
letters, and having been presumably fully aware of the
truth of the state of discovery, none of this was reasonable.
As always though, Petitioners sought to comply.
Regarding counsel, they sought to have Mr. West
reinstated as attorney of record. Judge Bransten stated
if Mr. West demonstrated that he was not involved in
drafting and negotiating the original retainer agreements,
then he may be retained.64 The Court should note too that
Mr. West only even became licensed to practice in April
of 2015, about half a decade after the latter retainer
agreement expired, and so was, motion or not, obviously
not involved in drafting and negotiated such agreements.65
But nonetheless, Mr. West complied with such order
promptly, leaving more than two weeks for the court to
address his application before the status conference.66 At
least three letters were sent to Judge Bransten specifically
identifying the situation – that she need only read the
62. See Decision + Order, June 6, 2017, Doc. 726.
63. See Decision + Order, June 6, 2017, Doc. 728.
64. See id.
65. See West Affirmation, June 7, 2017, Doc. 731; Buxbaum
Affirmation, June 7, 2017, Doc 732.
66. Order to Show Cause (Proposed), June 7, 2017, Doc. 729;
See also Order to Show Cause, June 19, 2017, Doc. 749.

25
documents in her possession to resolve the issue of
counsel.67 She refused, failing even to respond. The court
would end up scheduling the application to be heard long
after the date by which counsel needed to be retained.68
And, recognizing that all this misconduct and error had
resulted in no notice of appearance being put in before
June 22, 2017, Judge Bransten proceeded to find that
Petitioners failed to retain counsel by that date.69 In this
September 14, 2017 hearing, she also says “Not only did
plaintiffs fail to comply with this order, they never brought
their alleged difficulty up to the Court – either by a letter
or anything, any communication whatsoever – and/or to
their adversary to request an extension of time. Rather,
the order was blatantly disregarded and ignored.” 70 This
is objectively untrue. Beyond the above, and others in the
record, this Court should also inspect Mr. West’s May
23, 2017 letter to Judge Bransten which notes “Plaintiffs
were in the process of retaining and have been preparing
New York counsel to attend today’s hearing on behalf of
Plaintiffs. However, early this morning, counsel tripled his
rates and argued that he could not put himself at risk given
the unfortunate circumstances surrounding Mr. Carrion’s
appearance.” 71 Not only had Petitioners informed Judge
Bransten of their difficulties, they had informed her of
the difficulties that were even her fault. However, she
67. West Letter to Judge Bransten, June 16, 2017, Doc. 745;
Buxbaum Letter to Judge Bransten, June 20, 2017, Doc. 752; West
Letter to Judge Bransten, June 20, 2017, Doc. 753.
68. See Order to Show Cause, June 19, 2017, Doc. 749.
69. Decision + Order, September 25, 2017, Doc. 870.
70. Id.
71. West Letter to Judge Bransten, May 23, 2017, Doc. 723.

26
“blatantly disregarded and ignored” these letters and
her own order requesting the filing of Mr. West’s motion.
Regarding discovery, Petitioners had already long
ago produced thousands of documents72 and answered all
discovery requests. But, at the hearing on September 14,
2017, NAFT’s counsel lied to her, saying that “We have
gotten no documents whatsoever from the plaintiffs.” 73
(App. E at 47a). However, less than a year before that
hearing, Mr. O’Murchadha’s submission to the court
discussed Petitioners’ productions extensively, at the time
complaining they were a “mess of documents produced in
various formats …” 74 (App. K at 112a).
Regarding the depositions, even though the notices
seemed fake, and despite that each Petitioner lived in a
different area of China, they agreed to comply. Petitioners
asked Judge Bransten to approve written depositions –
both in-person and video depositions would have involved
important complications.75 New York law would not have
compelled in-person depositions under the circumstances.
See, e.g., Hoffman v. Kraus, 688 N.Y.S.2d 575, 577 (App.
Div. 2nd Dept. 1999); Yu Hui Chen v. Chen Li Zhi, 81
A.D.3d 818, 916 N.Y.S.2d 525 (App. Div. 2nd Dept. 2011).

72. See Exhibits 6-8, 13, February 18, 2013, Docs. 128-130,
135; See also Buxbaum Reply Affirmation, March 6, 2013, Doc. 148.
73. Decision + Order, September 25, 2017, Doc. 870.
74. See Exhibit (“11-15-16 Letter to Star”), April 7, 2017,
Doc. 610.
75. See West Letter to Judge Bransten, July 7, 2017, Doc. 775.

27
All of this was brought to Judge Bransten’s attention.76
(And all of this was brought to the Second Circuit’s
attention. See Second Circuit Dkt. 79, at 4-5.)
NAFT, which had no actual intent of deposing anyone,
never made any effort to proceed with the depositions. And
so, discovery did not advance. Of course, discovery had
long “been done” 77 in the eyes of Judge Bransten.
But, taking the fact that no notice of appearance was
entered before June 22, 2017, and the lies of NAFT’s
counsel on discovery, Judge Bransten found that
Petitioners “violated [the conditional] order, failed to
litigate their case, and, therefore, the complaint is hereby
stricken.”78 (App. E at 53a). On November 29, 2017, the New
York State Supreme Court dismissed the underlying case
without prejudice.79 The Appellate Division affirmed the
dismissal without prejudice, and the resulting remittitur
was docketed on October 23, 2018. 80
ii.

Federal Court Action

Seeking “a fair and objective venue in which to
vindicate their claims,” Petitioners were thus forced to
rely on New York C.P.L.R. §205(a) (the “Saving Statute”)
to pursue their remedy. See SDNY Dkt. No. 1, ¶ 66. On
76. West Letter to Judge Bransten, July 7, 2017, Doc. 775.
77. Decision + Order, August 10, 2015, Doc. 352.
78. Decision + Order, September 25, 2017, Doc. 870.
79. Judgment, November 29, 2017, Doc. 896.
80. Remittitur, October 23, 2018, Doc. 902.

28
June 5, 2019, Petitioners filed their Amended Complaint,
against only NAFT. See SDNY Dkt. No. 18. On June 24,
2019, Petitioners filed a Motion to Dismiss the Amended
Complaint. See SDNY Dkt. No. 27-29. The Motion
asserted four main grounds for dismissal: (1) that the
action was commenced in bad faith by Mr. Buxbaum after
his disqualification in the State Court Action; (2) that
Petitioners had failed to meet the burden of establishing
federal diversity jurisdiction; (3) that the action is timebarred, alleging it falls outside of the Saving Statute; and
(4) that Petitioners failed to properly serve process. See
generally, SDNY Dkt. No. 28. According to NAFT, the
action falls outside the Saving Statute based on arguments
that the State Court Action was dismissed for neglect
to prosecute and that Petitioners failed to effect service
within six months after termination from state court.
See id. None have merit, but only the jurisdiction issue
and whether Petitioners were dismissed for neglect to
prosecute have been addressed. Petitioners’ arguments as
to the unaddressed grounds can be found in the briefing
below. See, e.g., SDNY Dkt. 38; Second Circuit Dkt. 79.
The SDNY held that although diversity jurisdiction
exists, “this action falls outside of the New York Savings
Statute, N.Y. C.P.L.R. §205(a), because it was dismissed
by the state court for neglect to prosecute.” (App. C at
24a.) As demonstrated above, that opinion fundamentally
ignores the facts of the State Court Action. Petitioners’
appeal to the Second Circuit was similarly futile, as it
affirmed, mirroring the SDNY’s misunderstanding of the
facts. As above, it mimics the SDNY’s finding in reliance
on Mr. O’Murchadha, holding that state court provided
Petitioners “ample opportunity” therein to prosecute their
action. (Compare App. A at 4a with App. C at 32a).

29
REASON FOR GRANTING THE PETITION
A. For the Sake of the Reputation of the American
Judiciary.
The State Court Action and Federal Court Action,
litigated since 2011, are an unmitigated embarrassment
to the American judicial system. Petitioners understand
that this motion to dismiss has been repeatedly decided
in favor of NAFT. And they understand that this Court
is generally unwilling to correct the federal courts
below on misinterpretations of state law. But here it
must, considering that the essence of these decisions of
the SDNY and Second Circuit, that Petitioners “failed”
or “neglected” to litigate in the State Court Action
is a blatant mischaracterization of the real facts and
perpetuates a lie. This lie deprives the foreign firms of
their rightful fee, rewarding highly unethical practices.
These are not mere allegations: a real review of the state
and federal court records readily reveals their truth. No
law supports nor requires the conclusion of the Second
Circuit. And the Court must make that clear in this case,
which has international ramifications.
Ironically, the underlying facts regard NAFT’s need
to enforce their rights in China, a nation still developing
a reliable rule of law, which they were able to do; while
the Plaintiffs from China were unable to enforce their
rights in the USA, indeed a bizarre result. The unethical
conduct and perjury by NAFT’s lawyers and “agent,” the
inexplicable acts of Judge Bransten, the refusal by the
federal courts to legitimately hear the case, all create
lawlessness worse than the author of this Petition has
seen in China. The pure mishandling of this case – again

30
indisputably clear on its underlying merits – by the
American judiciary makes it harder for individuals like
Mr. Buxbaum to encourage China to strengthen its rule
of law. Companies like NAFT will continue to require the
services of local firms like Petitioners to enforce their
judgments. How those firms will be paid though remains
to be seen.
Long before the issue became whether the State Court
Action was dismissed for “neglect to prosecute,” Mr.
Buxbaum wrote that Judge Bransten’s “systemic approach
to silencing Plaintiffs is cutting them off at the knees and
prevents them from moving forward in pursuing their
claim.” (App. I at 71a). Now that same handicapping is to
rob them of any remedy, after the thorough refusal of the
federal courts to consider the facts or law. And this all has
been recast as three law firms essentially losing interest
in their clear claim for millions such that the courts – state
and federal – finally rid themselves. This version of the
facts used by the federal courts makes no sense, until one
considers their source – for instance, the same lawyer
whose tactics caused the dismissal from state court.
The Second Circuit’s coverage of the neglect to
prosecute issue, which was to be reviewed de novo,
clearly takes Judge Abrams’ and thus NAFT’s counsel’s
description of the State Court Action, explaining that the
state court provided “ample opportunity” for Petitioners.
And so, it brings Mr. O’Murchadha’s skewing and Judge
Bransten’s out of context errors together for the absurd
conclusion that Petitioners were dismissed for neglect to
prosecute. As to the Second Circuit’s legal analysis, its
summary order says that “New York case law is clear
that dismissal for failure to comply with discovery orders

31
constitutes dismissal “for neglect to prosecute the action”
within the meaning of C.P.L.R. § 205(a).” (citing Andrea
v. Arnone, Hedin, Casker, Kennedy & Drake, Architects
& Landscape Architects, P.C., 5 N.Y. 3d 514, 518 (2005);
Carven Assoc. v. American Home Assur. Corp., 84 N.Y.2d
927 (1994); Ivory v. Ekstrom, 98 A.D. 2d 763, 764 (2d Dept.
1983)). However, as explained in Duval v. Centerlight
Health Sys., Inc.,
Following the decision in Andrea, in 2008
the legislature amended CPLR 205 (a) to
add language that limits when a dismissal
for neglect to prosecute makes the six-month
extension unavailable to plaintiffs. The new
standard specifies that an order dismissing a
case for neglect to prosecute must set forth on
the record the conduct constituting the neglect
and that such conduct must demonstrate a
general pattern of delay.
2019 NY Slip Op 50133(U), ¶ 2, 113 N.Y.S.3d 478 (Sup. Ct.)
(emphasis added.)
Again, the legislature brought in a new standard in
2008. Yet, the Second Circuit robs Petitioners of their last
chance via a summary order that relies on a case from the
1990s, a case from the 1980s, and on the very case that
created the need for the superseding standard it failed to
apply. All of this was pointed out in the petition for panel
rehearing (see Second Circuit Dkt. 106, at 14-17), which also
distinguished these irrelevant cases for good measure. Of
course, Duval had also been cited in both of Petitioners’
briefs before the Second Circuit as well. (See Second Circuit
Dkt. 42, at 35; Second Circuit Dkt. 79, at 2-3.)

32
As the panel correctly observed, “… we must apply the
law of New York as interpreted by the New York Court
of Appeals.” (App. A at 2a (citing Deutsche Bank Nat.
Trust Co. v. Quicken Loans Inc., 810 F.3d 861, 865 (2d Cir.
2015)). Yet, much as Judge Bransten had years before, it
refused to do that, pushing Petitioners out of American
court without any justice or legitimate explanation.
Both the SDNY and the Second Circuit have cited to
Doyle v. Am. Home Products Corp., 583 F.3d 167 (2d Cir.
2009). But in Doyle, the Second Circuit, recognizing the
statute’s purpose, looked beyond the dismissal order and
actually assessed the conduct of the prior action. See id.
at 171-72. Daluise v. Sottile demonstrates that “[w]hile
dismissal of an action for failure to comply with discovery
orders has been held to be a dismissal for ‘neglect to
prosecute the action’ within the meaning of CPLR 205
(a),” it need not necessarily, so long as the party’s conduct
did not “rise to that level.” 837 N.Y.S.2d 175, 178 (App.
Div. 2007). Furthermore, the order dismissing the case
for neglect to prosecute must set forth on the record
the conduct constituting the neglect and such conduct
must demonstrate a general pattern of delay. Duval v.
Centerlight Health Sys., Inc., 2019 NY Slip Op 50133(U),
¶ 2, 113 N.Y.S.3d 478 (Sup. Ct.).
As hard as any court can look into the State Court
Action, it will find absolutely no general pattern of delay on
the part of Petitioners. It will find no neglect to prosecute.
Instead, it will find a litigation lasting many years replete
with examples of a state court judge inventing rules that
do not exist, defense attorneys taking every opportunity
to engage in unethical conduct, and three Chinese firms
diligently attempting however possible to comply under

33
the circumstances and prosecute their case. In the
Federal Court Action, it will find a court failing to read
the actual facts and failing even to accurately copy from
a misleading and error-ridden affirmation. Its reviewer,
purportedly assessing the case de novo, rubber-stamped
the decision, copying the findings. When petitioned to
revisit its flawed decision, it refused. And all this is on a
motion to dismiss, where Petitioners’ allegations are to
be taken as true. The Amended Complaint even says that
“Despite the obvious and inherent merits of Plaintiffs’
claims, NAFT has utilized every litigation tactic possible
to obfuscate, hinder, delay, and ultimately prevent a ruling
on the merits of the case, to which they have no legal
or equitable defense.” See SDNY Dkt. No. 18, ¶¶ 60-80.
Rather though, the federal courts have taken NAFT’s
demonstrably false account as true, applying superseded
law on facts that did not happen as described, allowing
NAFT to escape its debts.
Petitioners’ conduct did not rise to the level of a
dismissal for neglect to prosecute. The Second Circuit
must have found a general pattern of delay. And based on
the above truths freely available to all courts and everyone
else, it could not have done so, nor could it have reached
any reasonable conclusion other than that Petitioners were
not dismissed for neglect to prosecute their meritorious
action.
This case presents the Court with an opportunity
– which it must take – to demonstrate proper judicial
practice in the United States of America, for its courts
and for those of nations like China to see. To correct a case
which, more than any other to ever have worked its way
through American courts, exposes serious vulnerabilities

34
in America’s judicial system. If Petitioners were not
entitled to their day in court before Judge Bransten,
they are at least entitled for a true interpretation of the
applicable law on the facts that actually happened. As
before, Petitioners do not crave sympathy, but justice and
an open mind – after a court actually reviews the record
and the law.
CONCLUSION
For the above and foregoing reasons, Petitioners
request the issuance of a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Second Circuit.
Dated: July 30, 2021

Respectfully submitted,
David C. Buxbaum
Counsel of Record
A nderson & A nderson LLP
30 Wall Street, 8th Floor
New York, New York 10005
(212) 709-8278
anderson.newyork@anallp.com
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED FEBRUARY 2, 2021
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
20-1322
ANDERSON & ANDERSON LLP-GUANGZHOU,
GUANGDONG HUATU LAW FIRM, BEIJING
KAIMING LAW OFFICES,
Plaintiffs-Appellants,
v.
NORTH AMERICAN FOREIGN TRADING
CORPORATION,
Defendant-Appellee.
ESTATE OF EDITH LOWINGER,
Defendant.
February 2, 2021, Decided
Appeal from a judgment of the United States District
Court for the Southern District of New York
(Abrams, J.).
Present: Debra A nn Livingston, Chief Judge, José A.
Cabranes, Gerard E. Lynch, Circuit Judges.

2a
Appendix A
SUMMARY ORDER
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Anderson & Anderson LLP-Guangzhou (“Anderson
Guangzhou”), Guangdong Huatu Law Firm, and Beijing
Kaiming Law Offices (collectively, “Plaintiffs-Appellants”),
appeal from a decision of the United States District Court
for the Southern District of New York (Abrams, J.)
entered on March 18, 2020 dismissing their claims against
Defendant-Appellee North American Foreign Trading
Corporation (“NAFT”). We assume the parties’ familiarity
with the underlying facts, the procedural history of the
case, and the issues on appeal.
We review de novo a district court’s grant of a motion
to dismiss, including its interpretation and application of
a statute of limitations. City of Pontiac Gen. Emp.’s Ret.
Sys. v. MBIA, Inc., 637 F.3d 169, 173 (2d Cir. 2011). “When
sitting in diversity jurisdiction and determining New York
state law claims, we must apply the law of New York as
interpreted by the New York Court of Appeals.” Deutsche
Bank Nat. Trust Co. v. Quicken Loans Inc., 810 F.3d 861,
865 (2d Cir. 2015) (internal quotation marks omitted).
Because contract actions in New York are subject to
a six-year statute of limitations, N.Y. C.P.L.R. § 213(2),
Plaintiffs-Appellants acknowledge that their action, which
pertains to a breach which allegedly took place in October
2010, is timely only if it falls under the New York Savings

3a
Appendix A
Statute. N.Y. C.P.L.R. § 205(a). The Savings Statute
provides, in relevant part, as follows:
If an action is timely commenced and is
terminated in any other manner than by
. . . a dismissal of the complaint for neglect
to prosecute the action . . . the plaintiff
. . . may commence a new action upon the
same transaction or occurrence or series of
transactions or occurrences within six months
after the termination provided that the new
action would have been timely commenced at the
time of commencement of the prior action and
that service upon defendant is effected within
such six-month period. Where a dismissal is
one for neglect to prosecute the action made
pursuant to rule thirty-two hundred sixteen
of this chapter or otherwise, the judge shall
set forth on the record the specific conduct
constituting the neglect, which conduct shall
demonstrate a general pattern of delay in
proceeding with the litigation.
Id. As the text of C.P.L.R. § 205(a) makes plain, an
action that has previously been dismissed for neglect to
prosecute cannot benefit from the safe harbor provided
for otherwise-untimely actions. See Doyle v. Am. Home
Prods. Corp., 583 F.3d 167, 171 (2d Cir. 2009) (“The New
York courts have affirmed this point again and again:
‘[t]he very function of [CPLR 205(a)] is to provide a second
opportunity to the claimant who has failed the first time
around because of some error pertaining neither to the

4a
Appendix A
claimant’s willingness to prosecute in a timely fashion nor
to the merits of the underlying claim.’” (quoting George
v. Mount Sinai Hosp., 47 N.Y.2d 170, 178-79, 390 N.E.2d
1156, 417 N.Y.S.2d 231 (1979))). And New York case law is
clear that dismissal for failure to comply with discovery
orders constitutes dismissal “for neglect to prosecute
the action” within the meaning of C.P.L.R. § 205(a). See
Andrea v. Arnone, Hedin, Casker, Kennedy & Drake,
Architects & Landscape Architects, P.C. (Habiterra
Assocs.), 5 N.Y.3d 514, 518, 840 N.E.2d 565, 806 N.Y.S.2d
453 (2005); see also, e.g., Carven Assocs. v. American
Home Assurance Corp., 84 N.Y.2d 927, 644 N.E.2d 1368,
620 N.Y.S.2d 812 (1994) (where the prior action “had been
dismissed for [plaintiffs’] willful and repeated refusal to
obey court-ordered disclosure,” holding that “plaintiffs
were not entitled to reinstitute their action against
defendant” under C.P.L.R. § 205(a)); Ivory v. Ekstrom, 98
A.D. 2d 763, 764, 469 N.Y.S.2d 478 (2d Dept. 1983) (holding
that plaintiff’s action fell outside of § 205(a)’s safe harbor
because it was “not dismissed because of some fatal flaw
or defect in the commencement [of the action]. Rather, the
action was properly instituted and continued for a period
of about five years until it was dismissed as a result of
plaintiff’s default in fully complying with court-ordered
disclosure”).
Here, Plaintiffs-Appellants’ prior state court action
was clearly dismissed for neglect to prosecute. The
state court provided Plaintiffs-Appellants with ample
opportunity to prosecute their action over more than six
years. The state court extended its discovery deadlines
on several occasions, as well as allowed Plaintiffs-

5a
Appendix A
Appellants to substitute new counsel after their attorneys
moved to withdraw for reasons related to the PlaintiffsAppellants’ own failure to communicate. The state court
also admonished the Plaintiffs-Appellants that their
action would be dismissed unless they complied with
the court’s discovery orders and deadlines, reading its
conditional order into the record at a May 23, 2017 hearing.
Plaintiffs-Appellants did not do so, and NAFT moved
to enforce the order. In September 2017, when the state
court struck the Plaintiffs-Appellants’ complaint, the
court noted that Plaintiffs-Appellants had not completed
“an ounce of discovery” in years. App’x 294. The court
further explained that Plaintiffs-Appellants “ha[d]
failed to offer a reasonable excuse for [their] failure to
comply with [its] June 5, 2017 conditional order,” and that
Plaintiffs-Appellants had both “continually shown this
Court disrespect for its rulings and a blatant disregard
of its orders” and “failed to litigate their case.” App’x 151,
299-300; see also Anderson & Anderson LLP-Guangzhou
v. North Am. Foreign Trading Corp., 2017 WL 11367694
(N.Y. Sup. Ct. Nov. 29, 2017).
The Appellate Division affirmed the state court’s
decision to dismiss the Plaintiffs-Appellants’ action.
The Appellate Division noted that Plaintiffs-Appellants
had “failed to comply with the court’s October 19 and
December 13, 2016 status conference orders or to respond
substantively to defendant’s request to meet and confer.”
Anderson & Anderson LLP-Guangzhou v. North Am.
Foreign Trading Corp., 165 A.D. 3d 511, 512, 87 N.Y.S.3d
180 (1st Dept. 2018). The court also found that PlaintiffsAppellants had “fail[ed] to comply with defendant’s later
requests or the court’s later discovery orders.” Id.

6a
Appendix A
These findings leave no doubt that the state court
dismissed the Plaintiffs-Appellants’ prior action for neglect
to prosecute. Andrea, 5 N.Y. 3d at 521 (finding “neglect
to prosecute” where the dismissal order “refer[red] to
plaintiffs’ ‘failure . . . to comply with discovery deadlines,’
their ‘delays,’ their ‘disregard for the case management
order and scheduling order,’ their lack of diligence, their
‘inactions’ and their ‘ongoing laxity’”). Accordingly,
Plaintiffs-Appellants’ claims fall outside of the scope of
C.P.L.R. § 205(a) and are time-barred.
***
We have considered Plaintiffs-Appellants’ remaining
arguments and find them to be without merit. Accordingly,
we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/

7a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, FILED MAY 8, 2020
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
No. 19-CV-3369 (RA)
ANDERSON & ANDERSON LLP — GUANGZHOU;
GUANDONG HUATU LAW FIRM, & BEIJING
KAIMING LAW OFFICES,
Plaintiffs,
v.
NORTH AMERICAN-FOREIGN TRADING CORP.,
Defendant.
May 8, 2020, Decided;
May 8, 2020, Filed
ORDER
RONNIE ABRAMS, United States District Judge:
On March 18, 2020, the Court issued an Opinion and
Order granting Defendant’s motion to dismiss and denying
Plaintiffs’ motion for an extension of time. Dkt. 44. On
April 1, 2020, Plaintiffs filed a motion for reconsideration
of the Court’s March 18, 2020 Opinion and Order pursuant

8a
Appendix B
to Federal Rule of Civil Procedure 59(e) and Local Civil
Rule 6.3. Dkt. 46. Defendant filed a memorandum in
opposition to the motion on April 15, 2020, Dkt. 49, and
Plaintiffs filed a reply in support of the motion on April
22, 2020, Dkt. 52. For the reasons that follow, Plaintiffs’
motion is denied.
DISCUSSION
The Court assumes familiarity with the underlying
facts and procedural history of this action as set forth in
its prior opinion. See Dkt. 44.
Reconsideration of a court’s previous order is an
“extraordinary remedy to be employed sparingly in the
interests of finality and conservation of scarce judicial
resources.” In re Health Mgmt. Sys., Inc. Sec. Litig., 113
F. Supp. 2d 613, 614 (S.D.N.Y. 2000) (citation omitted).
To prevail on a motion for reconsideration, the movant
must identify “an intervening change in controlling law,
the availability of new evidence, or the need to correct
a clear error or prevent manifest injustice.” Virgin Atl.
Airways, Ltd. v. Nat’l Mediation Bd., 956 F.2d 1245, 1255
(2d Cir. 1992) (citation omitted). The standard “is strict,
and reconsideration will generally be denied unless the
moving party can point to controlling decisions or data
that the court overlooked.” Compunnel Software Grp., Inc.
v. Gupta, No. 14-CV-4790 (RA), 2019 U.S. Dist. LEXIS
84893, 2019 WL 2174085, at *2 (S.D.N.Y. May 20, 2019)
(quoting Bldg. Serv. 32BJ Health Fund v. GCA Servs.
Grp., Inc., No. 15-CV-6114 (PAE), 2017 U.S. Dist. LEXIS
52627, 2017 WL 1283843, at *1 (S.D.N.Y. Apr. 5, 2017)); see

9a
Appendix B
also Shrader v. CSX Transp., Inc., 70 F.3d 255, 257 (2d
Cir. 1995) (“[A] motion to reconsider should not be granted
where the moving party seeks solely to relitigate an issue
already decided.”). “The decision to grant or deny a motion
for reconsideration is within the sound discretion of the
district court.” Corines v. Am. Physicians Ins. Tr., 769
F. Supp. 2d 584, 594 (S.D.N.Y. 2011).
Here, Plaintiffs do not assert any “intervening change
in controlling law, the availability of new evidence, or the
need to correct a clear error or prevent manifest injustice.”
Virgin Atl. Airways, 956 F.2d at 1255. Rather, Plaintiffs
argue that this Court just got it wrong when concluding
that the New York state court dismissed the action for
neglect to prosecute and that this action therefore falls
outside the bounds of the New York Savings Statute, N.Y.
C.P.L.R. § 205(a). They contend that “[t]he reality of the
situation was that Plaintiffs aggressively prosecuted the
action in state court and, to put it simply, the state court
action was dismissed because Plaintiffs could not retain
representation of its choosing within the deadline specified
by the court, and because Plaintiff failed to comply with
depositions pursuant to forged notices of deposition.”
Dkt. 46-1 at 2-3. In so doing, Plaintiffs merely recite the
procedural history of the state court action and assert that
“Plaintiffs did not fail to prosecute the state court action”
under the standard of Federal Rule of Civil Procedure
41(b). Id. at 18.
As an initial matter, Federal Rule of Civil Procedure
41(b) is inapplicable to the state court action, which was
governed instead by the New York Civil Practice Law
and Rules. The New York Savings Statute provides that

10a
Appendix B
a dismissed action falls outside its bounds “[w]here [the]
dismissal is one for neglect to prosecute the action made
pursuant to rule thirty-two hundred sixteen of this
chapter or otherwise” and the judge “set[s] forth on the
record the specific conduct constituting the neglect, which
conduct shall demonstrate a general pattern of delay in
proceeding with the litigation.” N.Y. C.P.L.R. § 205(a).
The September 22, 2017 state court decision striking the
plaintiffs’ complaint on the grounds that “plaintiffs have
failed to offer a reasonable excuse for [their] failure to
comply with the June 5, 2017, conditional order and have
continually shown this Court disrespect for its rulings and
a blatant disregard of its orders” including by “fail[ing] to
timely secure new counsel and fail[ing] to comply with the
discovery demands” clearly constitutes one for neglect to
prosecute under the New York Savings Statute. Dkt. 29
(Murchadha Aff.) ¶ 39 & Ex. 15, at 16-17 (Dkt. 870, State
Court Action).
In any event, Plaintiffs’ motion provides no new
evidence or changes in law and thus “merely attempt[s]
to relitigate questions already decided.” Papaspiridakos
v. Educ. Affiliates, Inc., 580 F. App’x 17, 18 (2d Cir. 2014)
(citing Shrader, 70 F.3d at 257). Accordingly, Plaintiffs
have failed to establish circumstances warranting the use
of the “extraordinary remedy” of reconsideration. In re
Health Mgmt. Sys., Inc. Sec. Litig., 113 F. Supp. 2d at 614.
CONCLUSION
For the foregoing reasons, Plaintiffs’ motion for
reconsideration is denied. The Clerk of Court is

11a
Appendix B
respectfully directed to terminate the motion pending
at Dkt. 46.
Dated: May 8, 2020
New York, New York
/s/ Ronnie Abrams		
Ronnie Abrams
United States District Judge

12a
Appendix &
C order of the
Appendix c — opinion
united states district court for the
southern district of new york,
filed march 18, 2020
United States District Court
Southern District of New York
No. 19-CV-3369 (RA)
ANDERSON & ANDERSON LLP GUANGZHOU;
GUANDONG HUATU LAW FIRM, & BEIJING
KAIMING LAW OFFICES,
Plaintiffs,
v.
NORTH AMERICAN-FOREIGN TRADING CORP.,
Defendant.
March 18, 2020, Decided
March 18, 2020, Filed
OPINION & ORDER
RONNIE ABRAMS, United States District Judge:
Plaintiffs Anderson & Anderson LLP Guangzhou
(“Anderson Guangzhou”), Guangdong Huatu Law Firm
(“Huata”), and Beijing Kaiming Law Office (“Kaiming”)
all law firms allegedly based in China commenced this
action against Defendant North American-Foreign

13a
Appendix C
Trading Corp. (“NAFT”), asserting claims for breach
of contract, quantum meruit, implied-in-fact contract,
and unjust enrichment. On June 5, 2019, Plaintiffs filed a
First Amended Complaint (“FAC”). Before the Court are
NAFT’s motion to dismiss the First Amended Complaint
and Plaintiffs’ motion for an extension of time for service
of process based on excusable neglect. For the reasons that
follow, NAFT’s motion to dismiss is granted and Plaintiffs’
motion for an extension of time is denied.
FACTUAL BACKGROUND1
Plaintiffs allege that on October 4, 2005, NAFT
obtained a $22 million arbitration award against a series
of Chinese corporations doing business in Shenzhen in
the Guangdong Province of China. FAC ¶¶ 2, 22. NAFT
contacted Anderson Guangzhou to request the firm’s
assistance with enforcement of the arbitration award. Id.
¶¶ 3, 24. After Anderson Guangzhou referred NAFT to
Huatu, NAFT and Huatu entered into a written retainer
agreement on December 29, 2005 outlining the parties’
roles and responsibilities and stipulating the fees to be
paid to Huatu for its legal services. Id. ¶¶ 3, 25-26. A senior
attorney at Anderson Guangzhou, David C. Buxbaum, was
appointed as one of the three named agents entrusted to
oversee the arbitration award enforcement efforts. Id.
¶ 27. On or about January 26, 2006, Huatu commenced
enforcement proceedings. Id. ¶¶ 4, 33. On or about June
24, 2009, NAFT, Anderson Guangzhou, and Huatu agreed
1. The following facts are drawn from the First Amended Complaint,
Dkt. 18, and are assumed to be true for purposes of this motion. See Stadnick
v. Vivint Solar, Inc., 861 F.3d 31, 35 (2d Cir. 2017).

14a
Appendix C
to retain Kaiming to assist with the ongoing enforcement
efforts. Id. ¶¶ 5, 35. All three Plaintiffs and NAFT entered
into a supplemental agreement that was intended to
remain in effect until December 31, 2009. Id. ¶ 35, 39.
On November 3, 2009, a three-judge panel of the
Intermediate People’s Court of Shenzhen City issued a
civil decision recognizing and enforcing the arbitration
award. Id. ¶¶ 6, 42. The decision allowed NAFT to obtain
a secured creditor interest in 172,544,050 shares of stock
independently valued at nearly $41.5 million U.S. dollars
held by the respondent in the enforcement proceedings.
Id. ¶¶ 7, 44-45. On or about October 8, 2010, against
the advice of Plaintiffs, NAFT allegedly entered into a
settlement agreement through which it sold its interest in
the attached assets for $11.2 million in partial satisfaction
of the arbitration award, and released the remaining
balance of the arbitration award for nominal consideration
of 1 RMB. Id. ¶¶ 8, 48-50. NAFT allegedly refused to pay
Plaintiffs their agreed-upon contingent fee. Id. ¶¶ 10, 53.
STATE COURT ACTION2
On April 15, 2011, Anderson Guangzhou and Kaiming
commenced proceedings against NAFT2 in the New York
2. The following facts are drawn from the filings in the New York
State Court proceedings as well as the affirmations and exhibits the
parties filed in support of their briefs in this action. The First Amended
Complaint provides a hyperlink to the New York Supreme Court docket,
Dkt. 18 at ¶ 55 n.2, attaches a New York Supreme Court hearing transcript
and order, Dkts. 18-9 & 18-10, and attaches the New York Supreme Court
Appellate Division, First Department’s order affirming dismissal, Dkt

15a
Appendix C
Supreme Court. See Murchadha Aff. ¶¶ 1, 4-6, Dkt. 29
(citing Dkt. 1, Anderson & Anderson LLP-Guangzhou v.
N. Am. Foreign Trading Corp., No. 651010/2011, 2017 WL
11367694 (N.Y. Sup. Ct. Nov. 29, 2017) (hereinafter “State
Court Action”), aff’d sub nom. Anderson & Anderson
LLP v. N. Am. Foreign Trading Corp., 165 A.D.3d 511,
87 N.Y.S.3d 180 (1st Dept. 2018)). On March 26, 2012,
David Buxbaum of the law firm Anderson & Anderson
LLP appeared as counsel on behalf of the plaintiffs, see
id. ¶ 7, and on June 25, 2012, Huatu was joined as a third
plaintiff pursuant to a prior stipulation of the parties, see
id. ¶ 9 & Ex. 3. On December 4, 2013, the plaintiffs filed
a second amended complaint asserting causes of action
substantially similar to those asserted here. See id. ¶¶ 1322 & Ex. 4 (Dkt. 207, State Court Action).
Shortly after filing their second amended complaint,
the plaintiffs moved for summary judgment despite
the fact that no discovery had taken place. See id. ¶ 23
(citing Dkts. 211-215, State Court Action). The plaintiffs
submitted an affirmation of fact by David Buxbaum
who was also their attorney in support of their motion
18-11. Accordingly, the state court filings are incorporated into the First
Amended Complaint by reference. See Roth v. Jennings, 489 F.3d 499,
509 (2d Cir. 2007) (“Documents that are attached to the complaint or
incorporated in it by reference are deemed part of the pleading and may
be considered.”). The Court considers the affirmations and exhibits the
parties filed in support of their briefs in this action because when facts
regarding subject-matter jurisdiction are contested, “the court may resolve
the disputed jurisdictional fact issues by referring to evidence outside of
the pleadings, such as affidavits.” Fountain v. Karim, 838 F.3d 129, 134 (2d
Cir. 2016) (quoting Zappia Middle E. Constr. Co. v. Emirate of Abu Dhabi,
215 F.3d 247, 253 (2d Cir. 2000)).

16a
Appendix C
for summary judgment. See id. ¶ 24. NAFT moved
to disqualify Buxbaum on the grounds that (1) his
representation presented a conflict between his former
client (NAFT) and his current clients (the plaintiffs) in
violation of Rule 1.9 of the New York Rules of Professional
Conduct, and (2) he was an essential witness and therefore
his participation as counsel violated Rule 3.7 of the New
York Rules of Professional Conduct. See id. (citing Dkts.
229-232, State Court Action). The court granted NAFT’s
motion to disqualify Buxbaum on both grounds, see id.
¶¶ 25-26 & Ex. 6 (Dkt. 270, State Court Action), and the
Appellate Division, First Department affirmed, see id.
¶ 27 & Ex. 7 (Anderson & Anderson LLP Guangzhou v.
North American Foreign Trading Corp., 139 A.D.3d 464,
31 N.Y.S.3d 60 (1st Dept. 2016)).
After the plaintiffs’ new counsel appeared, they filed
a note of issue a sworn statement that the action was
trial-ready and that no further discovery was needed
and another motion for summary judgment. See id. ¶ 28
(citing Dkts. 370, 392-98, State Court Action). NAFT
filed a motion to strike the note of issue. See id. ¶ 29. The
court granted NAFT’s motion in an oral ruling on October
18, 2016, stating that “there are several discovery items
outstanding including fact discovery, and, significant,
expert discovery” and describing the plaintiffs’ decision
to file a note of issue as “ridiculous” and “a little bit
disingenuous, to put it mildly.” Id. ¶ 29 & Ex. 8, at 7:2-3,
13:13-19 (Dkt. 457, State Court Action & Oct. 18, 2016 Tr.,
State Court Action).

17a
Appendix C
The court next set a discovery schedule, see id. ¶ 30
& Ex. 9 (Dkt. 453, State Court Action), with which the
plaintiffs failed to comply, see id. ¶ 31. At a December
13, 2016 conference, the plaintiffs’ counsel stated that he
had “difficult communicating” with his clients, and that
although he had agreed to produce certain discovery, he
“wasn’t able to obtain any previous documents.” See id.
¶ 33 & Ex. 11, at 4:2-10 (Dec. 13, 2016 Tr., State Court
Action). Shortly thereafter, the plaintiffs’ counsel moved
for leave to withdraw on the grounds that the plaintiffs
were not cooperating with their own attorneys. See id.
¶ 33 (citing Dkt. 470, State Court Action).
At a February 7, 2017 conference, the plaintiffs’
counsel reiterated that he had failed to comply with
the court’s discovery schedule because of his difficulty
reaching his clients, stating, “We communicated with the
client[s], they didn’t respond, because we don’t have that
information to respond, it’s in the custody of the plaintiffs
themselves. They never responded.” See id. ¶ 34 & Ex.
12, at 17:17-20 (Feb. 7, 2017 Tr., State Court Action). The
court granted the plaintiffs’ counsel’s motion to withdraw,
scheduled a conference for March, and stated, “I expect to
hear that documents have been exchanged and that we’re
on to the next stage . . . I expect a great deal of progress.”
See id. ¶ 34 & Ex. 12, at 22:12-17.
At the March 17, 2017 conference, the plaintiffs’ newest
counsel explained that he had not produced any documents
because he had “received nothing from . . . any of the firms
in China.” See id. ¶ 35 & Ex. 13, at 8:19-21 (March 17, 2017
Tr., State Court Action). The court directed NAFT to file

18a
Appendix C
a motion to hold the plaintiffs in contempt of court. See id.
at Ex. 13, at 9:13-17. By March 24, 2017, the court-ordered
date for the end of fact discovery, the plaintiffs had not
produced any documents and none of their witnesses had
been deposed. See id. ¶ 35.
In April 2017, NAFT moved for sanctions and the
plaintiffs’ counsel moved to withdraw. See id. ¶ 36. The
court held oral argument and issued an oral ruling on May
23, 2017. See id. ¶ 37 & Ex. 14 (May 23 Tr., State Court
Action). The plaintiffs’ counsel stated, “To date, I have not
been given any documents by any of the plaintiffs. So, I
have nothing to turn over.” Id. ¶ 37 & Ex. 14, at 14:25-15:2.
The court granted NAFT’s motion for sanctions, granted
the plaintiffs’ counsel leave to withdraw, and entered a 30day stay to allow the plaintiffs to designate new counsel.
See id. ¶ 37 & Ex. 14. The court also entered a conditional
order that required the plaintiffs to produce all discovery
within a specified period following the lifting of the 30-day
stay and provided that failure to do so would result in the
automatic striking of the complaint. See id. ¶ 37 & Ex. 14.
The court incorporated its oral ruling into a written order
on June 5, 2017. See id. ¶ 38 & Ex. 14.
When the plaintiffs failed to produce the required
discovery by the court-ordered deadline, NAFT moved to
enforce the conditional order. See id. ¶ 39. On September
22, 2017, the court granted the motion and struck the
plaintiffs’ complaint. See id. ¶ 39 & Ex. 15 (Dkt. 870, State
Court Action). The court held:

19a
Appendix C
The Court finds plaintiffs have failed to offer a
reasonable excuse for [their] failure to comply
with the June 5, 2017, conditional order and
have continually shown this Court disrespect
for its rulings and a blatant disregard of its
orders. In furtherance of the conditional order
of June 5, 2017, having found plaintiff[s] failed to
timely secure new counsel and failed to comply
with the discovery demands and production
of witnesses for depositions, plaintiffs have
violated this order, failed to litigate their case,
and, therefore, the complaint is hereby stricken.
Id. ¶ 39 & Ex. 15, at 16-17. The court also stated that, “for
literally years, years and years, from 2014 on,” it was
“constantly, constantly being lied to” by the plaintiffs. Id.
¶ 39 & Ex. 15, at 20. The court marked the action “Case
Disposed.” Id. at Ex. 15.
The plaintiffs appealed the decision to the Appellate
Division, First Department, which affirmed the dismissal
of the complaint on October 18, 2018. See id. ¶¶ 40-41 &
Ex. 16 (Anderson & Anderson LLP v. N. Am. Foreign
Trading Corp., 165 A.D.3d 511, 87 N.Y.S.3d 180 (1st Dept.
2018)). On October 23, 2018, the New York Supreme Court
docketed a remittitur from the Appellate Division. See id.
¶ 42 & Ex. 23 (Dkt. 902, State Court Action).
PROCEDURAL BACKGROUND
On April 16, 2019, Plaintiffs commenced this action,
asserting claims for breach of contract, quantum meruit,

20a
Appendix C
implied contract, breach of fiduciary duty, and unjust
enrichment against Defendants Edith Lowinger and
NAFT. Dkt. 1. Plaintiffs were initially represented by
David C. Buxbaum, the attorney who was disqualified in
the New York Supreme Court action. After the Clerk of
Court issued a summons as to each Defendant on April
17, 2019, Dkts. 5-6, Plaintiffs filed affidavits of service on
May 8, 2019, Dkts. 8-10, attesting that NAFT was served
on April 22, 2019 and the estate of Edith Lowinger was
served on April 29, 2019. Defendants filed a motion to
dismiss on May 30, 2019. Dkt. 13. Plaintiffs then filed
a First Amended Complaint on June 5, 2019, Dkt. 18,
which only named NAFT as a Defendant and included the
same claims as the initial complaint except for breach of
fiduciary duty. Plaintiffs also filed a notice of substitution
of attorney on June 12, 2019, Dkt. 19, which the Court
granted that day, Dkt. 20.
NAFT filed a renewed motion to dismiss the First
Amended Complaint on June 24, 2019, Dkt. 27. Although
NAFT’s motion does not cite to the Federal Rules of Civil
Procedure, the Court construes NAFT’s motion as raising
arguments under 12(b)(1) for lack of subject-matter
jurisdiction, 12(b)(5) for insufficient service of process,
and 12(b)(6) for failure to state a claim upon which relief
can be granted. Plaintiffs opposed NAFT’s motion on July
15, 2019, Dkt. 38, and NAFT replied in support thereof
on July 25, 2019, Dkt. 41.
On July 15, 2019, Plaintiffs moved for an extension of
time for service of process based on excusable neglect.
Dkt. 37. NAFT opposed Plaintiffs’ motion on July 25,

21a
Appendix C
2019, Dkt. 40, and Plaintiffs replied in support thereof on
August 1, 2019, Dkt. 43.
LEGAL STANDARD
“A case is properly dismissed for lack of subject matter
jurisdiction under Rule 12(b)(1) when the district court
lacks the statutory or constitutional power to adjudicate
it.” Makarova v. United States, 201 F.3d 110, 113 (2d Cir.
2000). “A plaintiff asserting subject matter jurisdiction
has the burden of proving by a preponderance of the
evidence that it exists.” Id. “In resolving a motion to
dismiss under Rule 12(b)(1), the district court must take
all uncontroverted facts in the complaint (or petition) as
true, and draw all reasonable inferences in favor of the
party asserting jurisdiction.” Fountain, 838 F.3d at 134
(quoting Tandon v. Captain’s Cove Marina of Bridgeport,
Inc., 752 F.3d 239, 243 (2d Cir. 2014)). “[T]he court may
resolve the disputed jurisdictional fact issues by referring
to evidence outside of the pleadings, such as affidavits, and
if necessary, hold an evidentiary hearing.” Id. (quoting
Zappia Middle E. Constr. Co., 215 F.3d at 253).
“In considering a Rule 12(b)(5) motion to dismiss
for insufficient service of process, a court must look[ ]
to matters outside the complaint to determine whether
it has jurisdiction.” Cassano v. Altshuler, 186 F.Supp.3d
318, 320 (S.D.N.Y. 2016). “Once a defendant challenges the
sufficiency of service of process, the burden of proof is on
the plaintiff to show the adequacy of service.” Vantone
Grp. Ltd. Liab. Co. v. Yangpu Ngt Indus. Co., No. 13CV-7639 (LTS), 2016 U.S. Dist. LEXIS 92180, 2016 WL
3926449, at *2 (S.D.N.Y. July 15, 2016) (citation omitted).

22a
Appendix C
To survive a motion to dismiss under Federal Rule of
Civil Procedure 12(b)(6), a complaint must plead “enough
facts to state a claim to relief that is plausible on its
face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127
S. Ct. 1955, 167 L. Ed. 2d 929 (2007). “A claim has facial
plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868
(2009). On a motion to dismiss, the Court must “accept[]
all factual allegations as true, but ‘giv[e] no effect to legal
conclusions couched as factual allegations.’” Stadnick, 861
F.3d at 35 (quoting Starr v. Sony BMG Music Entm’t, 592
F.3d 314, 321 (2d Cir. 2010)).
DISCUSSION
NAFT’s motion to dismiss raises four arguments.
First, NAFT argues that this action was commenced in
bad faith by attorney David C. Buxbaum after he was
disqualified in the state court action pursuant to Rules
1.9 and 3.7 of the Rules of Professional Conduct. NAFT
argues that Plaintiffs are now collaterally estopped from
relitigating the issue of Buxbaum’s disqualification in this
Court. NAFT further argues that Plaintiffs’ substitution
of counsel following the filing of the First Amended
Complaint “did nothing to cure the ethical violation by
Buxbaum or the harm to Defendant.” Mot. to Dismiss at 8.
Second, NAFT argues that Plaintiffs have failed to
meet their burden of establishing the existence of federal
diversity jurisdiction. Although Plaintiffs allege in the

23a
Appendix C
First Amended Complaint that Anderson Guangzhou
“was and is a corporation organized and operating under
Chinese law, with its principal place of business located
in Guangzhou, Guangdong Province, China,” FAC ¶ 12
n.1, NAFT argues that Anderson Guangzhou is in fact a
limited liability partnership. Indeed, Plaintiffs describe
Anderson Guangzhou as a “limited liability entity” in the
initial complaint in this action, Compl. ¶ 13, Dkt. 1, and as
a “limited liability partnership” in the second amended
complaint in the state court action, Murchadha Aff. ¶ 4 &
Ex. 4 ¶ 3, Dkt. 29. “[F]or purposes of diversity jurisdiction,
limited partnerships have the citizenship of each of its
general and limited partners.” Handelsman v. Bedford
Vill. Assocs. Ltd. P’ship, 213 F.3d 48, 52 (2d Cir. 2000)
(citing Carden v. Arkoma Assocs., 494 U.S. 185, 195-96,
110 S. Ct. 1015, 108 L. Ed. 2d 157 (1990)). Accordingly,
NAFT argues that Plaintiffs have failed to establish that
each of the partners of Anderson Guangzhou has diverse
citizenship.
Third, NAFT argues that this action is barred by the
six-year statute of limitations for breach of contract actions
in New York. See N.Y. C.P.L.R. § 213(2) (providing that “an
action upon a contractual obligation or liability, express
or implied” “must be commenced within six years”).
Plaintiffs concede that this action was filed after the sixyear statute of limitations for breach of contract actions,
yet argue that the action is nonetheless timely because it
falls within New York’s “Savings Statute.” N.Y. C.P.L.R.
§ 205(a). NAFT argues that Plaintiffs cannot rely upon the
Savings Statute for two reasons. First, NAFT argues that
Plaintiff failed to effect service within six months after the

24a
Appendix C
termination of the state action, as required by the Savings
Statute. Second, NAFT argues that the Savings Statute
is inapplicable because the state action was dismissed for
“neglect to prosecute” due to Plaintiffs’ repeated failure
to comply with discovery orders.
Finally, NAFT argues that Plaintiffs have not
properly served their complaint. Plaintiffs attempted to
serve the summons and complaint on a receptionist who
was walking through the lobby of the building where
NAFT’s office is located. See Chang Aff. ¶¶ 5-11. NAFT
claims that the receptionist is neither an employee nor
an agent of NAFT (but rather an employee of a different
business that shares office space with NAFT), that she
was not authorized to accept service on behalf of NAFT,
and that she affirmatively refused to accept service. See
id. ¶¶ 1, 4-11.
For the reasons that follow, the Court holds that it
does have diversity jurisdiction over the action. It further
finds, however, that that this action falls outside of the New
York Savings Statute, N.Y. C.P.L.R. § 205(a), because it
was dismissed by the state court for neglect to prosecute.
Accordingly, the Court grants NAFT’s motion to dismiss,
and does not reach NAFT’s arguments in the alternative
that the action was commenced by disqualified counsel
and that Plaintiffs have failed to effect timely service.
Because this action would be dismissed even if Plaintiffs
had timely served their First Amended Complaint, the
Court denies as moot Plaintiffs’ motion for an extension
of time to effect service.

25a
Appendix C
I. 	The Court Has Diversity Jurisdiction Over This
Action
“’It is a fundamental precept that federal courts
are courts of limited jurisdiction’ and lack the power
to disregard such limits as have been imposed by the
Constitution or Congress.” Durant, Nichols, Houston,
Hodgson & Cortese-Costa P.C. v. Dupont, 565 F.3d 56,
62 (2d Cir. 2009) (quoting Owen Equipment & Erection
Co. v. Kroger, 437 U.S. 365, 374, 98 S. Ct. 2396, 57 L.
Ed. 2d 274 (1978)). “A plaintiff asserting subject matter
jurisdiction has the burden of proving by a preponderance
of the evidence that it exists.” Fountain, 838 F.3d at 134
(quoting Makarova, 201 F.3d at 113). “A district court
may not assume subject-matter jurisdiction when the
record does not contain the necessary prerequisites for
its existence.” Platinum-Montaur Life Scis., LLC v.
Navidea Biopharmaceuticals, Inc., 943 F.3d 613, 618 (2d
Cir. 2019); see also Sinochem Int’l Co. v. Malaysia Int’l
Shipping Corp., 549 U.S. 422, 431, 127 S. Ct. 1184, 167 L.
Ed. 2d 15 (2007).
Plaintiffs argue that this Court has diversity
jurisdiction pursuant to 28 U.S.C. § 1332 because all three
Plaintiffs are citizens of China and NAFT is a citizen of
New York. “[D]iversity jurisdiction exists over civil actions
(1) between ‘citizens of different States’ and (2) between
‘citizens of a State and citizens or subjects of a foreign
state,’” provided the amount in controversy exceeds
$75,000. Herrick Co. v. SCS Commc’ns, Inc., 251 F.3d 315,
322 (2d Cir. 2001) (quoting 28 U.S.C. § 1332). Diversity
jurisdiction “is available only when all adverse parties to

26a
Appendix C
a litigation are completely diverse in their citizenships.”
Id. “[F]or purposes of diversity jurisdiction, limited
partnerships have the citizenship of each of its general and
limited partners.” Handelsman, 213 F.3d at, 52 (2d Cir.
2000) (citing Carden, 494 U.S. at 195-96); see also Caren v.
Collins, 689 F. App’x 75, 76 (2d Cir. 2017). “United States
citizens domiciled abroad are neither citizens of any state
of the United States nor citizens or subjects of a foreign
state, so . . . § 1332(a) does not provide . . . jurisdiction
over a suit to which such persons are parties.” Herrick
Co., 251 F.3d at 322 (internal citations and quotation
marks omitted). “Putting these two principles together
. . . generates the conclusion that if [a limited partnership]
has among its partners any U.S. citizens who are domiciled
abroad, then [the limited partnership and the opposing
party that is a U.S. citizen] are non-diverse.” Id. By
contrast, “a corporation shall be deemed to be a citizen
of every State and foreign state by which it has been
incorporated and of the State or foreign state where it
has its principal place of business.” 28 U.S.C. § 1332(c)(1).
The parties do not dispute that NAFT is a citizen
of New York and that Plaintiffs Huatu and Kaiming are
citizens of China. NAFT argues, however, that Plaintiff
Anderson Guangzhou is a limited liability partnership,
rather than a corporation, and that it has “partners” or
“members” who are U.S. citizens, thus defeating diversity
jurisdiction. NAFT’s argument rests on the stated name
of “Anderson & Anderson LLP Guangzhou” (emphasis
added) and Plaintiffs’ prior representations in this action,
the prior federal court action, and the state action. In
the initial complaint in this action, Plaintiffs alleged

27a
Appendix C
that Anderson Guangzhou “was and is a firm engaged
in legal practice, formed as a limited liability entity with
its principal place of business located in Guangzhou,
Guangdong Province, China.” Compl. ¶ 13, Dkt. 1. In a
prior federal court action before Chief Judge McMahon,
Plaintiffs alleged that Anderson Guangzhou “was and is
a boutique international law firm composed of various
entities with offices in Guangzhou city in Guangdong
Province, China.” Compl. ¶5, Anderson & Anderson LLP
et al. v. North American-Foreign Trading Corp., 18-CV2491-CM (S.D.N.Y. March 20, 2018) . And in the second
amended complaint in the state court action, Plaintiffs
alleged that Anderson Guangzhou “was and is a law
firm formed as a limited liability partnership with its
principal place of business located in Guangdong, China.”
Murchadha Aff. ¶ 46 & Ex. 4 ¶ 3, Dkt. 29.
NAFT f u r t her a rg ues that Pla i nt i f fs’ pr ior
representations in the state court action indicate that
at least some of Anderson Guangzhou’s members are
U.S. citizens who reside in China. For example, attorney
Courtney Delano West filed a June 7, 2017 affirmation in
the state court action in which he alleged that he was a
“member” of Anderson Guangzhou and had “relocated”
to Guangzhou, China shortly after filing his notice of
appearance. Id. ¶ 50 & Ex. 21 ¶ 7. West again alleged
that he was “an attorney and member of Anderson &
Anderson LLP Guangzhou (dba Anderson & Anderson
LLP)” in an August 4, 2017 affirmation. Id. ¶ 47 & Ex.
19 ¶ 18. Attorney David Buxbaum also filed a September
12, 2017 affirmation in the state court action in which he
alleged that he is a “member” of Anderson Guangzhou, a

28a
Appendix C
U.S. citizen, and a resident of China. Id. ¶¶ 48-49 & Ex.
20 ¶¶ 1, 4, 6.
Plaintiffs’ First Amended Complaint alleges for
the first time that Anderson Guangzhou “was and is a
corporation organized and operating under Chinese law,
with its principal place of business located in Guangzhou,
Guangdong Province, China.” FAC ¶ 12. The First
Amendment Complaint contains a footnote asserting
that “Chinese corporations register their official names
in Chinese characters . . . . While Anderson uses the
designation ‘LLP’ in its English DBA, the initials have
no bearing on its status as a corporation under Chinese
law.” Id. ¶ 12 n.1. In support of their opposition to NAFT’s
motion to dismiss, Plaintiffs filed an affirmation by Wei
Yujing, an employee of Anderson Guangzhou. Wei Aff.,
Dkt. 38-1. 3 Wei alleges that “Anderson & Anderson LLP
Guangzhou has all the attributes of a corporation in the
United States except it has a limited lifespan, initially of
twenty (20) years, which can be extended.” Id. ¶ 3. Wei
further alleges that Anderson Guangzhou “is a unified
corporate entity not identified by shareholders. The entity
itself has limited liability; not its shareholders, and is a
citizen of Guangzhou where it has its registered address.
It is a corporate entity in Guangzhou, China, registered
pursuant to Chinese law and its sole shareholder is a Hong
Kong corporation called Anderson & Anderson Ltd.” Id.
¶ 6. Wei further alleges that Anderson Guangzhou is
considered a “limited responsibility company (also known
3. A s described above, “ the court may resolve the disputed
jurisdictional fact issues by referring to evidence outside of the pleadings,
such as affidavits.” Fountain, 838 F.3d at 134 (citations omitted).

29a
Appendix C
as a limited liability company)” under Chinese law, which
means that it is “liable for [its] debts only to the extent of
its property.” Id. ¶ 10. Wei also alleges that Anderson &
Anderson Ltd. “owns all of [Anderson & Anderson LLP
Guangzhou’s] equity or registered capital,” id. ¶ 10, and
that “Anderson & Anderson LLP Guangzhou has no other
shareholders nor are there any shares held by David C.
Buxbaum or any other foreign entity,” id. ¶ 11. Finally, Wei
alleges that while “Anderson & Anderson has been casual
about its use of its English name,” the literal English
translation of its Chinese name is “Anderson & Anderson
(Guangzhou) Counselor’s Company Limited.” Id. ¶ 7. She
attaches a copy of Anderson Guangzhou’s business license
and a purported English translation thereof, id. at Ex. A,
which identifies the business as a “Limited Responsibility
Company,” as well as other exhibits for which she provides
no English translation, id. at Exs. B & C.
On balance, the Court finds that Plaintiffs have
established diversity jurisdiction by a preponderance of
the evidence. Although the Court agrees with NAFT that
Plaintiffs’ prior representations about its corporate status
were misleading and are inconsistent with their current
representations, the Court is persuaded by Plaintiffs’
assertion that “Anderson & Anderson has been casual
about its use of its English name,” id. ¶ 7, and concludes
that Buxbaum and West were similarly “casual” about
their use of the word “member.” Other than identifying
semantic inconsistencies between Plaintiffs’ past and
present descriptions of Anderson Guangzhou’s corporate
status, NAFT has not produced any evidence calling into
question Wei’s sworn affirmation alleging that a Hong

30a
Appendix C
Kong corporation, Anderson & Anderson Ltd., owns all of
Anderson Guangzhou’s equity and capital and that neither
David C. Buxbaum nor any other foreign person or entity
has an ownership stake in the business. Indeed, after
Plaintiffs filed Wei’s affirmation, NAFT did not produce
any evidence in response thereto and merely rested on its
argument that Plaintiffs had “fail[ed] to explain or even
mention “ their prior inconsistent statements. See NAFT
Reply at 10, Dkt. 41. Yet Plaintiffs did acknowledge these
inconsistencies in Wei’s affirmation, and attributed them
to their “casual” use of a non-literal English translation.
Wei Aff. ¶ 7. The Court is also persuaded by the reasoning
of Shanshan Shao v. Beta Pharma, Inc., that “a limited
company formed pursuant to the laws of Hong Kong
. . . should be treated as corporations for the purpose of
§ 1332(c)(1)” and that “Hong Kong corporations appear to
be citizens of China.” No. 3:14-CV-01177(CSH), 2018 U.S.
Dist. LEXIS 65735, 2018 WL 1882855, at *3-4 (D. Conn.
Apr. 19, 2018) (internal quotation marks and citations
omitted). Accordingly, the Court concludes that Plaintiffs
have established by a preponderance of the evidence
that Anderson Guangzhou is a wholly-owned foreign
entity with Chinese citizenship, not a limited liability
partnership with U.S. citizen partners. Plaintiffs have
therefore established diversity jurisdiction pursuant to
28 U.S.C. § 1332.4
4. If this case were to proceed to the merits stage, NAFT would be
free to produce additional evidence after discovery to challenge Plaintiffs’
allegation that Anderson Guangzhou is a foreign-owned Chinese entity, as
a court “must dismiss” an action if it “determines at any time that it lacks
subject-matter jurisdiction.” Fed. R. Civ. P. 12(h)(3) (emphasis added). Yet
as explained in the following section, this action is dismissed because it is
time-barred.

31a
Appendix C
II. 	This Action Falls Outside the New York Savings
Statute, N.Y. C.P.L.R. § 205(a)
As Plaintiffs acknowledge, this action is subject to
New York’s six-year statute of limitations for breach of
contract actions, N.Y. C.P.L.R. § 213(2), and would be
timely only if it falls within the New York Savings Statute,
N.Y. C.P.L.R. § 205(a). The Savings Statute provides, in
relevant part:
If an action is timely commenced and is
terminated in any other manner than by
. . . a dismissal of the complaint for neglect
to prosecute the action . . . the plaintiff
. . . may commence a new action upon the
same transaction or occurrence or series of
transactions or occurrences within six months
after the termination provided that the new
action would have been timely commenced at the
time of commencement of the prior action and
that service upon defendant is effected within
such six-month period. Where a dismissal is
one for neglect to prosecute the action made
pursuant to rule thirty-two hundred sixteen
of this chapter or otherwise, the judge shall
set forth on the record the specific conduct
constituting the neglect, which conduct shall
demonstrate a general pattern of delay in
proceeding with the litigation.
Id. By its plain terms, the Savings Statute does not
apply to actions that have been dismissed for neglect to
prosecute.

32a
Appendix C
The Second Circuit has held that “[t]he obvious
purpose of CPLR § 205(a) . . . is to prevent the general
statute of limitations from barring recovery because a
court has ordered a timely action to be terminated for
some technical defect that can be remedied in a new one.”
Doyle v. Am. Home Prods. Corp., 583 F.3d 167, 171 (2d
Cir. 2009) (quoting Graziano v. Pennell, 371 F.2d 761, 763
(2d Cir.1967)). “However, in order to receive the benefits
of 205(a) tolling, the litigant must have prosecuted his
original claim diligently.” Id.
As detailed above, the state court plainly dismissed the
action for neglect to prosecute, not for a technical defect.
The state court repeatedly extended its discovery deadlines
and provided Plaintiffs with ample opportunity to pursue
their action, including by allowing Plaintiffs to substitute
new counsel after multiple attorneys moved to withdraw
due to Plaintiffs’ failure to communicate. See Murchadha
Aff. ¶¶ 3-42 & Exs. 1-17. In its September 22, 2017 decision
striking the plaintiffs’ complaint, the court held:
The Court finds plaintiffs have failed to offer a
reasonable excuse for [their] failure to comply
with the June 5, 2017, conditional order and
have continually shown this Court disrespect
for its rulings and a blatant disregard of its
orders. In furtherance of the conditional order
of June 5, 2017, having found plaintiff failed to
timely secure new counsel and failed to comply
with the discovery demands and production
of witnesses for depositions, plaintiffs have
violated this order, failed to litigate their case,
and, therefore, the complaint is hereby stricken.

33a
Appendix C
Id. ¶ 39 & Ex. 15, at 16-17 (Dkt. 870, State Court Action).
Because the state court dismissed the case for neglect to
prosecute and set forth on the record the specific conduct
constituting the neglect, this action falls outside the
bounds of the New York Savings Statute, N.Y. C.P.L.R.
§ 205(a) and is thus untimely.
III.	Plaintiffs’ Motion for an Extension of Time to
Effect Service is Denied as Moot
In light of the fact that this action falls outside of N.Y.
C.P.L.R. § 205(a) because it was dismissed for neglect
to prosecute, it would be dismissed even if Plaintiffs
had properly effected service within six months of
the termination of the state court action. Accordingly,
Plaintiffs’ motion for an extension of time to effect service
is denied as moot.
CONCLUSION
For the foregoing reasons, NAFT’s motion to dismiss
the First Amended Complaint is granted and Plaintiffs’
motion for an extension of time is denied. The Clerk of
Court is respectfully directed to terminate the motions
at Dkts. 27 and 37 and close this case. SO ORDERED.
Dated:
March 18, 2020
	New York, New York
/s/ Ronnie Abrams
Ronnie Abrams
United States District Judge

34a
Appendixof
D rehearing of
Appendix D — denial
the UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT, DATED MARCH 3, 2021
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 20-1322
Anderson & Anderson LLP-Guangzhou,
Guangdong Huatu Law Firm, Beijing
Kaiming Law Offices,
Plaintiffs-Appellants,
v.
North American Foreign
Trading Corporation,
Defendant-Appellee,
Estate of Edith Lowinger,
Defendant.
ORDER
Appellants Anderson & Anderson LLP-Guangzhou,
Guangdong Huatu Law Firm, Beijing Kaiming Law
Offices having filed a petition for panel rehearing and
the panel that determined the appeal having considered
the request,

35a
Appendix D
IT IS HEREBY ORDERED that the petition is
DENIED.
For The Court:
Catherine O’Hagan Wolfe,
Clerk of Court
/s/				

36a
Appendix E AND ORDER of
Appendix e — DECISION
the SUPREME COURT OF THE STATE OF
NEW YORK, NEW YORK COUNTY, DATED
SEPTEMBER 25, 2017
SUPREME COURT OF THE STATE
OF NEW YORK NEW YORK COUNTY
ANDERSON & ANDERSON, LLP- GUANGZHOU,
BEIJING KAIMING LAW OFFICES, GUANGDONG
HUATU LAW FIRM, ANDERSON &
ANDERSON LLP,
Plaintiffs,
- vNORTH AMERICAN-FOREIGN TRADING CORP.,
Defendant.
INDEX NO. 651010/2011
MOTION DATE 09/21/2017
MOTION SEQ. NO. 021
DECISION AND ORDER
The following e-filed documents, listed by NYSCEF
document number 782, 783, 784, 785, 786, 787, 788, 789,
790, 791, 792, 793, 794, 795, 796, 797, 798, 799, 800, 801,
802, 803, 804, 805, 806, 831, 832, 833, 834, 835, 836, 837,
838, 839, 840, 841, 842, 843, 844, 845, 846, 847, 848, 849,
850, 851, 852, 853, 854, 859, 860, 861, 862, 863, 864, 867,
868 were read on this application to/for Strike

37a
Appendix E
Upon the foregoing documents, it is
ORDERED Defendant’s motion to Strike Plaintiffs’
Complaint is GRANTED as stated on the September 14,
2017 record and transcript at 2:14-17:3; it is further
ORDERED Plaintiffs Cross-Motion for a Stay is DENIED
as moot as stated on the September 14, 2017 record and
transcript at 17:4-6.
9/22/2017
DATE

/s/					
EILEEN BRANSTEN, J.S.C.

38a
Appendix E
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY: CIVIL TERM: PART 3
ANDERSON & ANDERSON LLP - GUANGZHOU,
BEIJING KAIMING LAW OFFICES, GUANGDONG
HUATU LAW FIRM, and ANDERSON &
ANDERSON LLP,
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
Index No. 651010/2011
September 14, 2017
BEFORE: HON. EILEEN BRANSTEN, Justice
THE COURT: Set up on Anderson and Anderson.
Today I have before me motion sequence number
19, which is counsel’s motion to be reinstated, plaintiffs’
counsel to be reinstated; motion number 20, plaintiffs’
motion for pro hac vice that has been withdrawn; motion
sequence number 21, defendant’s motion for sanctions to
strike complaint.

39a
Appendix E
Then today I received motion sequence number 22,
which, again, is the same plaintiffs’ motion for pro hac
vice which was withdrawn and now redone. We’ll deal
with that later.
You may sit down. I’m going to give you my decision.
Background.
This case arises from defendant North American
Foreign Trading Corporation’s, otherwise known as
NAFT, alleged failure to pay plaintiffs’ legal fees earned
in connection with plaintiffs’ representation of NAFT
during an arbitration proceeding in China.
Plaintiffs’ representation of defendant took place
between 2005 and 2009. NAFT signed an initial retainer
agreement with plaintiff law firm, Anderson Guangzhou,
Kaiming and Huatu in 2005 and the second retainer
agreement in 2009 for 18 percent of NAFT’s potential
arbitration award.
Plaintiffs allege that their share df NAFT’s eventual
award plus additional fees owed totaled nearly $7.5 million
plaintiff.
Anderson Guangzhou, Kaiming and Huatu initiated
the action in 2011 arising from the above facts.

40a
Appendix E
Procedural history.
On February 13, 2014, defendant moved to disqualify
the law firm Anderson and Anderson LLP and attorney
David Buxbaum from representing plaintiffs on the
grounds that, one, Buxbaum was a necessary witness in
the case and, two, Buxbaum and Anderson and Anderson
LLP formerly represented NAFT.
On October 20, 2014, the Court granted NAFT’s motion
to disqualify Buxbaum and Anderson and Anderson LLP.
The Court found that Buxbaum was disqualified under
the, quote, “advocate witness rule,” finish quote, Rule
3.7 of the New York Rules of Professional Conduct. The
Court further found that both Buxbaum and Anderson
and Anderson LLP were disqualified from representing
plaintiffs under the, quote, “former client rule,” finish
quote, which bars attorneys from representing clients
whose interests are materially adverse to a former client
in substantially related matters.
Note. Some time after this ruling, Anderson and
Anderson LLP was joined as a plaintiff in the lawsuit.
Soon after the October 20th, 2014 disqualification,
plaintiffs hired Blank and Star to represent them in this
matter.
On May 10, 2016, the First Department affirmed this
Court’s October 20th, 2016 decision on the disqualification
motion. The First Department found that this Court
properly disqualified Buxbaum and his firm, Anderson

41a
Appendix E
and Anderson LLP, under Rule 1.9 (the former client rule)
and stated in dicta that it would have affirmed the Court’s
determination under Rule 3.7 (the advocate witness rule)
as well.
After the disqualification affirmance was issued,
plaintiffs filed a note of issue and moved for summary
judgment.
October 19, 2016, the Court issued a discovery order
setting forth a so-called discovery schedule. The Court
so ordered a discovery order setting forth the so ordered
discovery schedule. NYSCEF number 453.
In a decision dated October 31, 2016, the Court struck
the note of issue and directed the parties to proceed with
the discovery.
On December 7, 2016, Courtney West, Esquire filed a
notice of appearance on behalf of all plaintiffs.
On December 14, 2016, a further conference was
held whereby plaintiffs were directed to comply with all
outstanding discovery demands. NYSCEF document
number 468.
On January 3rd, 2017, Blank and Star LLP filed
a motion to withdraw as counsel for plaintiffs citing a
breakdown in communications.
On October 18, 2017 plaintiffs filed a “cross-motion,”
finish quote, against defendant NAFT--defendant NAFT

42a
Appendix E
seeking a vacatur of the Court’s October 20, 2014 order
granting NAFT’s motion to disqualify Buxbaum and
Anderson and Anderson LLP.
On February 7, 2017, Blank and Star’s motion to be
relieved as counsel was granted; however, no stay was
issued. Attorney Christopher Carrion, Esquire filed what
he called a, quote, “limited appearance,” finish quote, for
the purposes of arguing that relief motion and did appear
in Court on behalf of the plaintiffs. The Court determined
he was not permitted to represent plaintiff only for one
appearance and would, in fact, be their attorney of record.
Also on February 7, 2017 the Court ruled Mr. West was
covered by the previous October 2014 order disqualifying
Anderson and Anderson LLP, but invited him to file a
motion to be relieved from that ruling. See the February
7, 2017 transcript at page 18 line 7 through page 20 line 5.
Despite this invitation, between February and August
of 2017, without Court approval, West continued to file
documents and motions in direct violation of this Court’s
disqualification order.
At the same February 2017 conference, plaintiffs
were again questioned as to why discovery remained
outstanding. Mr. Carrion advised, despite his request to
his clients, no documents had been produced. Again, it’s
the February 7, 2017 transcript at pages 10 -- I’m sorry-17 line 10 through 18 line 6.

43a
Appendix E
As for plaintiffs’ cross-motion to vacate the October
2014 order, the Court denied such relief because, after all,
it had been affirmed by the First Department. I mean, you
know, you’re asking me to reverse the First Department,
which I don’t do.
On March 22nd, 2017, Mr. Carrion filed a motion to
be relieved as plaintiffs’ counsel, which was granted on
June 5, 2017. A stay was interposed for 30 days to allow
plaintiff to yet again retain new counsel. The Court also
specifically directed plaintiffs to retain new counsel by
June 22nd, 2017. If that did not occur, the Court said,
defendant was directed to file a motion to strike plaintiffs’
complaint for failure to prosecute. See the June 5, 2017
order with the May 23rd, 2017 transcript at page 5 line 4
through page 7 line 18.
No attorney filed an appearance by June 22nd, 2017
on behalf of plaintiffs.
On August 7th, more than six weeks later, 2017,
attorney Kenneth Han, Esquire f iled a notice of
appearance on behalf of all plaintiffs.
Now before the Court are two motion: Courtney
West’s motion to be reinstated as counsel for plaintiff and
defendant’s motion seeking -- I’m sorry -- for plaintiffs and
defendant’s motion to strike plaintiffs’ complaint.
Motion sequence number 20 was for a pro hac vice
admission of Amelia R. Niemi, Esquire, which was
withdrawn. However, on September 7th, 2017, Ms. Niemi

44a
Appendix E
re-filed her motion for pro hac vice under motion sequence
number 22 by way of order to show cause.
The Court is going to address motion sequence
number 21 first.
21 is defendant’s motion to strike the complaint and
plaintiffs’ cross-motion for a stay.
Defendants seek an order striking this action,
considering plaintiffs’ failure to comply with this Court’s
June 6, 2017 order. Plaintiffs cross-move for a stay pending
the appeals filed with the First Department and retention
of new counsel to permit him, Mr. Han, to, quote, “catch
up”.
Just to refresh our recollection, it’s motion sequence
number 16 that’s being appealed. That was another
disqualification motion.
As for defendant’s motion to strike, as stated
previously, this Court issued an order dated June 5, 2017
directing plaintiffs to obtain new counsel by June 22nd,
2017 and to provide documents -- document discovery
by July 20, 2017. This is, after all, a 2011 cause of action.
The index number is 2011. So here I am in 2017 giving
final dates, neither of which were completed by the courtordered dates, if, indeed, they have ever been completed.
As stated on the record, quote, “Because corporations
cannot appear without counsel, new counsel must be
appointed and not counsel only for one appearance in the

45a
Appendix E
next conference or motion and then disappear ... Plaintiffs
will have 30 days to retain new counsel, staying this matter
only until new counsel will appear in 30 days, which will
be on June 22nd, 2017 ... If that person files a notice of
appearance on June 22nd, 2017 or before, the Court will
not grant any further motions to be relieved. After which,
since June 22nd, 2017, defendants will be entitled to file
a motion to dismiss for plaintiffs’ failure to litigate and
advance this case. So if you don’t have anybody by June
22nd, indeed, you will have a right to make a motion to
dismiss this case in its entirety.” At the May 23rd, 2017
transcript, at pages 6 line 26 through page 7 line 21.
Also, as stated on the June 5th, 2017 order, which
accompanied the May 2017 transcript, quote, “Plaintiffs
are to provide written discovery to defendant within 15
days following the automatic lifting of the 30-day stay and
are to produce the designated witnesses within 45 (days)”
-- days is added, so it’s in paren --” (days) following the
automatic lifting of the 30-day stay. Failure to comply will
result in an automatic striking of plaintiffs’ complaint.”
That’s NYSCEF document number 728.
And, also, I have it here, too. Here it is.
Plaintiffs opposed, arguing it was a difficult process
to obtain new counsel and it was not until August 7, 2017
when new counsel was retained.
Of note, no hard copies of opposition were submitted
to this statement.

46a
Appendix E
This case is a 2011 matter and has a tortured history
of inactivity.
It is well-settled principle, in every court proceeding,
a party must either be represented by counsel or appear
pro se.
Matter of Sharon B., 72 New York 2d 394 at page 398
in 1988. A Court of Appeals case.
And when an entity does not appear through counsel,
the proper response is to dismiss their claims and award
a default judgment against them.
Citing to Moran v. Hurst, 32 A.D.3d 909 at page 910.
Second Department 2010 case. Quote, (“The complaint,
insofar as asserted on behalf of the plaintiff Moran
Enterprises, Incorporated, was properly dismissed as that
plaintiff failed to appear by an attorney”), finish quote.
Also citing to Tenant’s Committee of 36 Gramercy
Park versus New York State Division of Housing and
Community Renewal, 108 A.D.3d 413 at page 414. First
Department 2013 case. Quote, (“Appeal dismissed for
failure to appear by counsel.”)
Dismissal is the appropriate remedy, especially when
it is the plaintiff that does not appear by counsel.
See, e.g., Knobel versus Wei Group, LLP, 2016
Westlaw 1464475 at .2. Supreme Court, New York County,
April 14, 2016 case.

47a
Appendix E
Here, as laid out in the procedural history, plaintiffs
have continued to rotate through counsel, each time
being admonished discovery must advance in this 2011
matter and further delay would not be tolerated. The final
admonition was issued on June 5, 2017 directing plaintiffs
to retain new and final counsel by June 22nd, 2017. Not
only did plaintiffs fail to comply with this order, they never
brought their alleged difficulty up to the Court -- either
by a letter or anything, any communication whatsoever -and/or to their adversary to request an extension of time.
Rather, the order was blatantly disregarded and ignored.
The second ground on which the defendant moves to
strike the complaint is plaintiffs’ failure to produce the
discovery, again, in violation of the June 5, 2017 order.
The Court’s conditional order dated June 5, 2017
directed plaintiffs to produce discovery within 15 days
of the automatic 30-day stay’s expiring, which was on
--which would have expired on July 5, 2017. Plaintiffs were
also directed to produce designated witnesses within 45
days following the automatic lifting of the stay. Again, in
this 2011 case, ’11, which makes it six years have gone by
without an ounce of discovery. It is not disputed plaintiffs
have produced nothing of any nature whatsoever in terms
of discovery and no one, as far as I know.
Am I correct, Mr.
MR. O’MURCHADHA: You are correct, your Honor.
We have gotten no documents whatsoever from the
plaintiffs.

48a
Appendix E
THE COURT: Defendant’s memo in support of his
motion at page 15.
It is settled New York law that, if a party does not fully
comply with a conditional order of the type issued by this
Court, its pleadings is automatically stricken and it is an
abuse of discretion not to enforce the order.
See Gibbs versus St. Barnabas Hospital, 16 New York
3d 74 at page 81 through 82, a 2010 case. In Gibbs, the
Court of Appeals held that both the motion court and the
Appellate Divisione erred in not enforcing a conditional
order precluding the plaintiff from presenting evidence
of negligence if a supplemental bill of particulars was not
served by a certain date and directed that the conditional
order be enforced and that the complaint be dismissed.
Same citation. Once a conditional order is not complied
with, it is self-executing and becomes, quote, “absolute,”
finish quote. Same citation at page 83.
In a long line of cases, the Appellate Division First
Department routinely holds that conditional orders with
language similar to the Court’s order that I made are
self-executing and become absolute if not complied with.
See, e.g., CPS LLC versus Brody, 135 A.D.3d 607 at
page 60 8, First Department 2 016 case. Quote, (“Supreme
Court properly struck the defendant’s answer based on
its finding that he failed to comply with a conditional
order requiring compliance with discovery, demands ...
Plaintiff was entitled to have the answer struck and a
default judgment entered on the complaint”) finish quote.

49a
Appendix E
Also, Ramos versus Stern, 100 A.D.3d 409 at page 409
and page 410. First Department 2012 case. (Affirming
motion court that enforced conditional order and struck
answer; trip to Israel was not a valid excuse.)
Ortiz versus 3115 Broadway Development Fund, 73
A.D.3d 540 at page 540. First Department 2010 case.
(Affirming enforcement of conditional order and striking
pleadings.)
AWL Industries, Incorporated versus QBE Insurance
Corp., 65 A.D.3d 904 at page 905. First Department
2009 case. (Consideration of summary judgment motion
was unnecessary because the conditional order was not
complied with and the motion to strike answer should
have been granted.)
DeRiggi versus Brady, 68 A.D.3d 487 at page 487.
First Department 2009 case. (Affirming motion court that
enforced conditional order and struck answer.)
Yong Gon Cha versus Warwick Hotel, 272 A.D.2d,
154 at page 155. First Department 2000 case. (Affirming
motion court that enforced conditional order and struck
answer.)
Goldstein versus Janecka, 172 A.D.2d 463 at page
465. First Department 1991 case. (Abuse of discretion to
relieve party from default in complying with conditional
order.)

50a
Appendix E
There could be more, but I just gave you just a
sampling of all the cases that the First Department has
found that a failure to abide by a conditional order merits
dismissal of the complaint.
In opposition, plaintiffs argued under Gibbs, a
conditional order can be avoided -- can avoid execution if
the defaulting party can demonstrate a reasonable excuse
for the default and a meritorious cause of action. Gibbs at
16 New York 3d 74 page 81.
Yet, while plaintiffs advanced several, quote,
“excuses,” finish quote, none are a reasonable excuse for
their default.
Among the excuses offered is essentially plaintiffs
disagreed with the Court’s issuance of prior orders,
namely the disqualification of Mr. Buxbaum and his firm;
the striking of the plaintiffs’ note of issue; and the issuance
of a conditional order -- they don’t agree with that, either
-- by plaintiffs’ memo in opposition at pages 7 through 11.
However, no one may ignore a court order merely
because they subjectively believe the order to be, quote,
“wrong,” finish quote.
See, e.g., Margulies versus Margulies-- I think versus
Margulies -- 42 A.D.2d 517 at page 517. First Department
1973 case. Quote, (“The Court had jurisdiction over the
parties and the subject matter and even if the orders were
erroneous, the defendant was obligated, in the absence
of a stay, to obey the Court’s mandate until vacated or
reversed”) finish quote.

51a
Appendix E
Pa r t icu la rly, i n ou r case here, the order of
disqualification, which everybody takes questions about,
was affirmed by the First Department. Affirmed means
it was sustained and it is the law of the case.
The second excuse offered is that it was difficult to
obtain new counsel and, albeit belatedly, plaintiffs now
have counsel. Plaintiffs memo in opposition at 8.
However, it is well settled that failure to obtain counsel
when directed by the Court is not a, quote, “reasonable
excuse,” finish quote for a subsequent default.
See Gerlin versus J. Homann Trucking, 303 A.D.2d
262 at page 262. First Department 2003 case. (Default,
quote, “is not reasonably excused by [defendants’] claim
that they were unable to afford an attorney”) finish quote.
135 Bowery LLC versus 10117 LLC, 145 A.D.3d 1225
at page 1227 and 1228. Third Department 2016 case. Quote
(“Given defendant’s repeated failures to obtain counsel
despite ample opportunity to do so, Supreme Court acted
well within its discretion in concluding that defendant
indeed was aware of the pending motion but was derelict
in timely acquiring counsel to oppose plaintiff’s motion
.... Accordingly, defendant’s failure to retain counsel
prior to the return date of the motion did not constitute a
reasonable excuse for its default”) finish quotes.
Additionally, plaintiffs argued they filed letters in (by
Courtney West) seeking protective orders concerning the
demand for depositions (NYSCEF document 775) which

52a
Appendix E
allegedly evinces a good-faith effort to advance discovery.
Plaintiffs’ memo in opposition at page 20.
To be noted, the letter reportedly sought to conduct
plaintiffs’ depositions through written questions as
opposed to live testimony. Again, the same cite.
A s a preliminar y matter, Cour tney West, as
previously stated and as it currently stands, is disqualified
from representing any parties in this action, necessarily
including filing papers on their behalf.
Further, plaintiffs reference a NYSCEF document
number 775, which is not contained on the docket nor
annexed to their motion. This document is their purported
request to the Court for the protective order.
This document -- plaintiffs claim, quote, “Because
they did not receive a response from the Court, they filed
a request for a stay with the Appellate Division.” (Han
affirmation in support to cross-motion at paragraph 9.)
It should be noted that that request for a stay was
denied by the Appellate Division on September 5, 2017.
Nonetheless, the Court finds plaintiffs have failed to
offer a reasonable excuse for its failure to comply with
the June 5, 2017 conditional order and have continually
shown this Court disrespect for its rulings and a blatant
disregard of its orders.

53a
Appendix E
In furtherance of the conditional order of June 5,
2017, having found plaintiff failed to timely secure new
counsel and failed to comply with discovery demands
and production of witnesses for depositions, plaintiffs
have violated this order, failed to litigate their case and,
therefore, the complaint is hereby stricken.
Plaintiffs’ cross-motion for a stay in furtherance of
the Appellate Division’s. recent denial for the same relief
is denied as moot.
But there are other issues that even solidify the
decision, not only just the conditional order. I think there
are many other procedural problems, which I want to put
into the record.
For example, one, plaintiffs impermissibly filed a
reply to their cross-motion, which is not permitted under
the CPLR. Moreover, in direct violation of the Court
rules, plaintiffs did not e-file or deliver these papers until
yesterday, being Wednesday September 13, 2017. Another
attempt to ambush this Court.
In addition to the grounds stated herein for the
dismissal of plaintiffs’ complaint, the following other
actions that were taken by plaintiffs have to be considered.
Anderson and Anderson LLP continues to attempt
to litigate this case in the face of an appellate decision
confirming its disqualification.

54a
Appendix E
On July 21, 2017, both sides appeared before the
Appellate Division, plaintiffs allegedly represented by
a Mr. James Wolff, Esquire of Anderson and Anderson
LLP. When the honorable Ellen Gesmer of the Appellate
Division learned that counsel was from Anderson and
Anderson LLP, Mr. Wolff was reprimanded, reminded
Anderson and Anderson LLP was disqualified from
this case and has no standing to appear on plaintiffs’
behalf. Mr. Wolff was cautioned that he and his firm’s
actions could give rise to a malpractice claim for causing
plaintiffs to default. (Defendant’s reply affirmation at page
-- paragraph 8.)
Additionally, flying in the face of contrary evidence,
Mr. West continues to represent to this Court he is, quote,
“not employed with Anderson and Anderson LLP,” finish
quote and, thus, is entitled to appear for plaintiffs in this
matter. (West memo at paragraphs 6 and 9.) Rather, Mr.
West claims he works with Anderson and Anderson LLPGuangzhou. Again, same West memo at paragraph 7.
While the Court need not rule on Mr. West’s motion to
appear in this action, as the complaint has been dismissed,
the Court rules will briefly address that claim.
As defendant points out, Anderson and Anderson
LLP’s website, lists Mr. West under the, quote, “Our
people” section. And I put in quotes, “Our People” section.
Also, Mr. West’s Linked In page states that he is a, quote,
“legal consultant to Anderson and Anderson LLP’’ in
direct contravention of what he states in his affirmation,
which is, after all, a sworn document to this Court done
by supposedly an attorney.

55a
Appendix E
And I just cite the two pages that come to mind.
This one, with his picture and everything else, says
underneath “Anderson and Anderson LLP.” On the page
of Anderson and Anderson LLP.
The next one is the name here in front of the New
York skyline, “Courtney Delano West the 2nd. Legal
consultant at Anderson and Anderson LLP. Anderson and
Anderson LLP. Thomas M. Cooley Law School Greater
New York Area. 500 plus.” Again, “Experience. Legal
consultant Anderson and Anderson LLP. December 2016
to the present. 10 months.” It does say that he lives in
Guangdong.
But there is no doubt that to say in an affirmation that
“I have no connections with Anderson and Anderson LLP”
is in direct contravention to what his website states and
we can only think that that was an attempt to deceive this
Court as to his relationship with Anderson and Anderson
LLP.
It seems plaintiffs are engaging in gamesmanship
insomuch there does not appear to be a clear difference
between Anderson and Anderson LLP and Anderson
and Anderson LLP-Guangzhou. In fact, according to
defendant, plaintiffs concede Anderson and Anderson
LLP and Anderson and Anderson LLP-Guangzhou are,
quote, “the same firm,” finish quote. (Defendant’s memo
in reply at page 15.)

56a
Appendix E
If true, this concession flies in the face of arguments
advanced by plaintiff for literally years, years and years,
from 2014 on. Constantly, constantly being lied to, to this
Court.
When convenient, Mr. West submits letters, albeit
impermissibly, using the Anderson and Anderson LLP
letterhead.
Additionally, plaintiffs failed to even respond to
defendant’s argument that Mr. West appears on the
website of Anderson and Anderson LLP.
Even if the Court needed to address the merits of Mr.
West’s motion, which it does not, it should be noted that
already disqualified counsel, Mr. David Buxbaum, also
holds himself out as working for Anderson and Anderson
LLP-Guangzhou. See Buxbaum affirmation in support
of motion sequence number 19 at paragraph 1. If this is
true, the firm of Anderson and Anderson LLP-Guangzhou
would also be precluded from representing plaintiffs in
this action under the former client rule. Such preclusion
would necessarily also include Mr. West, who claims to
also work for Anderson and Anderson LLP-Guangzhou.
Under the New York rules, former client disqualification
is imputed to current and former members of the same
firm. If a lawyer represents a client while at one firm,
moves to the second firm, and then attempts an adverse
representation, not only is the lawyer disqualified, but
there also arises a presumption that their new firm is
also disqualified.

57a
Appendix E
See Kassis versus Teacher’s Insurance and Annuity
Association, 93 New York 2d 611 at page 617. 1999 case.
Quote (“Thus, where one attorney is disqualified as a
result of having acquired confidential client information
at a former law firm, the presumption that the entirety of
the attorney’s current firm must be disqualified may be
rebutted”) finish quote.
As such, if David Buxbaum is, in fact, now with
Anderson and Anderson LLP-Guangzhou, to the extent
that it is a separate legal entity, his, quote, “new firm” is
presumptively disqualified.
So that takes care of motion sequence number 20.
As to motion sequence number 19, Courtney West’s
motion to be reinstated as attorney for plaintiffs, in light
of the dismissal of the complaint and the prior statements,
this motion is denied as moot.
Motion sequence number 20 has been withdrawn.
Motion sequence number 22, this is the new one,
Amelia Niemi, Esquire’s motion for pro hac admission,
in light of the dismissal of the complaint, this motion is
also denied as moot.
And that constitutes the decision and order of this
Court and that also, I believe, concludes Anderson and
Anderson LLP. I believe that ends the litigation that has
lasted six years before this Court.

58a
Appendix E
I will not see you again, at least not on this case.
Now we have to get the minutes, because it will be my
decision I read into the record that is, indeed, the decision
that I’m sure is going to be appealed. So I need to have
the minutes as soon as possible.
I’ll give you the gray sheet that’s the appealable order.
Today is the 14th.
MR. HAN: Your Honor, may I raise one question?
THE COURT: What?
MR. HAN: May I -THE COURT: I can’t hear you.
MR. HAN: May I raise one question?
THE COURT: Raise whatever you wish.
MR. HAN: I think Mr. West, he filed his motion
appearance for counsel on June -- on June – around June
21st.
THE COURT: Sir, sir, this was not Mr. West’s first
motion to appear.
Am I correct?
How many motions on that?

59a
Appendix E
MR. O’MURCHADHA: He made at least one motion
to vacate the original disqualification order.
THE COURT: This was the second time.
And, frankly, I’d be hearing it today, but I made my
decision. There was no proper new counsel brought in in
a timely fashion pursuant to my order. And Mr. West was
well aware that he was disqualified from what I considered
to be a proper order and his attempt to play games would
not change my decision.
MR. HAN: Thank you, your Honor.
On the June 5, 2017 order, you said Mr. West should
provide his -THE COURT: I did give him the opportunity to do
that. But guess what? He didn’t do it. He waited until -MR. HAN: He filed his motion on time.
THE COURT: What?
MR. HAN: He filed his motion.
THE COURT: My decision is made, all right.
Anderson and Anderson LLP’s complaint is hereby
dismissed.

60a
Appendix E
By the way, my order says that notice of appearance
had to be filed with this Court by that -- by the date that
I had mentioned.
(Pause in proceedings)
THE COURT: June 22nd, 2017 it had to be filed. There
was nothing filed.
MS. OLIVER: May I speak, your Honor?
There’s still a pending appeal in November, is that
right, your Honor, or is there not a November date? I
believe there’s -- on information and belief, there’s an
appeal -- scheduled conference in November, is that
correct?
THE COURT: I have no idea.
Mr. -MR. O’MURCHADHA: That’s in the Appellate
Division, not before this Court.
MS. OLIVER: Thank you. Okay.
THE COURT: I do think that the Appellate Division
should be informed of my decision, but by that time
you’ll have a gray sheet, which you can then -- because
possibly it may inform the Appellate Division decision in
consideration of the appeal on motion sequence number 16.

61a
Appendix E
I think you should do that.
I think that completes everything. I don’ t think there
is anything more.
I’m writing -- two things.
I wrote a gray sheet for motion sequence number
20. Ordered, that Amelia Niemi, Esquire’s motion for
pro hac vice admission is withdrawn in accordance with
the attached letter. I signed that. That takes care of that
motion.
I’m writing a gray sheet for number 22, which is
the deemed moot because of my decision to dismiss the
complaint. There’s no need for pro hac vice, all right.
(Proceedings adjourned)
Certified to be a true and
accurate transcript of the
foregoing proceedings
/s/					
Anne Marie Scribano

62a
APPENDIX F — Appendix
LETTER FTO HONORABLE
EILEEN BRANSTEN FROM DAVID C. BUXBAUM,
DATED JUNE 20, 2017
June 20, 2017
By Electronic Filing
Honorable Eileen Bransten
Supreme Court of the State of New York, County of
New York
60 Centre Street, Room 442
New York, New York 10007
Re: Anderson & Anderson et al. v. NAFT; Index #:
651010/2011
Dear Judge Bransten,
I write to urge the Court to change the return date on
Mr. West’s Motion for Leave to Appear (Mot. Seq. 019).
On June 5, 2017, based entirely on NAFT’s material
misrepresentations of fact to the Court, namely that Mr.
West is employed by the alleged disqualified New York
entity, the Court issued an order requiring Mr. West to
submit a motion for leave to continue to appear as counsel
for Plaintiffs in this case.
Following the Court’s June 5, 2017, order, Mr. West
immediately submitted his motion by order to show
cause on June 7, 2017, verifying his non-involvement in
the drafting and negotiating of the 2005 Contingency

63a
Appendix F
Contract and the 2009 Supplementary Agreement
between NAFT and Plaintiffs. Not only was this a
complete waste of judicial resources, but it also placed
Plaintiffs at a significant disadvantaged as Plaintiffs are
now without counsel in China and New York. In fact,
the Court’s all-of-a-sudden disqualification of Mr. West
was the reason the Court provided for not considering
Plaintiffs’ papers in response to the previous motion
for sanctions—the very motion NAFT submitted on the
advice of the Court against Plaintiffs and Mr. West—
which the Court ruled was unopposed and granted, in
part, in favor of NAFT.
Mr. West graduated from law school in 2013 and, therefore,
quite obviously did not participate in the draft or
negotiating of the 2005 Contingency Contract or the 2009
Supplementary Agreement between NAFT and Plaintiffs.
He was admitted to the practice of law in 2015. Mr. West
has explained in numerous filings that he is not employed
by Anderson & Anderson LLP, the alleged disqualified
New York entity. Mr. West has also explained in numerous
filings that he recently joined Anderson & Anderson
LLP—Guangzhou in November 2016, that he recently
relocated to Guangzhou, China, and that he has never been
employed by any other Anderson entity. Therefore, there
should be no questions as to his involvement (or the lack
thereof) in the drafting or negotiating of the 2005 and 2009
agreements between Plaintiffs and NAFT. Requiring Mr.
West to explain his non-involvement in the drafting and
negotiating of these agreements before allowing Mr. West
to represent Anderson & Anderson LLP--Guangzhou is
ridiculous, it’s a waste of time, and it only supports NAFT

64a
Appendix F
in its litigation tactic of further delaying the just resolution
of this simple breach-of-contract case.
Furthermore, the Court’s August 15, 2017, return date
on Mr. West’s signed Order to Show Cause further
disadvantages Plaintiffs as it continues to leave Plaintiffs
without counsel for over two months and further ties
Plaintiffs’ hands behind their back. There is no reasonable
reason for Mr. West to file this motion, and there is no
reasonable reason for the Court to prolong a decision on
this motion.
For the forgoing reasons, I respectfully request that
the Court either drop the requirement for Mr. West to
make such an absurd application or reschedule the return
date for a few days from today so that this matter can
be properly disposed of and Plaintiffs can, at least, have
counsel in China.
Respectfully submitted,
/s/				
David C. Buxbaum
Anderson & Anderson LLP—Guangzhou
CC: (via e-filing):
Richard H. Dolan, Esq.
Niall D. O’Murchadha, Esq.

65a
Appendix
Appendix G — Letter
toGTHE Honorable
Eileen Bransten from Courtney
Delano West, DATED JUNE 20, 2017
ANDERSON & ANDERSON LLP
June 20, 2017
By Electronic Filing
Honorable Eileen Bransten
Supreme Court of the State of New York,
County of New York
60 Centre Street, Room 442
New York, New York 10007
Re: Anderson & Anderson et al. v. NAFT; Index #:
651010/2011
Dear Judge Bransten,
I write to respectfully request that the Court change the
return date on the signed Order to Show Cause for Motion
Sequence 019.
On June 5, 2017, the Court issued an order requiring me
to submit a motion to confirm my non-involvement in the
drafting and negotiating of the 2005 and 2009 retainer
agreements between NAFT and Plaintiffs before allowing
me to continue to represent Plaintiffs in this case. Without
delay, on June 7, 2017, I submitted said motion by Order
to Show Cause. On June 16, after more than a week
without the Court signing said Order to Show Cause, I

66a
Appendix G
wrote a letter to the Court expressing my concerns that
the disqualification order and the court’s delay in signing
the Order to Show Cause has significantly disadvantaged
Plaintiffs as Plaintiffs are now without counsel in both
New York and China.
The Court recently signed the Order to Show Cause.
However, the Court has set a return date for August 15,
2017, over two months into the future. Such an extended
delay in a decision on this motion further disadvantages
Plaintiffs as it extends the time that Plaintiffs are without
any counsel.
For the forgoing reasons, I respectfully request that the
Court change the return date of the Order to Show Cause
and reschedule it for the second week in July, which allows
enough time for opposition papers, if any.
Respectfully submitted,
/s/
Courtney Delano West
Anderson & Anderson LLP—Guangzhou
CC:

(via e-filing):
Richard H. Dolan, Esq.
Niall D. O’Murchadha, Esq.

67a
Appendixof
H the SUPREME
Appendix h — ORDER
COURT OF THE STATE OF NEW YORK, COUNTY
OF NEW YORK, filed june 19, 2017
SUPREME COURT OF THE STATE OF NEW
YORK: COUNTY OF NEW YORK: IAS PART 3
ANDERSON & ANDERSON LLP--GUANGZHOU,
BEIJING KAIMING LAW OFFICES, GUANGDONG
HUATU LAW OFFICES, and ANDERSON &
ANDERSON LLP
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
MOT. SEQ. NO. 019
Index No. 651010/11
(Bransten, J.)
ORDER TO SHOW CAUSE
UPON the annexed A ff ir mation of Cour tney
Delano West, dated June 7, 2017; the Affirmation of
David C. Buxbaum, dated June 7, 2017, and the exhibits
attached thereto; the Memorandum of Law; and all prior
proceedings and pleadings in this action had herein;

68a
Appendix H
LET Defendant show cause before the Supreme Court
of the State of New York at the Courthouse located at 60
Centre Street, New York, New York 10007 in the Motion
Support Office thereof, Room 130, at 11:30 am, on the 15
day of Aug. 2017, at 10:45 am or soon thereafter as counsel
can be heard, why an order should not be granted allowing
Courtney Delano West to appear as counsel for Plaintiffs
in the case.
Movant is directed to serve defendants by NYSCEF
with a copy of this order and the [indecipherable] it is
based upon by 6-16-17.
PLEASE TAKE FURTHER NOTICE that pursuant
to CPLR § 2214, answering papers, if any, shall be served
at least seven (7) days prior to the return date.
Oppostion by July 21, 2017.
Reply, if rec., by 8-4-17
ENTER:
/s/					
Hon. Eileen Bransten J.S.C.

69a
Appendix
I TO JUSTICE
APPENDIX I —
LETTER
LAWRENCE K. MARKS FROM DAVID C .
BUXBAUM, DATED JUNE 5, 2017
ANDERSON & ANDERSON LLP
July 5, 2017
Justice Lawrence K. Marks
Chief Administrative Judge
New York State Court System
New York County Courthouse
60 Centre Street Room 629
New York, New York 10007
Re: Anderson & Anderson, LLP - Guangzhou et. al. v.
NAFT (NYSCEF Index Number: 651010/2011)
Dear Justice Marks,
We are involved in current litigation concerning a
contract case by Plaintiffs Anderson & Anderson LLP—
Guangzhou (“Anderson Guangzhou”), Beijing Kaiming
Law Offices (“Kaiming”), and Guangdong Huatu Law
Firm (“Huatu”) against Defendant North American
Foreign Trading Corp. (“Defendant” or “NAFT”) to
collect an agreed-upon contingency fee under a retainer
agreement, after Plaintiffs’ successful fulfillment of
performance obligation under the retainer agreement
on behalf of Defendant. This action is before Eileen
Bransten in the Supreme Court of New York, New York
County, Commercial Division (NYSCEF Index Number:
651010/2011).

70a
Appendix I
We are writing to you because this case is at an
impasse and cannot proceed if the status quo remains
as it is. We are six years into litigation, with no end
in sight. There are currently six letters pending before
the New York State Commission on Judicial Conduct
relating to Judge Bransten’s action and inaction in this
case. There is a pending bar complaint with the New
York Departmental Disciplinary Committee for the First
Department against Defendant’s law firm, Schlam Stone &
Dolan, LLP due to their fraud and deception perpetuated
upon the Court. Further, the past five motions that have
gone before the Court are all pending appeal. This is
not normal litigation.
Something must be done to help change the course
of this case. We ask you to use your authority to help
untangle this leviathan of a case so that it can proceed
on the merits, not be bogged down by peripheral issues
designed to confuse the issues. Specifically, we ask that
you, or someone from your office, review the extensive
file for this case and meet with Judge Bransten in hopes
of disposing this case in a rational and economic way, for
example, by holding a hearing on the Motion for Summary
Judgment that has already been fully briefed, without
entertaining additional extraneous arguments regarding
the supposed need for a Note of Issue.
A large reason why, despite the case being instituted
in 2011, we are still discussing these peripheral issues is
Defendant’s strategy to delay as long as possible, which is
compounded by the fact that Judge Bransten has stopped
listening to the Plaintiffs, resulting in a one-sided case
with no neutral adjudicator.

71a
Appendix I
Specifically, Judge Bransten:
• Routinely ignores Plaintiffs, going so far as to holding
four ex parte hearings with only Defense Counsel
present, and di sregarding numerous filings submitted
by Plaintiffs;
• Routinely demonstrates her lack of knowledge of the
facts surrounding the case, and even the posture of the
case, as a result of deliberately refusing to consider
Plaintiffs’ filings; and
• Routinely cites to New York statutes, rules, and case
law that are either improper for the facts or procedure
at hand or simply improperly applied, as a mechanism
that allows her to continuously ignore Plaintiffs.
• Routinely and deliberately deprives Plaintiffs of
counsel, further prohibiting Plaintiffs from having a
voice in this case.
This systematic approach to silencing Plaintiffs is
cutting them off at the knees and prevents them from
moving forward in pursuing their claim.
Background of the case
The underlying facts to the dispute are quite simple
and are not contested. In 2005, NAFT asked its longtime
counsel, Anderson – Guangzhou for assistance in enforcing
an arbitration award. Anderson - Guangzhou introduced
Huatu to NAFT to commence litigation to enforce the
award, and in 2009, a third firm, Kaiming, was brought on
to strengthen the firms’ efforts. Two retainer agreements

72a
Appendix I
were signed, the first between NAFT and Huatu on
December 29, 2005, and the second between NAFT,
Huatu, Kaiming, and Anderson - Guangzhou on June
24, 2009.1 The Plaintiffs turned the arbitral award into
a Chinese judgment and attached the asset within the
specified time frame in the agreement and fulfilled their
performance obligations under the contract. The resulting
arbitral award was for $22,000,000 plus interest, fees,
and costs, and by the time the Chinese Court issued its
order, the award was equal to approximately $41,488,4572.
Pursuant to the 2005 and 2009 retainer agreements,
Plaintiffs were entitled to receive their contingency fee,
based on the value of the frozen asset. However, Defendant
sold the asset thereafter approximately one-third the
value, and received more than $11,000,000. 3
However, the simplicity of this case – which Judge
Bransten herself has recognized 4 - has been made
1. NYSCEF 1-1 (Contingency Contract for Legal Services
2005) and NYSCEF 1-2 (Supplementary Agreement 2009)
2. NYSCEF Doc. 207 at paragraph 24; NYSCEF 1-5 and 1-6.
3. NYSCEF 207 at paragraph 27; NYSCEF 1-7.
4. For example, in September 2015, Judge Bransten
recognized “that the translation of the arbitration award into
cash, into a cash asset, was done in November of 2009 and, in fact,
the contract was fulfilled at that time.” (NYSCEF Doc. No. 675
at page 8, lines 22-26, emphasis added). She sent the parties to
Alternate Dispute Resolution within the New York Court System
to work out what was owed to Plaintiffs under the terms of these
contracts. (NYSCEF Doc. No. 675 at Page 5-6). Somehow in the
past two years, she has allowed the case to severely devolve and
now the viability of the case itself is threatened.

73a
Appendix I
complicated by Judge Bransten’s numerous rulings that
have resulted in several years’ delay.
Summary Judgment Delays
Plaintiffs want to proceed with their summary
judgment motion so that the merits of the case can be
properly addressed and adjudicated. We have been
seeking this for a number of years, but each time this
motion is presented - and most recently, fully briefed5 –
another obstacle has been erected preventing a discussion
on the merits of the case. Judge Bransten has allowed
Defense Counsel to derail forward movement in two
major ways: by having Plaintiffs’ counsel disqualified as
a tactical derailment weapon6 and by presenting a farcical
pursuit of discovery. Such attempted shenanigans may
be expected from certain types of lawyers, but a judge’s
role as an impartial adjudicator is to prevent such parties
from seizing unfair advantage in a proceeding. Judge
Bransten’s has routinely demonstrated over several years
that she cannot play that role in this case.

5. Motion Sequence 13, denied without prejudice in NYSCEF
Doc. No. 457
6. Strujan v. State Farm Ins., 2011 N.Y. Misc. LEXIS 5022,
*2-3 (N.Y. Sup. Ct. Oct. 4, 2011) (“... there is a concern that such a
motion can become [a] tactical ‘derailment’ weapon for strategic
advantage in litigation, thereby depriving a party’s right to
representation by counsel of its choice .... Thus, the party seeking
to disqualify opposing counsel has a heavy burden.”) (citing S & S
Hotel Ventures Ltd. Partnership v. 777 S. H. Corp., 69 N.Y.2d 437,
443, 508 N.E.2d 647, 515 N.Y.S.2d 735 (1987)) (emphasis added).

74a
Appendix I
Attorney Disqualification
Judge Bransten has disqualified two of Plaintiffs’
attorneys, Mr. David C. Buxbaum and Mr. Courtney
D. West at the request of Defense Counsel, who also
created a fictional New York entity known as “Anderson
& Anderson, LLP” that allegedly was entity that was
engaged to handle Chinese litigation. Judge Bransten
has also held Plaintiffs’ temporary counsel in contempt
of Court, making it difficult for Plaintiffs to find other
counsel to represent them in this matter.
Mr. Buxbaum was, according to Defendant, the primary
negotiator of the 2005 and 2009 retainer agreements and
therefore disqualified from representing Plaintiffs under
the “advocate-witness rule.” 7
“Anderson & Anderson LLP” is a fictitious, yet still
disqualified New York entity who allegedly formerly
represented Defendant and therefore is barred from
representing Plaintiffs under the “former client rule.
“8 However, no New York entity bearing a similar name
came into existence until 2010, well after the retainer
agreements in question were signed9, and evidence that
negotiations were with Chinese entities was supplied to
the Court.10 The disqualification of Mr. Buxbaum and
7. See, e.g. NYSC EF Doc. No. 503 at page 7, lines 2-4
8. NYSCEF Doc. No. 503 at page 7, lines 5-10
9. NYSCEF Doc. No. 250, page 57, registration documentation
for this entity
10. NYSCEF Doc. Nos. 480 and 481

75a
Appendix I
“Anderson & Anderson LLP” are issues currently on
appeal.11
Mr. West is allegedly an attorney employed by, or of
counsel to the disqualified New York entity and therefore
is also disqualified from acting as counsel for Plaintiffs.12
Despite Judge Bransten’s two acknowledgements on
February 713 and March 17, 201714 that he is not employed
by the disqualified New York entity, she abruptly reversed
course on May 23, and held that Mr. West is barred
from making further filings until submits an application
proving that he should not be disqualified15 - then setting
the hearing for this motion nearly two months after it
was submitted.16
Mr. Christopher Carrion was retained by Plaintiffs for
the extremely limited purpose of stepping up on their
behalf at the February 7, 2017 hearing.17 Despite this
11. Appeal of Motion Sequence 14.
12. NYSCEF Doc. No. 503 at page 18, lines 13-16
13. NYSCEF Doc. No. 503 at page 5, at lines 18-19
14. NYSCEF Doc. No. 577, page 14, lines 10-15
15. NYSCEF Doc. No. 725, at page 8, lines 10-12. It should
be noted that this requirement is particularly absurd, as Mr. West
could not have represented Defendant or negotiated contracts
in either 2005 or 2009 in any legal capacity, as Mr. West did not
become licensed to practice law until April 2015. Motion Sequence
19.
16. NYSCEF Doc. No. 749
17. NYSCEF Doc. No. 502

76a
Appendix I
limited representation, Judge Bransten wrongly held Mr.
Carrion in contempt of Court when he did not appear at
the next hearing.18 This treatment, as discussed in greater
detail below, has made it difficult for Plaintiffs to obtain
additional representation in New York.
Discovery Games
In addition to the nonsensical attorney disqualifications
in this case, Judge Bransten has also allowed Defendant
extremely wide latitude with discovery, despite Defendant’s
history of playing games with discovery (which is a central
issue in the pending bar complaint against this firm) and
only seeking discovery as a means to delay discussion
of the case on the merits.19 As discussed below, Judge
Bransten, has allowed Defendant’s discovery requests
to become out of hand, closing and reopening discovery
not once but twice, as discussed below in greater detail. 20
I.

Judge Bransten has demonstrated a pattern of
ignoring and completely disregarding Plaintiffs,
which has allowed the case to proceed in a one-sided
manner in favor of Defendants.

Judge Bransten routinely ignores and disregards
Plaintiffs’ voice in this case. In addition to the four ex parte
hearings she has held, three of which occurred in the past
18. NYSCEF Doc. No. 532 at page 7, lines 2-3
19. Defendant repeatedly refused to participate in discovery
in violation of Court Orders, repeatedly relaying to Plaintiffs that
they have nothing to offer. NYSCEF Doc. Nos. 100, 115, 116

77a
Appendix I
four months, on numerous occasions she has decided for
one reason or another not to consider filings or exhibits
Plaintiffs have submitted.
A.

Judge Bransten has held four ex parte hearings,
with only counsel for defendant present.

The most egregious example of Judge Bransten’s
habit of ignoring Plaintiffs has been the four ex parte
hearings that have occurred in this case, on February 4,
2015, March 7, 2017, March 17, 2017, and most recently
on May 23, 2017. During these hearings, which occurred
without Plaintiffs’ or their counsel’s presence, Judge
Bransten not only ruled on contested issues and afforded
no opportunities for Plaintiffs to be heard according to
law, but also provided legal advice to NAFT’s counsel
and admitted to engaging in an ex parte hearing.
February 4, 2015: In this hearing, without counsel for
Plaintiffs present, the Court approved Defendant’s
motion for alternative service – in violation of the Hauge
Convention – and denied Plaintiff’s cross-motion for
sanctions in its entirety. 21 The record shows that Judge
Bransten then admitted to her wrongdoing and attempted
to cover it by stating, “but please make sure that a copy
of the minutes are [sic] distributed to everybody because
otherwise I feel like we’ve done an ex parte which is not
right” 22 (emphasis added).
21. NYSCEF Doc. No. 571, Exhibit 7 at page 7
22. NYSCEF Doc. No. 571, Exhibit 7 at page 18, lines 4-6

78a
Appendix I
March 7, 2017: This hearing should not have taken place
and was the result of Judge Bransten’s refusal to allow
Plaintiffs the right to hire an attorney for a limited
appearance and subsequently discharge their attorney.
At the previous hearing, Plaintiffs’ prior attorney was
withdrawing as counsel of record, due to Judge Bransten’s
refusal to allow summary judgment to move forward,
and Plaintiffs retained Mr. Christopher Carrion, who
primarily practices criminal law but was the only counsel
Plaintiffs were able to find on short notice, for the limited
purpose of representing them at a single hearing so
that Plaintiffs would have counsel present and to make
a request for a stay, so that they could have time to find
additional counsel. 23 Mr. Carrion properly filed his limited
appearance24 and informed the Court of the conditions of
his representation, but Judge Bransten refused to allow
his limited representation and instead required that he be
attorney of record for the Plaintiffs. 25 She then decided to
set a status hearing for March 7, and went forward with
the next hearing despite multiple requests from Plaintiffs
not to26, as Mr. Carrion was contractually forbidden from
representation at that time.
Nevertheless, the March 7 hearing went forward with
no attorney for Plaintiffs present and as a result, Judge

23. NYSCEF Doc. No. 535
24. NYSCEF Doc. No. 502
25. NYSCEF Doc. No. 503 at page 15
26. NYSCEF Doc. Nos. 509, 510, 522, 523

79a
Appendix I
Bransten held Mr. Carrion 27 and Anderson & Anderson
in contempt28, at Mr. O’Murchadha’s encouragement after
he falsely alleged that Plaintiffs somehow instructed Mr.
Carrion not to appear for this hearing. 29 Judge Bransten
neither addressed Plaintiffs’ letters to the Court nor
afforded Plaintiffs a chance to be heard before holding
Plaintiffs and their temporary counsel in contempt,
despite the evidence on the record of their intentions.
March 17, 2017: This hearing was primarily a contempt
hearing regarding Mr. Carrion’s lack of appearance on
March 7, despite the prior notifications of the court as
discussed previously. At this hearing, Judge Bransten
instructed Defendant to file a motion (or sanctions
against Plaintiffs: “I would suggest that you use [letters
sent by Plaintiffs] as evidence in your motion to hold
Anderson & Anderson LLP--Guangzhou and all the other
[Plaintiffs], and if you wish to add Mr. West’s name to
that list, I cannot tell you what to do, I’m not the lawyer,
you can very well do so ... That would be your Exhibits A,
B, C, D... to persuade the court that I should hold them
in contempt. 30
27. NYS C EF Doc. No. 532 at page 7, lines 2-3
28. NYSCEF Doc. No. 532 at page 12, lines 19-20
29. “it seems to me that this is not just Mr. Carrion
oversleeping or deciding not to show up on his own initiative. It
seems to be something that the Plaintiffs decided well before
today that they were going to do, that if your Honor didn’t grant
the stay, they were just not going to show up,” NYSCEF Doc. No.
577 at page 12, lines 9-17
30. NYSCEF Doc. No. 577 at page 18, lines 16- 25

80a
Appendix I
May 23, 2017: Most recently, at this hearing, Judge
Bransten was again aware that Plaintiffs were without
counsel. Mr. Carrion’s motion to formally withdraw
as counsel was granted, and Plaintiffs were granted a
stay to find additional counsel to represent them in New
York. 31 However, at this ex parte hearing, Judge Bransten
granted Defendant’s Motion 18, requesting sanctions
against Plaintiffs and ordered Plaintiffs to conduct
more discovery – two items that substantially affect
Plaintiffs rights in this case. 32 Plaintiffs had submitted an
opposition motion, a cross-motion, and numerous exhibits
contradicting Defendant’s statements33 but (as discussed
below), Judge Bransten absolutely refused to read any of
Plaintiffs’ filings – even affidavit statements of fact – and
instead deemed Defendant’s motion “unopposed.” 34
Judge Bransten’s has demonstrated a habit of routinely
holding ex parte hearings not made merely for scheduling
or administrative purposes. 35 Because of this habit,
Plaintiffs have not been afforded an opportunity to be
heard while Judge Bransten and Defendant discussed
contested issues that affected the substantial rights of
Plaintiffs. Judge Bransten’s engagement in ex parte
hearings highlights Judge Bransten’s partiality against
the Plaintiffs.
31. NYSCEF Doc. No. 726
32. NYSCEF Doc. No. 728
33. NYSCEF Doc. Nos. 635-703
34. NYSCEF Doc. Nos. 727, 728, 730 at page 13, lines 14-16
35. See 22 NYCRR 100.3(B)(6)(a)

81a
Appendix I
B. On numerous occasions, Judge Bransten either
simply does not read, or has refused to consider
filings, including motions and affidavits
submitted by Plaintiffs’ attorneys
In addition to Judge Bransten’s habit of holding ex
parte hearings, with only counsel for the Defendant
present, she has also established a habit of not reading
Plaintiffs’ submissions to the court – including the
Complaint – and will even in vent reasons not to read
their submissions.
Complaint: After over two years of presiding over this
case, Judge Bransten has stated on the record that she had
not read the Complaint. On June 27, 2013, a hearing was
held to determine whether Plaintiffs would be permitted
to amend their underlying Complaint, so that it would be
in line with an Appellate Divisions’ ruling on the issue. 36
During the hearing, Judge Bransten commented, “because
one of the things that we have with the original complaint
is that the claim was that Anderson was there for a very --then was fired and then the other people --- if my memory
serves me. I haven’t read the complaint”37 (emphasis
added). The implication here regarding discharge of
attorneys was completely fabricated – there have been
no such fabricated allegations made by either party in
this matter. Judge Bransten, instead of understanding
the actual allegations, invented facts that have not been
put forward.
36. NYSCEF Doc. No. 710
37. NYSCEF Doc. No. 710 at pages 23-24

82a
Appendix I
Allegations regarding Defendant’s fraudulent deposition
notice: Plaintiffs have claimed for nearly a year that
Defendants have submitted a fraudulent deposition notice
to the court in an attempt to delay Summary Judgment. 38
This was brought to the Court’s attention. 39 However, on
October 18, 2016, when Mr. O’Murchadha mentioned these
allegations to Judge Bransten, she replied, “Well, that
has not come to the court’s attention,”40 acknowledging
that she has not read these incredibly serious allegations.
38. Plaintiffs have many reasons to suspect that this
Deposition Notice was forged. First, the alleged Notice to Depose,
dated March 5, 2011, predates the case. Second, the alleged
Notice to Depose bears Index Number 651010/2011, identify
Judge Bransten and Part 3, which had not been assigned at
the time the Notice to Depose was allegedly served. Third, the
caption includes Huatu as a party plaintiff. The Court did not
grant Plaintiffs’ motion to add Huatu as a party plaintiff until
July 23, 2012. Fourth, the alleged Notice to Depose appeared on
the record more than four years after it was allegedly served to
Plaintiffs, right after Plaintiffs attempted to move for summary
judgment in September 2016. Defendant made no attempts at
scheduling these alleged depositions. Lastly, Plaintiffs have no
record of ever receiving the alleged Notice to Depose and NAFT
has never provided any evidence as to the means by the Notice
was allegedly delivered. Furthermore, NAFT at no time over a
four-year period ever mentioned this alleged notice of deposition
nor suggested the deposition take place. However, Judge Bransten
has not addressed any of these claims.
39. For example, on September 22, 2016, Plaintiffs filed an
affirmation, which explained the fabricated deposition notices to
the Court in detail. (NYSCEF Doc. No 400).
40. Id.

83a
Appendix I
Motion Sequences 17 and 18: On May 23, 2017, Judge
Bransten refused to consider filings by Plaintiffs because
of the invented reason that Mr. Courtney West had
previously been disqualified from acting as Plaintiffs’
attorney.41 However, Mr. West had not been explicitly
disqualified at this point – she and Mr. O’Murchadha had
discussed the matter in prior hearings in 2017, but the
underlying conversation was limited. Specifically, Mr.
O’Murchadha’s had stated: “it is our position that Mr.
West is disqualified,” to which Judge Bransten replied: “I
agree.”42 As a result, Judge Bransten refused to review
Plaintiffs’ submissions for either Motion 1743 or Motion
18 44, Defendant’s Motion for Sanctions and for Additional
Discovery, which Plaintiffs had submitted an opposition
and cross-motion to, along with numerous exhibits and
affidavits contesting Defendant’s allegations.45
Because Mr. West was the filer on each of these
documents, and because of his alleged disqualification that
had occurred at some unspecified point in the past, Judge
Bransten refused to read or consider them, including
affidavits that contained factual statements disputing
Defendant’s claims regarding the alleged discovery

41. NYSCEF Doc. No. 730 at Page 13, lines 7-8
42. NYSCEF Doc. No. 503 at page 18, lines 13-16
43. NYSCEF Doc. No. 730 at Page 8, lines 10-12
44. NYSCEF Doc. No. 730 at Page 13, lines 14- 6
45. NYSCEF Doc. Nos. 635-703

84a
Appendix I
dispute and are not related to Mr. West’s disqualification.46
Because Judge Bransten completely refused to consider
any of these filings, even the affidavit statements of fact,
she considered Defendant’s motion for sanctions against
Plaintiffs “unopposed” and granted it “in large part.”47
Plaintiff are now required to provide written discovery
to Defendant within 15 days of the automatic lifting of the
30-day stay, make witnesses available within 45 days after
the stay is lifted, or the complaint will be stricken.48 This
issue is on appeal. This latest ruling is in contradiction to
Judge Bransten’s previous denial of Defendant’s previous
motion for additional discovery.49 Judge Bransten’s refusal
to consider Plaintiffs’ filings in both Motions 17 and 18 are
currently on appeal.
January 2017 Affirmation of Ms. Ng: This is not the first
time Judge Bransten imposed a new technicality on filings.
In January 2017, Plaintiffs filed an affirmation from Ms.
Ng. Loi Ping with accompanying exhibits, to dispute
allegations that Defendant believed it was dealing with
a New York Law Firm with offices in China. 50 Ms. Ng’s
exhibits evidenced that all communications, invoice, and
work originated from Anderson’s Asian office during the
underlying case, and never from a New York entity, and
46. NYSCEF Doc. Nos. 650-653
47. NYSCEF Doc. No. 730 at page 13, lines 14-16
48. NCSEF Doc. No. 728
49. NYSCEF Doc. No. 359 at pages 10-11
50. NYSCEF Doc. No. 481

85a
Appendix I
that all communications and payments from Defendant –
who had retained Anderson - Guangzhou on other matters
since at least 2000 – went to the Asian offices. Despite
the fact that Ms. Ng’s affirmation met the requirements
of CPLR 2106, which is applicable to witnesses located
outside of the United States and its territories51, Judge
Bransten held the evidentiary requirement to the much
harsher standards of CPLR 2309(c), which is applicable
to witnesses located outside of New York but otherwise
within the United States and its territories, and requires
notarization and a certificate of conformity. 52 Judge
Bransten’s refusal to consider this affidavit, in direct
contradiction to New York law, is an issue currently on
appeal. 53

51. NY CPLR § 2106: Such (out of state) affirmation shall be
in substantially the following form: I affirm this __ day of __, __,
under the penalties of perjury under the laws of New York, which
may include a fine or imprisonment, that I am physically located
outside the geographic boundaries of the United States, Puerto
Rico, the United States Virgin Islands, or any territory or insular
possession subject to the jurisdiction of the United States, that
the foregoing is true, and I understand that this document may
be filed in an action or proceeding in a court of law.
52. NYSCEF Doc. No. 503 at page 4, lines 19-26 and page
5, line 2
53. Appeal for Motion Sequence 14

86a
Appendix I
II. Judge Bransten has issued inconsistent rulings
because of her refusal to read Plaintiffs’ documents
Many of the issues surrounding the delay of this case
stem from Judge Bransten’s ignorance of its posture. Due
to her ignorance, whether deliberate or not contradictory
rulings have been issued that prevent Plaintiffs from
knowing where the case is procedurally.
A.

Discovery has been reopened twice in this case:

Defendant has had three opportunities to conduct
discovery, which is twice more than in normal litigation,
especially considering their only interest in pursuing
their discovery comes when Plaintiff is trying to move for
summary judgment. Defendant’s stop-and-go approach
to discovery is the subject of the pending Bar Complaint.
First closure of discovery: On July 21, 2015, Judge Bransten
held that discovery was closed. 54 In fact, discovery had
ceased as there had been no action regarding discovery in
this case since 2013, when Plaintiffs requested discovery55
and Defendant filed a letter stating that it not have any
documents to produce.56 During the July 21, 2015 hearing,
when Defendant asked about further discovery, Judge
Bransten stated, “if you tell me, gee, I think I need more
discovery, I don’t think so, I don’t think there is anything

54. NYSCEF Doc. No. 352, at page 10
55. See NYSCEF Doc. No. 115
56. See NYSCEF Doc. No. 116

87a
Appendix I
to discover any longer, I think that’s been done” 57
(emphasis added). Judge Bransten then issued an order
denying NAFT’s cross-motion requesting discovery. 58
First reopening of discovery: During the October 13, 2015
Hearing, Judge Bransten decided to reopen Discovery,
stating, “you should talk to each other, that’s the main
thing, as to what exactly you need in order to complete
the discovery needed in this case.”59
Second closure of discovery: During the July 12, 2016
Hearing, Judge Bransten closed discovery once again,
stating: “So that’s it, you don’t need to have depositions.
The question - it doesn’t matter who did it, it’s a question
[whether Plaintiffs] got them the money ... and they have
a contract saying ‘When I get you the money, I’m owed
X amount of money from that money.”’60 When Defense
Counsel mentioned depositions again, Judge Bransten
stated: “but you see, none of that [contract] –all right?has to do with any depositions ... it doesn’t need to have
a deposition in order to get the contract to the court for
the contract interpretation.”61
Second reopening of discovery: During the October
18, 2016 hearing three months after closing discovery,
57. NYSCEF Doc. No. 395 at page 10, lines 7-10
58. NYSCEF Doc. No. 395 at page 11, lines 16-17; NYSCEF
Doc. No. 352
59. NYSCEF Doc. No. at page 23
60. NYSCEF 369, pages 10- 11
61. Id.

88a
Appendix I
Judge Bransten reopened discovery once again. 6 2
When Plaintiffs’ counsel explained to Judge Bransten
that Defendant’s Notice to Depose was forged,63 Judge
Bransten interrupted: “Look, it’s going to happen ... Got
it?”64
Plaintiffs have submitted many filings to the Court
explaining these disparities in determinations regarding
the discovery posture, but because Judge Bransten has
not read these filings, as discussed previously, Plaintiffs
are in a situation where there is no continuity from one
hearing to the next.
B. Judge Bransten allowed a routine 30-day stay
to last for over a year
On October 20, 2014, when Judge Bransten disqualified
Anderson & Anderson LLP and Mr. David Buxbaum from
representing Plaintiffs in this case, a 30 day stay of all
proceedings for 30 days was instituted to allow Plaintiffs
time to retain a new attorney.65 The stay would have
expired on November 19, 2014 and the proceedings should
have continued without delay. On February 4, 2015, Judge
Bransten acknowledged that no stay was in effect.66
62. NYSCEF Doc. No 455 at page 5
63. See Supra, Note 38
64. NYSCEF Doc. No. 455 at page 12
65. NYSCEF Doc. No. 270
66. “the Appellate Division hasn’t stayed me ...” NYSCEF
Doc. No. 571, Exhibit 7 at page, 10, lines 13-14

89a
Appendix I
However, nearly a year later, on October 13, 2015,
while Plaintiffs’ appeal of this order was being perfected,
Judge Bransten incorrectly declared that the proceedings
were stayed due to the appeal.67 When Plaintiffs’ then
counsel attempted to clarify the posture,68 Judge Bransten
interrupted and stated: “[r]ight now it’s stayed because,
guess what? You are appealing my decision ... So, you’re
the one that instead of saying ‘yes you’re right Judge,’
okay, you’re going up to a higher authority. But you are
the one that is appealing it. alright? So, I’m sort of stuck
in the middle until that’s decided obviously, or until
it’s withdrawn ...”69 Despite this stay, which was set for
the parties to report back on the unsuccessful mediation
attempt between the parties, Judge Bransten reopened
discovery, as discussed previously in this letter.

67. NYSCEF Doc. No. 375 at page 13
68. “Yes, Your Honor, you did, but at the same time, you
set down, if I recall, when I was contacted to step in to represent
Plaintiffs here, conferences and orders that Plaintiffs had to
retain new counsel for, and, of course, I’d like to say they retained
competent counsel, but it wasn’t completely stayed, Your Honor.
You had orders and things set down despite that. So I’m not
sure whether we’re in limbo or not, but if we are in limbo ... But
right now, Your Honor, I don’t know how to breach this gap of it’s
stayed, but it’s not stayed because---” NYSCEF Doc. No. 375 at
pages 21-22
69. Id.

90a
Appendix I
III. Judge Bransten has repeatedly misapplied New
York law, to the detriment of Plaintiffs
Finally, there have been numerous instances where
Judge Bransten has given the wrong standard or has
misapplied New York law, that have allowed this case to
drag on.
Note of Issue: First, and most importantly, Judge
Bransten required that Plaintiffs file a Note of Issue prior
to moving for summary judgment. However, pursuant
to NY CPLR 3212(a), any party may move for summary
judgment in any action after issue has been joined, and
it is well settled in New York that a judge’s order that
precludes a party from moving for summary judgment
even after joinder of issues is in conflict with NY CPLR
3212(a).70 Accordingly, Plaintiffs should have been able to
move for summary judgment after December 9, 2013, after
the breach of contract claim was joined to the complaint.
However, Judge Bransten denied this motion for the third
time in 2016, due to allegations of outstanding discovery
from Defendant (as discussed previously. This denial led
to Plaintiffs’ then-counsel to withdraw, when it became
evident that summary judgement would not go forward.
The denial of this motion is currently on appeal.71
Limited Legal Representation: Judge Bransten has also
disregarded New York’s Rules of Professional Conduct,
70. See Goldheart International, Ltd. v. Vulcan Constr. Corp.,
124 A.D.2d 507, 508 (N.Y. App. Div. 1st Dep’t 1986)
71. Appeal of Motion Sequences 12 and 13

91a
Appendix I
allowing a client to hire an attorney for a limited purpose
and allowing a client to terminate legal representation.72
As noted above, Plaintiffs had hired Mr. Christopher
Carrion to represent them at the February 7 hearing, but
only for the limited purpose of appearing at that hearing.
Despite Mr. Carrion meeting all these requirements –
reasonableness of the situation73 informed consent of the
client and notification to the court and opposing counsel
– Judge Bransten stated it was “outrageous” to put in
an appearance for just one event, claiming “that doesn’t
happen,” 74 and required Mr. Carrion to be Plaintiffs’
counsel moving forward, a position at direct odds with
the nature of their attorney-client relationship.
Standard for affidavits: Finally, as noted previously,
Judge Bransten refused to consider unrefuted evidence
provided by Ms. Ng in a January 2017 affidavit, properly
submitted under CPLR 2106, instead choosing to apply
an inapplicable and much harsher evidentiary standard
of CPLR 2309(c) that allowed her an excuse not to read
Plaintiffs’ submission.
Conclusion
The items we have brought to your attention are but
the tip of the iceberg. We have presented hundreds of
72. New York Rules of Professional Conduct 1.2(c)
73. Mr. Carrion primarily practices criminal, not civil law,
and was only retained the night before the hearing so that Plaintiffs
would have someone present on their behalf. NYSCEF Doc. No. 537
74. NYSCEF Doc. No. 503 at page 15, lines 8- 10

92a
Appendix I
pages of documented evidence to the New York State
Commission on Judicial Conduct elaborating on this
ongoing saga and Judge Bransten’s disregard for this case.
This status quo is not sustainable and is not conducive to
fairly decided cases. We ask that you use your authority
to help cut through the irrelevant side issues and outright
lies that have obscured this case and allowed it to become
a revolving door with no exit in sight.
As stated previously, this is a simple breach-of-contract
case brought by three law firms who are attempting to
claim an agreed-upon contingency fee. Judge Bransten
has allowed Defendant’s strategy of delay and deflect to
go on for far too long, which has amounted to an incredible
waste of judicial time, expense, and resources over the
past six years. We ask that you, or someone from your
office, review the extensive file for this case and meet
with Judge Bransten in hopes of disposing this case in
a rational and economic way, for example, by holding a
hearing on the Motion for Summary Judgment that has
already been fully briefed, without entertaining additional
extraneous arguments regarding the supposed need for
a Note of Issue.

93a
Appendix I
If we can provide any additional information to assist
with your review of these materials or understanding of
this case, please do not hesitate to contact us.
Respectfully submitted
By: /s/					
David C. Buxbaum
Anderson & Anderson LLP –
Guangzhou
Suite 3901, 39th Floor, Profit Plaza
76 Huangpu Avenue West, Tianhe District
Guangzhou, China
Tel: 86-20-3839-2008
Email: anderson.guangzhou@anallp.com

94a
Appendix J
APPENDIX J — AFFIRMATION
OF COURTNEY
DELANO WEST IN THE SUPREME COURT OF
THE STATE OF NEW YORK, COUNTY OF NEW
YORK, DATED APRIL 11, 2017
SUPREME COURT OF THE STATE OF NEW
YORK: COUNTY OF NEW YORK: IAS PART 3
ANDERSON & ANDERSON, LLP- GUANGZHOU,
BEIJING KAIMING LAW OFFICES,
GUANGDONG HUATU LAW FIRM,
AND ANDERSON & ANDERSON LLP,
Plaintiffs,
- against NORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
Index No. 651010/2011
(Bransten, J.)
Affirmation of Courtney Delano West
in further support of the Motion for Recusal
Motion Seq. No. 17
COURTNEY DELANO WEST, an attorney duly
admitted to practice before the Courts of the State of
New York, affirm under the penalties of perjury under
the laws of New York, which may include a fine or

95a
Appendix J
imprisonment, that I am physically located outside the
geographic boundaries of the United States, Puerto Rico,
the United States Virgin Islands, or any territory or
insular possession subject to the jurisdiction of the United
States, that the foregoing based on personal knowledge,
or where specified, on information and belief is true, and
I understand that this document may be filed in an action
or proceeding in a court of law.
1.

I am a member of Anderson & Anderson LLPGuangzhou, which is one of the Plaintiffs in this action,
and I am the attorney of record for Plaintiffs. I am
fully familiar with the information set forth below,
and I submit this affirmation in Support of Plaintiffs’
Motion to request the Honorable Judge Bransten to
recuse herself from the case at hand.

2.

Plaintiffs submitted their motion to request the
Honorable Judge Bransten to recuse herself from
presiding over the current action. (“Motion for
Recusal”) (Motion Seq No. 17, NYSCEF Doc. No.
569-575). This affirmation is also submitted in further
support of Plaintiffs’ reply to Defendant’s opposition
to the Motion for Recusal.

3.

In its opposition to Plaintiffs Motion for Recusal,
Defendant argues that Plaintiffs’ Motion for Recusal
should not be considered on its merits because I was
disqualified from the representation of Plaintiffs. This
is another shameless lie. Specifically, the heading
of Defendant’s Memorandum of Law reads, in bold,
“Plaintiffs’ motion was filed by a disqualified attorney

96a
Appendix J
and is a nullity.” (Defendant’s Memorandum of Law
in Opposition to Plaintiffs Motion for Recusal “Reply
Memo”, NYSCEF 608). The Memorandum of Law
continues to allege that I was “specifically held” to be
disqualified: “Indeed, the present motion was made by
an “attorney” whom the Court has specifically held to
be disqualified.” and “[o]n February 7, 2017, the Court
ruled from the bench that (a) Mr. Courtney West was
disqualified from representing Plaintiffs pursuant to
the prior order” (Reply Memo, NYSCEF Doc No. 608,
p. 6, 7).
4.

No matter how much Defendant wishes to believe
that I am disqualified, Defendant’s argument that
the Court “ruled” that I am “covered by [the October
20, 2014 Disqualification Order] and is similarly
disqualified” is false. (NOM Aff. Reply, NOM Aff. p. 2).
I have not been disqualified and I have not withdrawn
from the representation of Plaintiffs.

5.

Plaintiffs have submitted numerous filings to the Court
in which Plaintiffs have explained that I am employed
by Anderson & Anderson LLP—Guangzhou, not the
disqualified New York entity. I became the attorney of
record to represent Plaintiffs when I filed my Notice
of Appearance, dated November 24, 2016. (NYSCEF
Doc. No. 467, Exhibit A). This Notice of Appearance
states: “the law firm of Anderson & Anderson LLP—
Guangzhou is hereby appearing in this action on
behalf of Plaintiffs, and that the undersigned has been
retained as attorney for said Plaintiffs.” (Exhibit A).
The Motion to request the Honorable Judge Bransten

97a
Appendix J
to recuse herself from the case at hand was filed
by me, the attorney of record for Plaintiffs,f and in
compliance with the CPLR and the published Practice
Rules for Part 3.
6.

With regard to my Notice of Appearance, it is also
worth noting that Defendant’s counsel continues his
tradition of lying to the Court, as he claimed that the
address provided by Plaintiffs when I filed my Notice
of Appearance was a New York address. (NYSCEF
Doc. No. 583, p. 13, Exhibit B). My Notice of
Appearance clearly says “Courtney West, Anderson &
Anderson -- Guangzhou, Suite 3901, 39th Floor, Profit
Plaza, 76 Huangpu Avenue West, Tianhe District,
Guangzhou 510623, China.” (Exhibit A). My Notice
of Appearance only bears the address of Anderson &
Anderson LLP—Guangzhou in Guangzhou, China,
and the “New York address” that Defendant speaks
of is nowhere to be found. Moreover, the NYSCEF
e-filing system does not allow a filing user to register
with a foreign address, namely Anderson Guangzhou’s
China address. Therefore, I have had to resort to
using the address “750 Third Avenue 9th Floor
New York 10017,” which is different from Anderson
& Anderson (New York) LLP’s 30 Wall Street 8th
floor New York address. (Exhibit C) Thus, none of
the address on the e-filing system or the Notice of
Appearance show Anderson & Anderson (New York)
LLP’s New York address, which is 30 Wall street,
8th floor New York. Defendant’s counsel admits that
he sends mails to Anderson & Anderson (New York)
LLP’s 30 Wall Street New York address, which is

98a
Appendix J
found in neither the Notice of Appearance nor the
e-filing system Confirmation Notice.
7.

This is another illustration of the instance where Mr.
O’Murchadha lies to the Court. Again, my Notice
of Appearance, clearly stating that I am employed
by A nderson Guangzhou, and clearly show ing
the Guangzhou, China address –not a New York
address—is attached hereto as Exhibit A.

8.

Defendant has stated on numerous occasions that I
have been “disqualified” from representing Plaintiffs
in this case, including its opposition to the Motion for
Recusal. Contrary to Defendant’s argument, the Court
did not hold that I was disqualified. In the Court’s
February 24, 2017 Order, which Defendant cites to
allege that I am “disqualified,” a disqualification order
is nowhere to be found. In fact, during this same
hearing, the Court said I “could represent [Plaintiffs]
... if [I] did not actually appear or had anything to do
with the retainer agreements.” The court added, “if
he did that, then if you had a motion to disqualify Mr.
West …I would entertain that.” (NYSCEF Doc No
503, p. 19, Lines 8-16, Exhibit D).

9.

I am not, nor have I ever been, employed by a
disqualified New York entity; I joined Anderson &
Anderson LLP-Guangzhou in November 2016, and
as such, I did not have anything to do with the 2005
or 2009 agreements; and Defendant did not submit a
motion to disqualify me as Plaintiffs’ counsel.

99a
Appendix J
10. Defendant also alleges that I was disqualified by the
First Department. This is also not true, as the First
Department has not made such an order.
11. Mr. O’Murchandha refers to the Court’s February
24, 2017, Order in which the Court entered an
Order stating: “ORDERED attorney Christopher
A. Carrion, Esq. is now the attorney of record for
Plaintiff.” (Exhibit D) However, this Order was
entered because the Court would not allow Mr.
Carrion to make a limited appearance on behalf of
Plaintiffs to attend the February 7, 2017, hearing,
not to disqualify me as Plaintiffs attorney. During
the hearing, the Court stated to Mr. Carrion: “You
put in an appearance for one thing and you can’t do
it for one thing, either you’re the representative of
these corporations, the LLPs, or you’re not. And if
you’re not you better make a motion to be relieved
and it better be a good reason because I am not going
to permit anybody to be relieved without some good
reason.” (Id. at p. 15)
12. Moreover, since I entered my Notice of Appearance
on behalf of all Plaintiffs in this case, I have not
submitted a motion to withdraw as their counsel. I
did not withdraw from the representation of Plaintiffs
by filing an Order to Show Cause or a Stipulation
Agreement to Withdraw.
13. The record shows that Plaintiffs repeatedly evidenced
the blatant falsehoods in Mr. Andrew Lowinger’s
affirmation (NYSCEF 226, Exhibit E) (Motion for

100a
Appendix J
Recusal, Buxbaum Aff. para. 5-6, 8-12) Defendant has
yet to provide any evidence or substantive response
as to why it allegedly believed it was dealing with a
New York entity, despite the overwhelming evidence
provided by Plaintiffs proving that all communications
with Defendant and all work performed on behalf of
Defendant originated in greater China over many
years, including email correspondence, invoice, bills.
(Motion for Recusal, Buxbaum Aff. para. 5-6, 8-12)
14. Instead, Defendant ignores such evidence and states
that Plaintiffs demand testimony from a dead person
(NOM Aff. Reply to Motion for Recusal, para. 9).
Plaintiffs’ Motion for Recusal evidenced that despite
Plaintiffs repeatedly revealing the false statements
of Andrew Lowinger’s affirmation, none of these facts
and evidence were addressed by Judge Bransten.
15. As such, Judge Bransten first wrongfully deprived
Plaintiffs of counsel of Plaintiffs’ own choosing based
on the false statements in Mr. Lowinger’s affirmation,
knowing from the case record that Mr. David
Buxbaum did not negotiate the retainer agreements,
that Defendant dealt with a Chinese entity, and that
all communications with Defendant, and all work
performed on behalf of Defendant originated in
greater China over many years, including, email
correspondence, invoice, bills.
16. It is difficult to find an attorney to represent Plaintiffs,
which includes three law firms in three different
locations in China. One Plaintiff has no command of

101a
Appendix J
the English language, and another has a very limited
use of the English language. (Motion for Recusal, Hao
Aff. Exh B at para. 3) (Motion for Recusal, Buxbaum
Aff. Exh 21 at para. 3).
17. Plaintiffs were able to find an attorney in New York
the night before the February 7, 2017 hearing to
represent the three law firms for the limited scope
of that hearing only, which the attorney, Mr. Chris
Carrion, agreed to. (Motion for Recusal, West Aff.
para. 12-13) (Motion for Recusal, Buxbaum Aff. Exh
24, p. 16, lines 13-14; p. 14 lines 25-26; Buxbaum Aff.
Exh 25) (Motion for Recusal, Hao Aff. para. 17)
18. However, Judge Bransten attempted to make Mr.
Carrion Plaintiffs’ counsel for the case, against the
wishes of all Plaintiffs and in violation of judicial
ethics. (Motion for Recusal, Buxbaum Aff., Exhibit
24, p. 15, Lines 8-17) (Motion for Recusal, Hao Aff.
para. 16). Judge Bransten not only threatened not to
relieve Mr. Carrion, (Exhibit D p. 21, lines 20-25)
but also sanctioned him for inexplicable reasons, and
such conduct by Judge Bransten towards a lawyer
who tried to help Plaintiffs will make it very difficult
to find any counsel to represent Plaintiffs.
19. In addition, Judge Bransten has refused to address
correspondence or evidence submitted by Mr. David
Buxbaum as a member of Anderson Guangzhou
(Motion for Recusal, Buxbaum Aff Exh 8) (NYSCEF
512, Exhibit F). For example, during the March 7,
2017 hearing, the record shows that Judge Bransten

102a
Appendix J
states she received letters “signed by David Buxbaum,
who has been disqualified” and does not address the
letters. (Motion for Recusal, Buxbaum Aff Exh 8, p. 8).
However, during the same hearing, when Defendant’s
counsel uses said letter to lie that Mr. Buxbaum and
Plaintiffs somehow prevented Mr. Carrion from
attending a hearing, Judge Bransten replies “that’s
a good point, a very good point.” (Motion for Recusal,
Buxbaum Aff Exh 8, p. 11). Later during the March
17, 2017 hearing, Judge Bransten again says she
received letters “signed by David Buxbaum, who has
been disqualified from this case,” but does not address
the letters. (Exhibit G at 11). Clearly, Judge Bransten
does not want Plaintiffs to have counsel.
20. With regard to Judge Bransten’s initiating, permitting,
and engaging in a number of ex parte hearings,
Defendant does not provide response as to why
those communications should not be ex parte, during
which the court afforded distorted interpretation of
the record,1 afforded no opportunity for Plaintiffs
to be heard on contested issues, 2 and admitted to
the wrongdoing. 3 During the March 7, 2017 hearing
alone, held ex parte, Judge Bransten did not allow
Plaintiffs to be heard, was swayed by Defendant’s
1. (Motion for Recusal, Buxbaum Aff. para. 25). (Motion for
Recusal, Buxbaum Aff. Exhibit 8 at pages 3-6).
2. (Motion for Recusal, Buxbaum Aff. para. 17) (Motion for
Recusal, Hao Aff. para. 10-11).
3. (Motion for Recusal, Buxbaum Aff. para. 21). (Motion for
Recusal, Buxbaum Aff. Exhibit 7 at p. 18, Lines 4-6).

103a
Appendix J
misrepresentation when Defendant’s counsel alleged
that Plaintiffs somehow prevented Mr. Carrion to
appear at a hearing, and held Plaintiffs and Mr.
Carrion in contempt of Court based on Defendant’s
misrepresentation. (Motion for Recusal, Buxbaum
Aff. 23-27, Buxbaum Aff. Exh 8).
21. Moreover, Judge Bransten conducted another hearing
on March 17, 2017 without Plaintiffs’ presence or being
represented by counsel. (NYSCEF 577, Exhibit G).
Prior to this hearing, I sent a letter to the Court
requesting that the Court not go forward with the
hearing as Plaintiffs do not have counsel in New
York. (NYSCEF 552, Exhibit H). Judge Bransten
continued to have another ex parte hearing, during
which she gave Defendant legal advice. (Exhibit G,
p. 15, 18) Judge Bransten instructed Defendant’s
counsel to “file the court by order to show cause a
motion to hold the entities in contempt.” (Exhibit
G, p. 15) She further instructed: “I would suggest
that you use them as evidence in your motion to hold
Anderson & Anderson LLP--Guangzhou and all the
other [Plaintiffs], and if you wish to add Mr. West’s
name to that list, I cannot tell you what to do, I’m not
the lawyer, you can very well do so.” (Exhibit G, p.
18)
22. Moreover, during the March 17, 2017 ex parte hearing,
instead of addressing the forged Notice of Deposition
that Plaintiffs had repeatedly raised, the Court
instead accused Plaintiffs of forging the Stipulation
Agreement they entered into with Mr. Christopher
Carrion. (Exhibit G)

104a
Appendix J
23. With regard to Defendant’s alleged Notice to
Depose, Plaintiffs have shown that it is not merely
“a typographical error” that points to the document’s
apparent forgery. (Motion for Recusal, Buxbaum Aff.
para. 44-46) Again, Defendant provides no substantive
answer to the fact that Defendant has provided no
evidence as to the means by which they were allegedly
exchanged, when they were exchanged nor attempts
at scheduling these depositions.
24. Additionally, Plaintiffs did not make a motion to make
Huatu a party plaintiff until June, 2012 (NYSCEF 75,
Exhibit I) (NYSCEF 68, 69 Exhibit J) and the Court
did not grant Plaintiffs’ motion to add Huatu until July
23, 2012. (Motion for Recusal, Buxbaum Aff. Exh. 20).
There is no reason for Defendant to add Huatu as a
party-plaintiff in the caption before a motion is made
and granted to add Huatu as a party-plaintiff.
25. There are even more reasons that show the apparent
forgery of the alleged Notice to Depose. Four
documents submitted by Defendant contain three
different dates regarding this alleged Notice to
Depose. Mr. Eilender’s affirmation says the alleged
Notice to Depose was served on March 5, 2012
(NYSCEF 225). Mr. O’Murchadha’s affirmation says
the alleged Notice to Depose were all dated May 11,
2012. (NYSCEF 373). Ms. Julia Sear’s affidavit of
service says the alleged Notice to Depose was served
on March 5, 2012. (NYSCEF 442) The alleged Notice
to Depose are dated March 5, 2011. (NYSCEF 377).

105a
Appendix J
26. Moreover, the alleged Notice to Depose appeared on
the record four years after it was allegedly served to
Plaintiffs, right after Plaintiffs attempted to move
for summary judgment. During these four years,
Defendant made no attempts at scheduling these
depositions.
27. The record shows that Judge Bransten made
contradictory ruling and misstatements about
discovery, even ignoring Plaintiffs’ showing of
Defendant’s forged Notice of Deposition. (Motion for
Recusal, Buxbaum Aff. para.29, 42-47)
28. The record clearly shows that Judge Bransten
demonstrated a lack of knowledge of the case when
she repeatedly made misstatements regarding stay
of proceedings. (Motion for Recusal, Buxbaum Aff.
49-55) Defendant does not address that there were
contradictory statements on the record about stay of
proceedings, but only that there was a stay, which is
another lie. (NOM Reply Aff. para. 20)
29. The record shows that Judge Bransten demonstrated
a lack of knowledge of the case when she admitted
to not reading the complaint and misstating that
Anderson was “fired,” further proving she did not
read the complaint. (Motion for Recusal, Buxbaum
Aff. para. 35-69) Judge Bransten also demonstrated
a lack of knowledge of the case when she admitted
to not knowing Plaintiffs’ affirmation regarding
Defendant’s forgery and not knowing which party
had filed and won motions. (Motion for Recusal,

106a
Appendix J
Buxbaum Aff. para. 38-40) Judge Bransten even
demonstrated that she did not know a party’s name
six years after this case commenced. (Motion for
Recusal, Buxbaum Aff. 59-61) Nothing changes the
fact that Judge Bransten admitted to these on the
record, for which Defendant conveniently does not
provide any substantive response. Which party had
filed and won motions, specifically Judge Bransten’s
admission to not knowing Plaintiffs’ affirmation
regarding Defendant’s forgery. (Motion for Recusal,
Buxbaum Aff. para. 38-40)
30. Moreover, the record clearly shows that Judge
Bransten repeatedly made misstatements regarding
stay of proceedings (Motion for Recusal, Buxbaum
Aff. 49-55; Bubxuam Aff Exh 6,7, 14) and discovery.
(Motion for Recusal, Buxbaum Aff. para. 29, Buxbaum
Aff Exh 13) (Motion for Recusal, Buxbaum Aff. para.
30-34, Buxbaum Aff Exh 14-16). In its opposition,
Defendant simply responds that discovery was “never
‘closed’” despite Plaintiffs’ concrete evidence that
belies Defendant’s allegation. (Motion for Recusal,
Buxbaum Aff. para. 29, Buxbaum Aff Exh 13) (Motion
for Recusal, Buxbaum Aff. para. 30-34, Buxbaum
Aff Exh 14-16). Similarly, Defendant only says that
“the case was stayed” despite Plaintiffs’ concrete
evidence that belies Defendant’s allegation. (Motion
for Recusal, Buxbaum Aff. 49-55; Bubxuam Aff
Exh 6,7, 14) As such, Defendant does not provide
substantive evidence or response to the facts and
evidence raised by Plaintiffs which show that Judge
Bransten repeatedly made contradictory statements

107a
Appendix J
regarding discovery and stay of proceedings in aid of
Defendant’s delaying tactics.
31. The record also shows that Judge Bransten
demonstrated a lack of knowledge of the law in
violation of the standards of judicial conduct when she
ordered Plaintiffs to file a notice of issue. Plaintiffs’
Motion for Recusal addressed that this was a violation
of CPLR 3212(a) (Motion for Recusal, West Aff. para.
4-10). In its opposition, Defendant simply repeats the
erroneous statement that the court was “under no
obligation” to entertain Plaintiffs summary judgment
motion until the Court and Defendant were satisfied
that discovery is complete. Plaintiffs had already
evidenced in their Motion for Recusal that issues
had been joined by December 9, 2013, and that Judge
Bransten’s insistence that Plaintiffs must file a Note
of Issue before making a summary judgment motion
and after issues had been joined, was deliberately in
violation of law. (Motion for Recusal, Memorandum of
Law, p. 17) Plaintiffs also showed that Judge Bransten
attempted to force Plaintiffs to retain Mr. Carrion
against the wishes of all Plaintiffs and in violation of
judicial ethics. (Motion for Recusal, West Aff. para. 1116), (Motion for Recusal, Hao Aff. para. 15-17) (Motion
for Recusal, Buxbaum Aff. 14; Buxbaum Aff Exh 24).
In its opposition, Defendant incorrectly stated that
Plaintiffs “have cited no case law or rule” regarding
limited scope appearance. (NOM Reply Aff. para. 22)
Both Plaintiffs and Mr. Carrion have provided case
law and rules numerous times previously, which are
all on the record. (Exhibit H) (NYSCEF 551, Exhibit

108a
Appendix J
K) (NYSCEF 561, Exhibit L) (Motion for Recusal,
Memorandum of Law, p. 18). Again, Defendant does
not address such violation of judicial ethics and why
such expressviolation of law should not be considered
a failure to promote public confidence in the integrity
and impartiality of the judiciary in violation of judicial
ethics.
32. The record clearly shows that Judge Bransten failed
to promote public confidence in the integrity and
impartiality of the judiciary in violation of 22 NY CRR
100.3(B)(3) by making discourteous and belittling
comments on the record. (Motion for Recusal, West
Aff. para. 27-34) Plaintiffs also provided at least eight
examples to show that a simple reading of the record
clearly demonstrates that Judge Bransten has failed
to conduct herself in a patient, dignified and courteous
manner to litigants. (Id.) In its opposition, Defendant
also does not explain why such conduct is not a failure
to promote public confidence in the integrity and
impartiality of the judiciary in violation of judicial
ethics, but only misstate contrary to the evidence
raised in Plaintiffs’ motion that Plaintiffs “can only
produce one example” in its response. (NOM Reply
Aff. para. 25)
33. WHEREFORE, and for the reasons set forth in
the accompanying memorandum of law, Plaintiffs
respectfully request that the Honorable Judge
Bransten exercise her discretion to recuse herself
from presiding over this case, because the plethora
of evidence on the record shows that the Honorable

109a
Appendix J
Judge has conducted herself in a manner that manifest
partiality.

Dated: Guangzhou, China,
April 11th, 2017

/s/				
Courtney Delano West

110a
K
AppendixAppendix
K — LETTER
FROM
THE NAFT, DATED NOVEMBER 15, 2016
SCHLAM STONE & DOLAN LLP
26 Broadway, New York, NY 10004
Main: 212 344-5400 Fax: 212 344-7677
schlamstone.com
Niall D. Ó Murchadha
Of Counsel
nomurchadha@schlamstone.com
November 15, 2016
BY EMAIL
Scott Star
Blank & Star, PLLC
387 New Lots Avenue
Brooklyn, New York 11207
sco203@aol.com
Re:

Anderson & Anderson v. N.A.F.T. No. 651010/2011

Dear Scott:
I write to request that we meet-and-confer to resolve
various issues raised by Plaintiffs’ deposition notices and
responses & objections to NAFT’s document demands.
These can be discussed with more particularity at the
meet-and-confer, but the main issues are the following:
The Deposition Notices. Although the Status Conference
Order calls for depositions of “Designees for Defendants,”

111a
Appendix K
to take place by March 24, 2017, you have not noticed
NA FT ’s deposition but have noticed 5 non-party
depositions instead. Andrew Lowinger is not himself a
party, but as an agent of NAFT we will produce him for
deposition at the proper time. Fanny Sze left NAFT’s
employment in or around January 2014, and is no longer
under our control. If you wish to depose her you will
have to subpoena her in Hong Kong, where she resides.
Professor James Feinerman is not a fact witness and
may not be deposed during fact discovery. If NAFT
elects to use him as an expert witness, you will be able to
depose him during expert discovery. Richard Dolan has
no substantial relevant knowledge. Even if he was able
to provide limited testimony as to the AAA arbitration
between NAFT and Lionda, or about NAFT’s 2010 sale
of its judgment, it would be duplicative of other witnesses’
testimony. Finally, I myself have no knowledge of relevant
facts other than knowledge I gained while representing
NAFT in the present action. I accordingly request that
you withdraw all of your deposition notices other than the
one for Andrew Lowinger.
NAFT’s Discovery Requests. I have several issues to raise
with regard to your objections and responses.
First, it appears that Plaintiffs have no intention
of producing any additional documents or even of
undertaking any searches to determine if additional
responsive documents can be found. Given that many of
the present document requests go beyond the scope of
NAFT’s previous requests, this approach is completely
improper. Additional searches must be made.

112a
Appendix K
Second, your reliance on Plaintiffs’ 2013 productions is
unacceptable. These productions were a mess of documents
produced in various formats (.pdf, .tiff, .zip, native Outlook
files, and native Word files were all produced). Some of the
documents appear to have been created for the purposes
of this litigation, although they were not identified as
such. Nor was any attempt made to identify what topics
the bundles of documents referred to or where they came
from. Finally, none of the documents had Bates numbers,
making it impossible to identify particular documents in
the production, or to determine if any particular document
had in fact been produced, or to identify which documents
were responsive to any particular request.
Third, your responses to many of the specific Requests are
improper. Requests 1 and 2 call for information regarding
all matters in which any Anderson entity represented
NAFT, not merely the Lionda matter. Requests 3 through
7 are relevant because the questions of (a) which Anderson
entity is the property party in interest, and (b) whether
that entity even has standing to sue (if Anderson LLP was
not formed until July 11, 2013, it may not have standing to
assert any claims for work done prior to that date) are at
issue in this action. Similarly, Mr. Buxbaum’s jurisdictions
and dates of admission to practice are relevant because
he may be barred from quantum meruit compensation
for legal work provided in jurisdictions where he was
not admitted to practice law. (Your referral to the New
York attorney search website was a waste of time-a
search for “buxbaum” yields no results.) Finally, Request
9 is relevant because the Supplementary Agreement
acknowledges that NAFT paid Plaintiffs at least RMB

113a
Appendix K
500,000. If that money was paid as compensation for
legal services rendered, or as advances on expenses that
Plaintiffs agreed to bear in the Contingency Agreement, it
can offset any eventual award in Plaintiffs’ favor. Request
10 is relevant because the Supplementary Agreement
limits Huatu’s recovery to “recovery from the assets for
which information is supplied by [Huatu].” And because
Plaintiffs place so much significance on their work done
locating and “attaching” the Asset, the question of which
party actually located the Asset could be highly relevant
to determine each party’s quantum meruit claim.
I therefore request that we meet-and-confer as soon as
possible to resolve these disputes.
Sincerely,
/s/
Niall D. Ó Murchadha
Copies To:
Helene Blank (by email)

114a
Appendix L
Appendix l — AFFIRMATION
OF DAVID C.
BUXBAUM IN THE SUPREME COURT OF THE
STATE OF NEW YORK, DATED JANUARY 27, 2015
SUPREME COURT OF THE STATE OF NEW
YORK: COUNTY OF NEW YORK: IAS PART 3
Index No. 651010/2011
(Bransten, J.)
ANDERSON & ANDERSON LLP-GUANGZHOU,
BEIJING KAIMING LAW OFFICES, AND
GUANGZHOU HUATU LAW OFFICES
Plaintiffs,
v.
NORTH AMERICAN FOREIGN TRADING CORP.,
Defendant,
AFFIRMATION OF DAVID C. BUXBAUM IN
SUPPORT OF PLAINTIFF’S CROSS-COMPLAINT
STAYING THE COURT’S ORDER TO REMOVE
ME AS COUNSEL; APPLYING FOR SANCTIONS
AGAINST ANDREW G. LOWINGER; and ADDING
ANDREW G. LOWINGER AS A PARTY, etc.
MOT. SEQ. NO. 011
DAVID C. BUXBAUM, an attorney duly admitted to the
courts of this State, affirms under the penalty of perjury
the following:
1.

I am the senior lawyer of Anderson & Anderson
LLP, Guangzhou office, one of the Plaintiffs in this

115a
Appendix L
action, and submit this Affirmation in opposition to
Defendant’s Motion to Amend the Order of October
20, 2014 (the “Order”).
2.

I initially introduced Guangdong Huatu Law Offices to
NAFT as a longtime client of Anderson & Anderson,
LLP. Initially, contract negotiations took place largely
between NAFT Representative Mr. Schweizter, the
head attorney of Guangdong Huatu Law Offices and
others in Shenzhen. When they were ready to execute
the contract dated December 9, 2005 I did assist.
However the contract was signed by the Guangdong
Huatu Law Offices and NAFT, not by Anderson &
Anderson LLP.

3.

As for Mr. Andrew G. Lowinger, I may have met him
once or twice in New York and been in contact a few
more times over email, but for virtually the entire four
years of enforcement of NAFT’s arbitration award in
the US I had virtually no contact with Mr. Lowinger. I
spoke very frequently with Mr. Schweizter who spent
much time in NAFT’s Hong Kong office and China.

4.

Mr. Schweitzer was himself a lawyer and had
the assistance of Chinese speaking colleagues in
NAFT’s Hong Kong office. Mr. Lowinger’s stated the
following: “What is not in dispute, however, is that at
all times, to the extent NAFT dealt with anyone on
behalf of the Plaintiffs, it dealt with David Buxbaum,
the same person who is now lead counsel for Plaintiffs.
Buxbaum is the one who negotiated both agreements
with NAFT. To the extent anyone from the Plaintiffs

116a
Appendix L
has personal knowledge as to what was said to NAFT
as to the meaning of the Agreements to induce it to
sign them, it would only be Buxbaum,” (Andrew G.
Lowinger Aff. 009). This statement is blatantly false.
I was not the one who negotiated the agreements
with NAFT. NAFT initially dealt extensively with
Guangdong Huatu Law Offices and later with the
Beijing Kaiming Law Offices.
5.

Mr. Lowinger further asserts that: “Plaintiffs
provided either de minimis or no legal services
to NAFT after December 31, 2009” (Andrew G.
Lowinger Aff. 006) Not only is this statement false,
but there are documents and files both in Anderson
& Anderson’s possession and the possession of
NAFT which prove otherwise, including documents
regarding communications about the proposed
settlement, revisions of translations of the settlement
agreement, etc. Many of these documents have
already been filed in previous exhibits to the Court.

6.

Anderson & Anderson communicated with NAFT over
many years. Virtually all communications were with
Anderson’s Asian offices, particularly in Guangzhou.
Virtually all calls and emails to and from Anderson
were also based out of Guangzhou. All payments made
by NAFT to Anderson & Anderson were made to its
Asian bank account. NAFT never bad anything to do
with our New York Office in the US. Mr. Lowinger
blatantly lied about this point and claimed he did not
know which office he was dealing with, but thought
he was dealing with the New York office of Anderson.

117a
Appendix L
This is a lie designed to support his argument to have
me removed as counsel for this case.
7.

According to Mr. Lowinger he is an Agent of NAFT,
neither an officer nor a director of the Company. It was
never communicated to me during the enforcement
of the arbitration award nor in previous work done
with NAFT that Mr. Lowinger was any type of agent.
While Mr. Schweitzer communicated with me many
days over a four year period, Mr. Lowinger was very
rarely involved. Furthermore, Mr. Lowinger does
not even clarify what type of agent he is. Is he a sales
agent? Nobody knows except him, but he is clearly not
an agent that I or the other Plaintiffs had anything
to do with but on rare occasions.

8.

Mr. Lowinger’s attempt to speak for NAFT while
totally uninvolved with these matters is difficult to
comprehend. NAFT using these affirmations to make
false statements under oath about things such an
agent did not have knowledge of is not surprising since
it is clear from the appellate decision that Plaintiffs
are entitled to their fees.

9.

The only substantive question is why the Defendant is
stalling these proceedings through these affirmations
and perjured testimony. A simple answer may be that
they feel they are better off if the money they owe
Plaintiffs is in their hands. The problem with that
answer is that the substantial interest that Defendant
must pay on a debt certainly more than $2 million and
more likely more than $7 million is quite substantial.

118a
Appendix L
Why then the delay and the false statements? Can it be
that this company, which has already proven to be less
than honest is planning to empty its coffers? Clearly
this is a good reason in itself to make Mr. Andrew G.
Lowinger a party Defendant to these proceedings
and uphold the accountability of himself and NAFT.
10. As such, in the interest of justice, I propose the
following: that the Order be stayed until a decision
of the Appellate Division on Appeal of said Order can
be made; and during said stay, the Plaintiffs’ Motion
for Summary Judgment be heard immediately, which
may be able to help end these proceedings. We further
request that Mr. Andrew G. Lowinger be sanctioned
for lying under oath and added as a party Defendant
for accountability of his actions.
Dated: January 27, 2015
New York, New York
Respectfully Submitted:
Anderson & Anderson LLP
By: /s/
David C. Buxbaum
76 Huangpu Avenue West, Suite 3901
Tianhe District
Guangzhou, China
Tel: 86-20-3839-2008
Fax: 86-20-3839-2009
E-mail: anderson.guangzhou@anallp.com
Attorney for Plaintiff

119a
Appendix M
APPENDIX M — AFFIRMATION
OF FU QIANG
IN THE SUPREME COURT OF THE STATE OF
NEW YORK, COUNTY OF NEW YORK, DATED
JANUARY 26, 2015
SUPREME COURT OF THE STATE OF NEW
YORK: COUNTY OF NEW YORK: IAS PART 3
ANDERSON & ANDERSON LLP-GUANGZHOU,
BEIJING KAIMING LAW OFFICES, AND
GUANGDONG HUATU LAW OFFICES
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant,
Index No. 651010/2011
(Bransten, J.)
AFFIRMATION OF FU QIANG IN OPPOSITION
TO DEFENDANT’S MOTION TO MODIFY A
PRIOR ORDER
MOT. SEQ. NO. 011
FU QIANG, an attorney of Guangdong Huatu Law
Offices, a Plaintiff in the above matter, affirms under the
penalty of perjury the following:

120a
Appendix M
I.

I am a lawyer of Guangdong Huatu Law Offices,
one of the Plaintiffs in this action, and submit this
Affirmation in opposition to Defendant’s Motion to
Modify a Prior Order (the “Order”).

2.

Pursuant to the Court Order discharging Mr.
David C. Buxbaum and Anderson & Anderson LLP,
Guangzhou Office as counsel we have experienced
many difficulties finding alternative lawyers who
might represent us in this action.

3.

Pursuant to the Court’s Order, I and my colleagues
have attempted to find other legal representation.
However, myself and all others working in our firm
have no English language capability and virtually no
knowledge of American law firms. Because of these
handicaps we have been totally unsuccessful in finding
alternative representation to date.

4.

The ongoing nature of the case is also overwhelming
to those attorneys who are unfamiliar with the core
complexity of this case.

5.

I and my firm were primarily involved in the
negotiations of the first agreement the parties entered
into. The first agreement was negotiated on behalf
of NAFT with Robert Schweitzer, an executive of
NAFT, Zhang Xuelin an attorney in Guangdong
Huatu Law Offices, and myself. The first agreement
took place on December 9, 2005 and involved
primarily communications with Mr. Schweitzer and
the following colleagues: Zhang Xuelin, attorney, Li

121a
Appendix M
Guangyu, officer, and myself Mr. David Buxbaum was
only involved tangentially in these agreements.
6.

Mr. David C. Buxbaum from Anderson & Anderson
and my office both represented NAFT in requesting
the Shenzhen Court to honor and enforce the
Arbitration Award. Thus, the first agreement was
signed with my law firm and not with Anderson
& Anderson, Guangzhou, although Anderson &
Anderson was specified for compensation in the
contingency provision. Substantial negotiations
took place among the various persons noted above.
Mr. Schweitzer was assisted from time to time with
Chinese speaking persons from his office and at times
other translators were involved from Anderson &
Anderson LLP, Guangzhou such as Mr. Chien.

7.

Mr. Andrew G. Lowinger’s assertion that Mr. David
C. Buxbaum was prominent in these negotiations was
clearly a deliberately false statement for the purpose
of deceiving the court in order to remove our counsel.
As we have never met Mr. Andrew G. Lowinger and
he has never participated in any negotiations between
NAFT and us, we are unaware how he could prove
that Mr. David C. Buxbaum was prominent in these
negotiations.

8.

Mr. Lowinger’s also stated that he saw no documents
evidencing our work after December 31st 2009.
This is another case of perjured testimony, since,
during the negotiations and settlement process of
NAFT’s arbitration case, we, as NAFT’s agent in

122a
Appendix M
China, continued to request that the Shenzhen Court
assess and auction the frozen shares. It was under
such circumstances that Lionda was compelled to a
settlement with NAFT.
9.

Mr. David Buxbaum and his colleagues worked with
Mr. Schweitzer frequently including reviewing the
Settlement Agreement, checking translations relating
to the Settlement Agreement and other matters
during the process of settlement. His work alone
can verify that proceedings were still being carried
out during and after 2009, making Mr. Lowinger’s
statement clearly false.

10. While I am clearly not an expert on US law, pursuant
to Chinese law Mr. Andrew G. Lowinger should be
investigated immediately pursuant to criminal law for
these perjured statements under oath and surely the
court should sanction him for lying so as to achieve
wrongful aim by removing our counsel.
11. As such, in the interest of justice, the I, on behalf of
Guangdong Huatu Law Offices propose the following
that the Order be stayed until a decision of the
Appellate Division on Appeal of said Order can be
made; and during said stay, the Plaintiffs’ Motion for
Summary Judgment be heard immediately, which
may be able to help end these proceedings. We further
request that Mr. Andrew G. Lowinger be sanctioned
for lying under oath and added as a party Defendant
for accountability of his actions.

123a
Appendix M
12. The Plaintiffs further request this Court not amend
the Order that has been granted with regard to
service of process, since such request by Defendant
NAFT who has failed to in fact serve us all this time
is clearly frivolous.
Dated: January 26, 2015
New York, New York
Respectfully Submitted:
Anderson & Anderson LLP
By: /s/

.
Fu Qiang
Guangdong Huatu Law Offices
Shenzhen, China
Attorney for Plaintiff

Richard H. Dolan
David J. Katz
26 Broadway
New York, New York 10004
Telephone: (212) 344-5400
Facsimile: (212) 344-7677
e-mail: rhd@schlamstone.com
dkatz@schlamstone.com
Attorneys for Defendant

124a
Appendix
N
Appendix n —
affirmation
OF HAO
XIAODONG IN the supreme court of the
state of new york, dated january 26, 2015
SUPREME COURT OF THE STATE OF NEW
YORK: COUNTY OF NEW YORK: IAS PART 3
Index No. 651010/2011
(Bransten, J.)
Mot. Seq. No. 011
ANDERSON & ANDERSON LLP-GUANGZHOU,
BEIJING KAIMING LAW OFFICES, AND
GUANGDONG HUATU LAW OFFICES
Plaintiffs,
v.
NORTH AMERICAN FOREIGN TRADING CORP.,
Defendant,
AFFIRMATION OF HAO XIAODONG
IN SUPPORT OF PLAINTIFFS’ CROSS-MOTION
HAO XIAO DONG, an attorney of Beijing Kaiming Law
Offices and Plaintiff in the above matter, affirms under
the penalty of perjury the following:
1.

I am a lawyer of Beijing Kaiming Law Offices,
one of the Plaintiffs in this action, and submit this

125a
Appendix N
Affirmation in opposition to Defendant’s Motion to
Modify a Prior Order (the “Order”).
2.

Pursuant to the Court Order discharging Mr.
David C. Buxbaum and Anderson & Anderson LLP,
Guangzhou Office as counsel we have experienced
many difficulties finding alternative lawyers who
might represent us in this action.

3.

Pursuant to the Court’s Order, I and my colleagues
have attempted to find other legal representation.
However, while I have some limited capability with
the English language, my colleagues and I are only
proficient in Chinese and because of this handicap
we have been ultimately unsuccessful in finding
alternative representation. Furthermore, neither I
nor my colleagues have any connections to attorneys
based in New York.

4.

The extensive nature of the case is also intimidating,
as there are three law firms involved, all based in
China, these proceedings have been going on for about
three years, and the prior proceedings to enforce a
United States arbitration award in China, went on for
four years.

5.

As such, in the interest of justice, I, on behalf of
Beijing Kaiming Law Offices propose the following:
that the Order be stayed until a decision of the
Appellate Division on its Appeal can be made; and
during said stay, the Plaintiffs’ Motion for Summary
Judgment be heard immediately.

126a
Appendix N
6.

Mr. Andrew G. Lowinger’s assertion that Mr. David
C. Buxbaum was virtually exclusively involved in
these negotiations was clearly a deliberately false
statement and it seems he has committed perjury for
the purpose of deceiving the court in order to remove
our counsel.

7.

I and my firm were primarily involved in the
negotiations of the second agreement the parties
entered into on June 24, 2009. This agreement
was negotiated on behalf of NAFT with Robert
Schweitzer, an executive of NAFT, who met with me
on several occasions regarding these proceedings and
prior proceedings for negotiation purposes. In fact, It
is I was negotiating the terms with Mr. Schweitzer,
while Mr. David Buxbaum only helped in facilitated
this agreement.

8.

While I am clearly not an expert on US law, pursuant
to Chinese law Mr. Andrew G. Lowinger should be
investigated immediately pursuant to criminal law
and perjured testimony and surely the Court should
sanction him for lying so as to achieve wrongful aim
by removing our counsel.

9.

For these reasons, Plaintiff, Beijing Kaiming Law
Offices respectfully requests that the honorable Court
stay enforcement of its Order until such time as the
Appeal of the Order has been decided (which will give
us more time to find substitute counsel if necessary),
and proceed with Plaintiffs’ Motion for Summary
Judgment which has been stayed for some time and

127a
Appendix N
may help end the interminable proceedings. We
further pray the Court find Mr. Andrew G. Lowinger’s
perjured testimony sanctionable and allow him to be
added as a party Defendant for the interest of justice
and accountability.
10. The Plaintiffs further request this Court not amend
the Order that has been granted with regard to
service of process, since such request by Defendant
NAFT who has failed to in fact serve us all this time
is clearly frivolous.
Dated: January 26, 2015
New York, New York
Respectfully Submitted:
Anderson & Anderson LLP
by: /s/
Hao Xiaodong
Beijing Kaiming Law Offices
Shangdu Int’l. 8 Dong Da Road,
Suite 1008
Chaoyang District, Beijing, China
E-mail: lawyerhxd@163.com
Attorney for Plaintiff

128a
Appendix O
APPENDIX O — AFFIRMATION
OF YOSEF Y.
WEINTRAUB IN THE SUPREME COURT OF
THE STATE OF NEW YORK, COUNTY OF
NEW YORK, DATED MAY 15, 2014
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK: IAS PART 3
Index No.: 651010/11
(Bransten, J.)
Mot. Seq. No. 10
ANDERSON & ANDERSON LLP – GUANGZHOU,
BEIJING KAIMING LAW OFFICES, AND
GUANGDONG HUATU LAW FIRM,
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
AFFIRMATION IN SUPPORT OF PLAINTIFFS’
MOTION FOR SANCTIONS
YOSEF Y. WEINTRAUB, an attorney duly admitted
to practice before the Courts of the State of New York,
affirms the following to be true under the penalty of
perjury:
1. I am the Managing Member of Weintraub LLC
and of counsel to Anderson & Anderson (New York) LLP.

129a
Appendix O
I submit this affirmation in support of Plaintiffs’ Motion
for Sanctions against Defendant and its counsel. I am
fully familiar with the circumstances herein based upon
a review of court filings and my prior appearance in this
action at a Status Conference on January 14, 2014 held
before Court Attorney Alan Gotthelf, Esq. (the “January
14 Conference”).
2. I appeared at the January 14 Conference on
Plaintiffs’ behalf, and Niall O’Murchadha, Esq. appeared
on Defendant’s behalf. During the January 14 Conference,
Defendant requested to hold in abeyance Plaintiffs’ Motion
for Summary Judgment (mot. seq. no. 8) pending further
discovery. I objected to the request. As a result of our
discussions, Mr. Gotthelf adjourned the Conference to
April 1, 2014 and set down oral argument of the summary
judgment motion on this date as well.
3. By letter dated January 15, 2014 and efiled on
that same date (NYSCEF doc. no. 217), Jeffrey Eilender,
Esq., whose firm is counsel to Defendant, among other
things, repeated Defendant’s request that was made at
the January 14 Conference. In so doing, he purported
to advise the court that, “specifically, at Mr. Gottherfs
recommendation, I write to request that the Court direct
the summary judgment motion filed by Plaintiffs last week
be held in abeyance pending completion of fact and expert
discovery.” Notably, Mr. Eilender was not present at the
January 14 Conference.
4. Mr. Eilender’s reckless assertion is entirely false.
Mr. Gotthelf did not make such a recommendation. ln
fact, he made the opposite recommendation. Mr. Gotthetf
recommended, rightfully so, that Defendant should oppose

130a
Appendix O
the motion, should not submit a letter seeking an abeyance,
and make whatever arguments concerning the need for
discovery, etc. in its opposition papers.
5. Further, Mr. Gotthelf adopted my position raised
at the January 14 Conference that, among other reasons,
the motion should not be held in abeyance because (1) the
issues raised in the summary judgment motion are not
novel to Defendant; (2) there can be no surprise, because
Defendant has been aware of the Chinese Law claim for at
least over a year and Plaintiffs previously filed a summary
judgment motion raising the exact same arguments that
are raised in the pending motion; (3) Defendant had more
than ample time to review the Chinese documents and have
them translated into English; and (4) Defendant’s request
for an abeyance of the motion is borderline frivolous and
counter to the fact that Plaintiffs previously discussed
the motion with Defendant’s counsel and entered into a
briefing schedule prior to the January 14 Conference.
6. A copy of the Stipulation Setting Briefing Schedule,
entered into on January 9, 2014 and So-Ordered on
January 14, 2014, is annexed hereto as Exhibit A.
WHEREFORE, plaintiffs respectfully request that
the within motion be granted in its entirety along with
such other, further and different relief this Court deems
just and proper.
Dated: New York, New York
May 15, 2014
/s/					
YOSEF Y. WEINTRAUB

131a
Appendix O
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
ANDERSON & ANDERSON, LLP– GUANGZHOU
and BEIJING KAIMING LAW OFFICES
and GUANGDONG HUATU LAW FIRM,
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
Index No. 651010/2011
Bransten, J.
STIPULATION SETTING BRIEFING SCHEDULE
IT IS HEREBY STIPULATED AND AGREED
between counsel for the above-captioned parties that the
briefing schedule for the motion filed by the Plaintiffs on
January 8, 2014, previously returnable on February 12,
and now returnable on March 7, 2014, shall be as follows:
1)

Defendant will file its opposition, along with any
cross-motion, on or before February 13, 2014;

2)

Plaintiffs will file their reply, along with any
opposition to the cross-motion, on or before
February 27, 2014;

132a
Appendix O
3)

Defendant will file its reply on the cross-motion
on – or before March 6, 2014;

4)

The motion will be returnable on March 7, 2014,
next status conference is 4/1/14 at 10:00 a.m.

Dated: January 14, 2014
ANDERSON & ANDERSON LLP
/s/			
David C. Buxbaum
110 Wall Street, 11th Floor
New York, New York 10005
(212) 709-8278
Anderson.guangzhou@anallp.com
Attorneys for Plaintiffs
SCHLAM STONE & DOLAN LLP
/s/				
Jeffrey M. Eilender
Niall D. O’Murchadha
26 Broadway, 19 th Floor
New York, New York 10004
(212) 344-5400
jme@schlamstone.com
nomurchadha@schlamstone.com
Attorneys for Defendant

133a
Appendix O
SO ORDERED:
/s/					
Hon. Eileen Bransten, J.S.C.
Dated: 1-14-14

134a
Appendix P
APPENDIX P — AFFIRMATION
OF ANDREW G.
LOWINGER IN THE SUPREME COURT OF THE
STATE OF NEW YORK, COUNTY OF NEW YORK,
FILED FEBRUARY 13, 2014
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK: IAS PART 3
Index No.: 651010/2011
(Bransten, J.)
Mot. Seq. No. 009
ANDERSON & ANDERSON LLP – GUANGZHOU,
BEIJING KAIMING LAW OFFICES, AND
GUANGDONG HUATO LAW FIRM,
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
AFFIRMATION OF ANDREW G. LOWINGER
ANDREW G. LOWINGER, affirms1 the following to
be true under the penalties of perjury:
1. I am an agent of North American Foreign Trading
Corporation (“NAFT”) the Defendant in the above action.
1. Because I am an observant Jew I submit this Affirmation
instead of an Affidavit.

135a
Appendix P
I submit this affirmation in support of NAFT’s motion
to disqualify David C. Buxbaum, Esq., and his law firm,
Anderson & Anderson LLP, from representing Plaintiffs
in this action on the basis of the attorney witness rule, the
former client rule, and the conflict of interest rule; and
for such other and further relief as the Court may deem
appropriate.
2. This is an action in which three law firms are
suing NAFT to collect a contingency fee pursuant to a
retainer agreement entered into in September of 2009
(the “Supplementary Agreement”). The Supplementary
Agreement modifies an earlier agreement the Parties
entered into in 2005 (the “2005 Retainer Agreement”).
3. The Parties dispute the meaning of the Agreements.
NAFT contends that the relationship between NAFT
on one hand and any of the Plaintiffs on the other,
automatically expired on December 31, 2009, without
any further action required by NAFT, by operation of
the first sentence of Paragraph 4 of the Supplementary
Agreement, which contained a sunset provision. Plaintiffs
dispute that this is the meaning of the Supplementary
Agreement.
4. Moreover, NAFT contends that Plaintiffs are
not entitled to any contingency because under the
Supplementary Agreement, they were required to obtain
cash in hand for NAFT before December 31, 2009. The
Plaintiffs dispute this as well and claim that as long
as the Plaintiffs obtain the recognition in China of an
Arbitral Award and the seizure of any assets, regardless

136a
Appendix P
of whether such assets were reduced to cash in NAFT’ s
hands before December 31, 2009, they are entitled to the
contingency fee.
5. The two Agreements are not a model of clarity
and at best for Plaintiffs there are many ambiguities, as
discussed at length in NAFT’ s opposition to Plaintiffs’
motion for partial summary judgment (Mot. Seq. 008).
6. Indeed, at this point, the Parties even dispute which
text of the Supplementary Agreement is the applicable
one. The Supplementary Agreement signed by NAFT
contained both English and Chinese text, the English
translation of which was prepared by Buxbaum. Recently,
NAFT has had another translation prepared which
indicates that there are significant differences between
the English version by its own translator and the version
by Buxbaum.
7. What is not in dispute, however, is that at all times,
to the extent NAFT dealt with anyone on behalf of the
Plaintiffs, it dealt with David Buxbaum, the same person
who is now lead counsel for Plaintiffs. Buxbaum is the
one who negotiated both Agreements with NAFT. To the
extent anyone from the Plaintiffs has personal knowledge
as to what was said to NAFT as to the meaning of the
Agreements to induce it to sign them, it would only be
Buxbaum.
8. Moreover, NAFT did not draft any of the Agreements
- rather it was Buxbaum, or someone on behalf of Plaintiffs
acting at his direction.

137a
Appendix P
9. Buxbaum also made statements to NAFT during
the negotiations and thereafter, that would be harmful to
Plaintiffs’ case. For example, Plaintiffs argue that they
are entitled to a contingency fee because they obtained a
restraining order on certain stock owned by Lionda. In
fact at the time, Buxbaum told us that this restraining
order was all but worthless because in his opinion, no one
would buy NAFT’ s rights to its Judgment until a court
orders the stock to be sold and actually turned into cash.
10. In order to properly defend itself, NAFT needs
to depose Buxbaum, and may even have to call him as an
adverse witness at trial if this case reaches that stage.
11. As stated above, no one has the knowledge that
Buxbaum does about the drafting and negotiating of these
Agreements, or the efforts to collect the Judgment, which
were done under his supervision. He was the lead person
acting for Plaintiffs on NAFT’ s behalf at all times.
12. Furthermore, both between 2005 and 2010, and in
other instances prior to 2005, Buxbaum and Anderson &
Anderson LLP represented NAFT as its attorney.
13. As such, Buxbaum and his firm represented NAFT
in court in the underlying action to this dispute, and
accordingly Buxbaum and his firm should be disqualified
from appearing in opposition to NAFT in this action.
Dated:

Washington, D.C.
February 13, 2014
/s/				
ANDREW G. LOWINGER

138a
Appendix Q AND ORDER of
Appendix Q — DECISION
the SUPREME COURT, APPELLATE DIVISION,
FIRST DEPARTMENT, FILED MAY 20, 2013
Andrias, J.P., Saxe, DeGrasse, Feinman, JJ.
9338 ANDERSON & ANDERSON, LLPGUANGZHOU, et al.,
Plaintiffs-Appellants,
GUANGDONG HUATU LAW FIRM,
Plaintiff,
-againstNORTH AMERICAN FOREIGN TRADE CORP.,
Defendant-Respondent.
Index 651010/11
Order, Supreme Court, New York County (Eileen
Bransten, J.), entered February 14, 2012, which, to the
extent appealed from as limited by the briefs, granted
defendant’s motion to dismiss the breach of contract cause
of action pursuant to CPLR 3211(a)(1) and (7), unanimously
reversed, on the law, with costs, and the motion denied.
Plaintiffs, law firms, sue to recover contingency fees
allegedly due under written retainer agreements dated
December 29, 2005 and June 24, 2009. Plaintiffs were

139a
Appendix Q
retained under both agreements to enforce an arbitration
award in the courts of the People’s Republic of China. The
retainer agreements provided for the payment of plaintiffs’
fees out of the judgment creditor’s assets that were to
be obtained and reduced to cash. The entire premise of
the motion to dismiss is that plaintiffs are relegated to
recovery in quantum meruit because they were supposedly
discharged by defendant, their client. Defendant bases
its claim of discharge upon plaintiffs’ knowledge of an
October 2010 transaction by which defendant, through
additional counsel, sold its rights under the arbitration
award and released its lien on the judgment creditor’s
assets in exchange for cash. In granting the motion, the
court adopted defendant’s argument that the retainer
agreement lost its purpose and plaintiffs’ services were
no longer needed once the sale was effected. We reverse.
Although no particular formality is required, the
discharge of an attorney is effected by “[a]ny act of the client
indicating an unmistakable purpose to sever relations ...”
(see Costello v Bruskin, 58 AD2d 573 [2nd Dept 1977]). The
motion should not have been granted because the amended
complaint and the documents attached to it set forth no
facts from which an unmistakable purpose to sever the
attorney-client relationship can be discerned. Defendant
proffers nothing to refute the complaint’s assertion that
defendant sold its rights under the arbitration award
through additional (but not substituted) counsel. A
motion to dismiss for failure to state a cause of action
“must be denied if from the pleadings’ four corners
‘factual allegations are discerned which taken together
manifest any cause of action cognizable at law’” (511 W.

140a
Appendix Q
232nd Owners Corp. v Jennifer Realty Co., 98 NY2d 144,
152 [2002]).
Moreover, although it expired on December 31, 2009,
the 2009 retainer agreement provided for the payment
of the agreed upon contingency fee if a judgment
granting enforcement of the arbitral decision was issued
by the Chinese court prior to the expiration date. It is
undisputed that a copy of such a judgment issued by the
Shenzhen Intermediate People’s Court on November 3,
2009 is annexed to the complaint. Based on the foregoing,
defendant has not demonstrated that documentary
evidence conclusively establishes a defense to plaintiffs’
contract cause of action as a matter of law (see Leon v
Martinez, 84 NY2d 83, 87-88 [1994]).
THIS CONSTITUTES THE DECISION AND
ORDER OF THE SUPREME COURT, APPELLATE
DIVISION, FIRST DEPARTMENT.
ENTERED: MAY 14, 2013
/s/				
CLERK

141a
Appendix R
Appendix r — affirmation
of DAVID C.
BUXBAUM IN the supreme court of the
state of new york, county of new york,
filed march 6, 2013
SUPREME COURT OF THE STATE OF NEW
YORK: COUNTY OF NEW YORK: IAS PART 3
Index No. 651010/2011
(Bransten, J.)
Mot. Seq. No. 005
ANDERSON & ANDERSON LLP-GUANGZHOU,
BEIJING KAIMING LAW OFFICES, AND
GUANGZHOU HUATU LAW OFFICES
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant,
AFFIRMATION OF DAVID C. BUXBAUM
IN SUPPORT OF REPLY IN SUPPORT OF
PLAINTIFFS’ MOTION FOR DISCLOSURE
SANCTIONS UNDER CPLR 3126
DAVID C. BUXBAUM, an attorney duly admitted
to the courts of this state, affirms under the penalty of
perjury the following to be true:

142a
Appendix R
1. I am a member of Anderson & Anderson, LLP,
counsel for Plaintiffs, Anderson & Anderson LLPGuangzhou (Anderson), Beijing Kaiming Law Office
(Kaiming), and Guangzhou Huatu Law Firm (Huatu)
(collectively, Plaintiffs). I am fully familiar with the facts
set forth below and I submit this affirmation in support of
the Reply in Support of Plaintiffs’ Motion For Disclosure
Sanctions Under CPLR 3126 (motion).
2. Attached as exhibits are: (1) the Status Conference
Order, dated October 23, 2012 showing the discovery
requirements for this matter (Ex. 1); (2) the Motion to
Dismiss Order, dated January 27, 2012 showing the
scope of issues for this matter (Ex. 2); (3) the Transcript
of Status Conference, dated January 31, 2013 showing
a misquotation of Judge Bransten by Defendant and
providing background for this matter (Ex. 3); (4)
the Transcript of Motion to Dismiss Hearing, dated
September 26, 2011 which gives full context of Defendant’s
misquotation of Judge Bransten’s words which wrongfully
misled the Court into permitting an application for a
protective order, further delaying proceedings, and
was aimed at distorting Judge Bransten’s findings and
the scope of claims and discovery in this case (Ex. 4);
and Defendant’s Counsel’s Letter to the Court, dated
January 28, 2013, stating that an employee of Defendant
knowledgeable of Plaintiffs legal services to Defendant
gave to Counsel NAFT’s files related to its dealings
with Plaintiffs indicating that there is discovery being
wrongfully withheld in this case (Ex. 5).

143a
Appendix R
3. Plaintiffs worked very hard for over 4 years to
obtain more than $11 million for Defendant. Defendant
is now trying to avoid paying any legal fees for this good
work. This highly unethical act of this Defendant exhibits
the quality of the Defendant we are dealing with here.
4. Defendant’s virtually complete failure to respond to
discovery demands of the Plaintiffs is outrageous, as while
Plaintiffs have submitted over two thousand documents
of discovery in this case, Defendant has not provided one
single document.
5. Defendant’s clearly out of context quotation of Judge
Bransten’s words at the Status Conference on January
31, 2013 and attempt in some way to overrule Judge
Bransten’s written Order to Dismiss is deceitful and more
than frivolous. (Ex. 3 and Ex. 4).
6. Defendant’s Counsel’s Letter to the Court, dated
January 28, 2013, states in regards to Mr. Schweitzer, an
employee of Defendant knowledgeable of Plaintiffs legal
services to Defendant, that “[p]rior to his passing, he had
provided us with NAFT’s files related to its dealings
with Plaintiffs”. (Ex. 5, 2)(emphasis added). This
clearly indicates there are documents and information
relating to the services which are being withheld by
Counsel despite Defendant’s steadfast insistence that
no documents related to discovery requests exist. This
is the first time Defendant’s Counsel, throughout the
entire half year long delay of discovery and only three
days before the Status Conference regarding Plaintiffs
intent to file a motion for discovery sanctions, that

144a
Appendix R
Defendant’s Counsel has ever mentioned the existence of
any documents to the Plaintiffs and to the Court despite
exhaustive inquiries. This clearly demonstrates the bad
faith dealings of Defendant in resolving the discovery
dispute and that discovery documents and information
related to Defendant’s dealings with Plaintiffs do exist
despite Defendant’s repeated assertion that absolutely
no discovery exists. For this and the many other acts
causing serious delay and costs and for misleading the
Court the entire time including multiple filings and Court
conferences, Defendant should be harshly sanctioned.
7. Defendant is attempting to delay proceedings to
further withhold money, increase costs to Plaintiffs, and
conceal evidence from the Court. Its wrongful acts should
be severely sanctioned.
Dated:

New York, New York
March 6, 2013
/s/				
David C. Buxbaum
Anderson & Anderson LLP
11th Floor, 110 Wall Street
New York, NY 10005-3817, U.S.A.
Tel: (1)(212) 709-8278
Fax: (1)(212) 943-2300
E-mail: anderson.newyork@anallp.com
Attorney for Plaintiffs

145a
AppendixFROM
S
APPENDIX S — E-MAIL
ANDERSON
& ANDERSON LLP TO SCHLAM STONE
& DOLAN LLP SUBMITTING DISCOVERY,
DATED JANUARY 11, 2013
NAFT - F00674. 003B
发件人: A nderson & A nderson LLP <a nderson.
guangzhou@anallp.com>
收件人: rhd@s c h l a m st one .c om <rhd>, d k at z @
schlamstone.com <David J. Katz>
抄送人: andersonllp@vip.163.com <andersonllp>
发送时间: 11/01/2013 05:44:25 PM
附件: Invoice 2005-2006.pdfInvoice 2007.pdfInvoice 2008.
pdfInvoice 2009.pdfInvoice 2010.pdf
Dear Mr. Dolan & Mr. Katz,
Re: Discovery of time spent by Plaintiffs on NAFT v.
Lionda
Pursuant to Paragraph 39 of Defendant’s First Demand for
Production of Documents, Plaintiff Anderson & Anderson
LLP provides a preliminary and partial response to the
time it spent on the NAFT case. Our response is attached
hereto. The response is incomplete, in part because of
Defendant’s failure to provide any discovery documents
and in part because of our difficulty in retrieving all of our
documents from our warehouse. As to the latter we are
making progress. The more detailed responses of other
Plaintiffs to this issue are in preparation.

146a
Appendix S
Yours very truly,
David C. Buxbaum
ANDERSON & ANDERSON LLP - Guangzhou
Suite 3901, 39th Floor, Profit Plaza
76 Huangpu Avenue West, Tianhe District
Guangzhou, China
Tel: 86-20-3839-2008
Fax: 86-20-3839-2009
E-mail: anderson.guangzhou@anallp.com
Website: http://www.anallp.com
Other and Associated Offices: New York – Los
Angeles – Beijing – Shanghai – Macau – Hong Kong –
Ulaanbaatar – Mumbai – Tel Aviv
****************************************************
IMPORTANT NOTICE: This e-mail message is intended
to be received only by persons entitled to receive the
confidential information it may contain. E-mail messages
to clients or non-clients of Anderson & Anderson LLP
presumptively contain information that is confidential and
legally privileged. Please do not read, copy, forward or
store this message unless you are an intended recipient
of it. If you have received this message in error, please
forward it back. Thank you.

147a
AppendixFROM
T
Appendix T — E-MAIL
ANDERSON
& ANDERSON LLP TO SCHLAM STONE
& DOLAN LLP - DISCOVERY RESPONSE,
DATED DECEMBER 28, 2012
From: Anderson & Anderson LLP [mailto:anderson_sh@
vip.163.com]
Sent: Friday, December 28, 2012 2:55 AM
To: David J. Katz; Richard H. Dolan
Cc: ‘Anderson & Anderson LLP’; anderson.shanghai@
anallp.com
Subject: Re: NAFT Discovery Responses to Demands
38-41
Dear Mr. Dolan and Mr. Katz,
Re: NAFT Discovery Responses to Demands 38-41
Here are the Plaintiffs’ Preliminary Responses to
Defendant’s Discovery Demands 38-41, dealing with billing,
hours spent by each Plaintiff Law Firm, the experience
and qualifications of each lawyer working on the case, and
pertaining to the laws covering attorney compensation in
the People’s Republic of China and in the province where
the case was handled, Guangdong. Attached is the official
response setting out what documents, if any, have been
included, and explaining how the production of documents
pertaining to these issues have been and will continue to
be handled. After the official response, each attachment
is a folder corresponding to the demand for respectively

148a
Appendix T
hours spent on the NAFT case (Demand 39), qualifications
and experience of the attorneys involved (Demand 40), and
Chinese national and regional laws pertaining to attorney
compensation (Demand 41). Please note that these are but
a preliminary survey of the mass of voluminous documents
that pertain to the hours spent and tasks handled on the
NAFT case. However, note that our firm will continue
to send documents in response to the demands in your
document which requested this production. With regard
to NAFT’s production of documents and responses to
interrogatories, which, pursuant to the status conference
order, was due on December 7, 2012, when may the firm
expect receipt of these documents and responses to
interrogatories? Thank you for your cooperation on this
matter.
Yours truly,
Nicholas Bolash
Legal Consultant
ANDERSON & ANDERSON LLP ‐ Shanghai
www.anallp.com
Suite 1621, 16th Floor, Tower One, Zhonghuan Binjiang
2742 Pudong Avenue, Pudong New District, (at Pudong
Avenue and Jinqiao Road)
Shanghai 200136, China
Tel: (86)(21) 5846‐0290
Fax: (86)(21) 5846‐0329
E‐mail: anderson.shanghai@anallp.com
Other and Associated Offices: New York – Los Angeles –
Beijing – Shanghai – Macau – Hong Kong – Ulaanbaatar –

149a
Appendix T
Mumbai – Tel Aviv
***************************************************
IMPORTANT NOTICE: This e‐mail message is intended
to be received only by persons entitled to receive the
confidential information it may contain. E‐mail messages
to clients or non‐clients of Anderson & Anderson LLP
presumptively contain information that is confidential and
legally privileged. Please do not read, copy, forward or
store this message unless you are an intended recipient
of it. If you have received this message in error, please
forward it back. Thank you.

150a
AppendixFROM
U
Appendix U — E-MAIL
ANDERSON
& ANDERSON LLP TO SCHLAM STONE
& DOLAN LLP SUBMITTING DISCOVERY,
DATED DECEMBER 20, 2012
Re: Naft Additional Discovery 1
发件人: A nderson & A nderson LLP <a nderson.
guangzhou@anallp.com>
收件人: rhd@sch la mst one.com <rhd> , d k at z@
schlamstone.com <dkatz>
抄送人: andersonllp@vip.163.com <andersonllp>
发送时间: 20/12/2012 07:33:25 PM
附件: Standard Confidentiality Order.pdfAdditional
Arbitration Materials Naft 20121219.rarAdditional
Materials Naft 20121219.rar
Dear Mr. Dolan and Mr. Katz,
Re: Naft Additional Discovery 1
The firm has recovered more materials from the
warehouse. Attached to this email are additional
materials, and the firm will be sending more materials.
The materials are being submitted in electronic format
for the ease of the parties. Attached is a signed copy
of the stipulation and order regarding confidential
information that you previously sent. Please sign and
return the completed version to this firm. At this time, it

151a
Appendix U
is believed that the only information to be submitted that
is confidential is the information contained in the list of
phone calls, and the firm will inform you if anything else
is determined to be confidential. With regard to Naft’s
production of documents and responses to interrogatories,
which, pursuant to the status conference order, was due
on December 7, 2012, when may the firm expect receipt of
these documents and responses to interrogatories?
Yours very truly,
David Mercurio
Legal Consultant
ANDERSON & ANDERSON LLP - Guangzhou
Suite 3901, 39th Floor, Profit Plaza
76 Huangpu Avenue West, Tianhe District
Guangzhou, China
Tel: 86-20-3839-2008
Fax: 86-20-3839-2009
E-mail: anderson.guangzhou@anallp.com
Website: http://www.anallp.com
Other and Associated Offices: New York – Los
Angeles – Beijing – Shanghai – Macau – Hong Kong –
Ulaanbaatar – Mumbai – Tel Aviv
***************************************************
IMPORTANT NOTICE: This e-mail message is intended
to be received only by persons entitled to receive the
confidential information it may contain. E-mail messages
to clients or non-clients of Anderson & Anderson LLP

152a
Appendix U
presumptively contain information that is confidential and
legally privileged. Please do not read, copy, forward or
store this message unless you are an intended recipient
of it. If you have received this message in error, please
forward it back. Thank you.

153a
AppendixFROM
V
Appendix V — E-MAIL
ANDERSON
& ANDERSON LLP TO SCHLAM STONE
& DOLAN LLP SUBMITTING DISCOVERY,
DATED DECEMBER 7, 2012
From: Anderson & Anderson LLP [mailto:anderson.
guangzhou@anallp.com]
Sent: Friday, December 07, 2012 2:42 PM
To: Richard H. Dolan; David J. Katz
Cc: andersonllp
Subject: Re: NAFT Discovery 1
Dear Mr. Dolan and Mr. Katz,
Re: Naft Discovery 1
Attached please find discovery materials in response to
Defendant’s First Demand for Production of Documents.
Please be aware that the materials will be sent in electronic
format in multiple emails to avoid exceeding the maximum
file size able to be transmitted via email. These materials
include, but are not limited to, emails, correspondence,
and legal materials related to legal services provided to
Naft. Many of the Defendant’s demands for documents
are overlapping and impractical to differentiate and
therefore the documents are submitted altogether. As to
paragraph 39, 40, and 41 of the demand, the firm is still
in the process of preparing since many of the documents
are stored in a warehouse and are being collected. There
are also telephone records which include phone calls made

154a
Appendix V
from the firm in relation to legal services provided to Naft;
however, such phone records also contain phone numbers
related to other clients which are confidential. The firm is
willing to share these records provided that they cannot
be disclosed to the public or any third party by placing
them under seal so that they are not disclosed to others or
made part of the public record. Please let us know if you
consent to this procedure. Despite the submission of these
documents, Plaintiffs do not waive any previous objections
to the discovery requests or any future ability to object
on the same or other basis. Plaintiffs are providing these
materials to move the case forward. If there are any issues
please contact the firm, and please submit your discovery
to the firm within the 45 day period pursuant to the status
conference order.
Yours very truly,
David Mercurio
Legal Consultant
ANDERSON & ANDERSON LLP - Guangzhou
Suite 3901, 39th Floor, Profit Plaza
76 Huangpu Avenue West, Tianhe District
Guangzhou, China
Tel: 86-20-3839-2008
Fax: 86-20-3839-2009
E-mail: anderson.guangzhou@anallp.com
Website: http://www.anallp.com

155a
Appendix V
Other and Associated Offices: New York – Los
Angeles – Beijing – Shanghai – Macau – Hong Kong –
Ulaanbaatar – Mumbai – Tel Aviv
***************************************************
IMPORTANT NOTICE: This e-mail message is intended
to be received only by persons entitled to receive the
confidential information it may contain. E-mail messages
to clients or non-clients of Anderson & Anderson LLP
presumptively contain information that is confidential and
legally privileged. Please do not read, copy, forward or
store this message unless you are an intended recipient
of it. If you have received this message in error, please
forward it back. Thank you.

156a
Appendix W —Appendix
NOTICESWOF DEPOSITION
IN THE SUPREME COURT OF THE STATE
OF NEW YORK, COUNTY OF NEW YORK,
DATED MARCH 5, 2011
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF NEW YORK: IAS PART 3
ANDERSON & ANDERSON, LLP—GUANGZHOU,
BEIJING KAIMING LAW OFFICES, and
GUANGDONG HUATU LAW FIRM,
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
Index No. 651010/2011
(Bransten, J.)
NOTICE TO DEPOSE PLAINTIFF
ANDERSON & ANDERSON, LLP
PLEASE TAKE NOTICE that, pursuant to NY
C.P.L.R. Article 31, Defendant North American Foreign
Trading Corp., by its attorneys, will take the deposition
upon oral examination, before a notary public or other
officer authorized by law to administer oaths, of Plaintiff
Anderson & Anderson, LLP.

157a
Appendix W
The depositions will commence at 10:00 A.M., on a
date to be mutually agreed by the parties. The deposition
will be recorded by stenographic means by Magna Legal
Services located at 1200 Avenue of the Americas, New
York, New York 10036.
Dated: New York, New York
March 5, 2011
SCHLAM STONE
& DOLAN LLP
By: /s/				
Richard H. Dolan
26 Broadway
New York, New York 10004
(212) 344-5400
Attorneys for Defendant
North American Foreign
Trading Corp.

158a
Appendix W
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF NEW YORK: IAS PART 3
ANDERSON & ANDERSON, LLP—GUANGZHOU,
BEIJING KAIMING LAW OFFICES, and
GUANGDONG HUATU LAW FIRM,
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
Index No. 651010/2011
(Bransten, J.)
NOTICE TO DEPOSE PLAINTIFF
BEIJING KAIMING LAW OFFICES
PLEASE TAKE NOTICE that, pursuant to NY
C.P.L.R. Article 31, Defendant North American Foreign
Trading Corp., by its attorneys, will take the deposition
upon oral examination, before a notary public or other
officer authorized by law to administer oaths, of Plaintiff
Beijing Kaiming Law Offices.
The depositions will commence at 10:00 A.M., on a
date to be mutually agreed by the parties. The deposition
will be recorded by stenographic means by Magna Legal
Services located at 1200 Avenue of the Americas, New
York, New York 10036.

159a
Appendix W
Dated: New York, New York
March 5, 2011
SCHLAM STONE
& DOLAN LLP
By: /s/				
Richard H. Dolan
26 Broadway
New York, New York 10004
(212) 344-5400
Attorneys for Defendant
North American Foreign
Trading Corp.

160a
Appendix W
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF NEW YORK: IAS PART 3
ANDERSON & ANDERSON, LLP—GUANGZHOU,
BEIJING KAIMING LAW OFFICES, and
GUANGDONG HUATU LAW FIRM,
Plaintiffs,
-againstNORTH AMERICAN FOREIGN TRADING CORP.,
Defendant.
Index No. 651010/2011
(Bransten, J.)
NOTICE TO DEPOSE PLAINTIFF
GUANGDONG HUATU LAW FIRM
PLEASE TAKE NOTICE that, pursuant to NY
C.P.L.R. Article 31, Defendant North American Foreign
Trading Corp., by its attorneys, will take the deposition
upon oral examination, before a notary public or other
officer authorized by law to administer oaths, of Plaintiff
Guangdong Huatu Law Firm.
The depositions will commence at 10:00 A.M., on a
date to be mutually agreed by the parties. The deposition
will be recorded by stenographic means by Magna Legal
Services located at 1200 Avenue ofthe Americas, New
York, New York 10036.

161a
Appendix W
Dated: New York, New York
March 5, 2011
SCHLAM STONE
& DOLAN LLP
By: /s/				
Richard H. Dolan
26 Broadway
New York, New York 10004
(212) 344-5400
Attorneys for Defendant
North American Foreign
Trading Corp.

162a
X TRANSLATION
APPENDIX X —Appendix
ENGLISH
OF CHINESE JUDGMENT, FILED
NOVEMBER 3, 2009
The People’s Republic of China
The Intermediate People’s Court of Shenzhen City,
Guangdong Province
Civil Ruling
(2006) Shen Zhong Fa Min Si Chu Zi No. 77
Applicant: North American Foreign Trading Corporation,
at the residential address of 105 Madison Avenue, New
York, N[Y] 10016, USA.
Legal Representative: Edith Lowinger, Director of the
Company
Entrusted Agent: Fu Qiang, attorney of Guangdong Huatu
Law Firm
Entrusted Agent: David C. Buxbaun, male, born on 16th
July 1933, Hong Kong resident, Hong Kong ID card
number: K476892 (2).
Respondent: Shenzhen Lionda Group Corp., at the
residential address of Jiahua Building, Huaqiang North
Road, Futian District, Shenzhen
Legal Representative: Ge Weiming, Chairman of Board
of Directors

163a
Appendix X
Respondent: Shenzhen Lionda Technology Co., Ltd., at
the residential address of Building No.2, Laodong 2nd
Industrial Zone, Xixiang Town, Bao’an District, Shenzhen.
Legal Representative: Ge Weiming, Chairman of Board
of Directors
Respondent: Shenzhen Cangping Imp. & Exp. Co., Ltd.
(formerly Lionda Materials Imp. & Exp. Co., Ltd.), at
the residential address of Room 303-307, North Block,
Guoshang Building, Jiabin Road, Luohu District,
Shenzhen.
Legal Representative: Liu Peng, Chairman of Board of
Directors
Respondent: Shenzhen Light Industrial Imp. & Exp. Co.,
Ltd., at the residential address of Room 204-205, North
Block, Guoshang Building, Jiabin Road, Luohu District,
Shenzhen.
Legal Representative: Feng Hui, Chairman of Board of
Directors
Agent jointly entrusted by the above four Respondents:
Yu Feng, attorney of King & Wood Law Firm, Shenzhen
Branch.
The (A merican) International Centre for Dispute
Resolution Commercial Arbitration Tribunal made an
Award No. 50 181 T 00251 04 on 4th October 2005, upon
the case of dispute over a cooperative contract between
Applicant North American Foreign Trading Corporation

164a
Appendix X
and Respondents Shenzhen Lionda Group Corp., Shenzhen
Lionda Technology Co., Ltd., Shenzheng Cangping Imp.
& Exp. Co., Ltd. [as well as] Shenzhen Light Industrial
Imp. & Exp. Co., Ltd. Applicant North American Foreign
Trading Corporation applied to our court on 26th January
2006 for recognition and enforcement of said Arbitral
Award. Our court formed a collegial panel pursuant to
law to examine [this case] after having accepted it. The
examination has currently been finished.
Applicant North American Foreign Trading Corporation
deemed that the (American) International Centre for
Dispute Resolution Commercial Arbitration Tribunal had
already made a final award on 4th October 2005 upon the
international trade dispute between the Applicant and the
four Respondents; [and] pursuant to this effective award,
the four Respondents should immediately (after the award
has become effective) : (1) pay to the Applicant USD
twenty-two million ninety-six thousand three hundred
and seventy-six point eight one ($ 22,096,376.81), and pay
interests [accrued] from 15th August 2003 onward, on any
unpaid portion of this amount at the annual interest rate of
9%; [and] (2) compensate the Applicant for the arbitration
fee of USD thirty-two thousand four hundred and twenty
point five zero ($ 32,420.50). The principal in the above
Item (1) plus Item (2) amounts to USD twenty-two million
one hundred and twenty-eight thousand seven hundred
and ninety-seven point three one ($ 22,128,797.31). To
date, none of the Respondents have performed the above
awarded obligations. Pursuant to the provisions of the
Notice regarding the Implementation of the New York
Convention on the Recognition and Enforcement of
Foreign Arbitral Awards Which China Has Acceded to

165a
Appendix X
from the Supreme People’s Court of the People’s Republic
of China and this Convention, [the Applicant] hereby
applies: 1. for recognition of the Arbitral Award No. 50
181 T 00251 04 made by the (American) International
Centre for Dispute Resolution Commercial Arbitration
Tribunal on 4th October 2005; [and] 2. for compulsory
enforcement of [the amounts] confirmed in this Arbitral
Award: (1) the principal part of USD twenty-two million
one hundred and twenty-eight thousand seven hundred
and ninety-seven point three one ($ 22,128,797.31), and (2)
the interest portion accrued from 15th August 2003 onward
(till the date of completion of the enforcement), on the USD
twenty-two million ninety-six thousand three hundred and
seventy-six point eight one ($ 22,096,376.81) part of the
principal at the simple annual interest rate of 9%.
The four Respondents answered that: [“] 1. We did not
receive the Award from the (American) International
Centre for Dispute Resolution Commercial Arbitration
Tribunal, neither did [we] receive a notice of tribunal
hearing and the final Arbitral Award; 2. The (American)
International Centre for Dispute Resolution Commercial
Arbitration Tribunal breached the arbitration rules
during the arbitration, which prevented the Chinese
parties from knowing the time and location of tribunal
bearing and from expressing their opinions. Pursuant to
the the provisions of Notice regarding the Implementation
of the New York Convention on the Recognition and
Enforcement of Foreign Arbitral Awards Which China
Has Acceded to and Article 5 Paragraph 2 Item 1 of the
New York Convention, we apply to the court for neither
recognizing nor enforcing the Arbitral Award made
by the (American) International Centre for Dispute

166a
Appendix X
Resolution Commercial Arbitration Tribunal; [and] 3. the
arbitrator breached the rules and arbitrarily changed
the time arrangement, which was of contractual nature,
signed by and among the three parties,. The timetable,
to which we were parties, and which was discussed at the
(American) International Centre for Dispute Resolution
Commercial Arbitration Tribunal on 4th January 2005 for
arbitration, included the time for submission of evidence
and submission of expert opinions. The time for tribunal
hearing was finally determined to be between the 25th
and 27th day of May 2005. After having agreed to the
timetable, the Chinese parties submitted evidence and
submitted expert opinions according to the time limit, but
the American party failed to submit evidence and expert
opinions when the above time limit agreed to had expired.
The American party’s attorney gave an excuse to the
Arbitration Tribunal that since his spouse was going to
give birth to a baby, he had proposed on 21st March 2005
a delay of seven months in tribunal hearing. The Chinese
parties deemed that the fault of the American party’s
attorney in his work resulted in the failure to submit
evidence and provide expert opinions within the timetable
agreed to on 4th January 2005, and that [the American
party’s attorney] had lost his right. We then expressed
dissent on the delay, but the arbitrator of the (American)
International Centre for Dispute Resolution Commercial
Arbitration Tribunal ignored the Chinese parties’ strong
dissent and canceled the tribunal hearing on 25th May.
At the same time, the time agreed to in the timetable
for submission of evidence and submission of expert
opinions had been extended, which the Chinese parties
believed was a serious breach of the arbitration rules.
Therefore, the four Respondents in this case canceled

167a
Appendix X
their authorization to the then American attorney, and
no longer received any notice of tribunal hearing or the
Arbitral Award from the (American) International Centre
for Dispute Resolution Commercial Arbitration Tribunal.
[It has been found] through examination that the Applicant
and the four Respondents executed a cooperative
agreement on 18th May 2000, which agreement provided
that: the four Respondents shall provide at least six final
assembly lines and guarantee on-schedule delivery of the
products, and the Applicant shall issue orders of at least
US$ 110 million’s worth in 2000. On 16th October 2001, the
Applicant executed a “Cooperative Agreement for 2002”
with Respondents Shenzhen Lionda Group Corp. and
Shenzhen Lionda Technology Co., Ltd., which agreement
provided that: the Respondents shall provide at least six
production lines, and the Applicant shall issue orders at the
minimum amount of US$ 80 million in 2002; and provided
that the Respondents shall, within 60 days from receipt of
the goods returned from the customers, repair the part of
the goods returned from any and all customers, and shall
return [them] to the Applicant pursuant to the terms. The
Agreement of 16th October 2001 was also accompanied by a
letter agreement, which provided that: this letter agreement
shall be governed by and construed in accordance with the
laws of New York State, without giving effect to the conflict
of law. Any disputes between the two parties regarding
the subject matter in this agreement shall be resolved
by arbitration at the American Arbitration Association
in New York, pursuant to the laws of New York State.
The Applicant applied to the (American) International
Centre for Dispute Resolution Commercial Arbitration

168a
Appendix X
Tribunal of the American Arbitration Association in
October 2004 for arbitration. The Applicant deemed
that the Respondents had violated the provisions of the
Cooperative Agreement, and asked for compensation from
the Respondents: 1. For the goods manufactured by the
Respondents and returned from the customers, in amount of
US$ 7,245,344.67, which amount the Respondents
had agreed to but had not returned; 2. for the goods
manufactured by the Respondents, returned from the
customers and stored in the American warehouse, which
goods had not been repaired, in amount of US$ 2,111,750.60;
3. for the fees related to the handling of the goods
returned from American Electronic Inc., in amount of US$
6,471,918.71; 4. For the 3% difference paid to American
Electronics Inc., in amount of US$ 301,978.36; 5. for the
goods returned from GD Company’s customers, in amount
of US$ 1,130,091.90; 6. for other costs of storage in amount
of US$ 175,045.20; 7. for the Respondents’ failure to finish
the Applicant’s orders, in amount of US$ 4,660,247.37. In
total, the Respondents should compensate the Applicant
with US$ 22,096,376.81. The Respondents answered in the
arbitration case that: the Respondents had no obligation
to repair the goods alleged by the Aplpicant as returned
from the customers; the Respondents had performed their
obligations pursuant to the agreement, but the Applicant
had substantively breached the agreement, which resulted
in a Respondent’s bankruptcy and cessation of operations.
Therefore, the Applicant’s application should be rejected.
At the same time, the Respondents raised a counterclaim
that: North American Foreign Trading Corporation, by
repeatedly breaching the agreement or threatening, and
[by] demanding gifts by force in abuse of its rights, led to the

169a
Appendix X
bankruptcy of Respondent Shenzhen Lionda Technology
Co., Ltd. Due to its act of breach of agreement, North
American Foreign Trading Corporation must pay US$
5,092,005.96.
The International Centre for Dispute Resolution Commercial
Arbitration Tribunal, after examination, made an award on
4th October 2005 that 1. the monetary compensation claimed
by the Applicant be approved, and the Respondents must
immediately pay to the Applicant US$ 22,096,3 76.81, on
any unpaid portion of which interests shall accrue from 15th
August 2003 onward at the annual interest rate of 9%; 2.
the entire counterclaim of the Respondents be rejected; 3.
the administrative fees and expenses of the International
Centre for Dispute Resolution amount to US$ 34,358,
all of which the Respondents Shenzhen Lionda Group
Corp., Shenzhen Lionda Technology Co., Ltd., Lionda
Materials Imp. & Exp. Co., Ltd. and Shenzhen Light
Industrial Imp. & Exp. Co., Ltd. shall be held responsible
for; [and] the arbitrator’s salary and expenses amount to
US$ 24,375, which shall be assumed by the four respondents;
therefore, the four respondents shall compensate the
Applicant for the amount of US$ 32,420.50 already paid
by North American Foreign Trading Corporation to the
International Centre for Dispute Resolution; [and] 4. this
award be a full resolution of all of the complaints and
counterclaim submitted to this arbitration. It has not been
specially mentioned in this award that any other complaints
or counterclaims were to be rejected.
It has been separately found through investigation that
Applicant [North American] Foreign Trading Corporation

170a
Appendix X
applied to the International Centre for Dispute Resolution
Commercial Arbitration Tribunal of the American
Arbitration Association in October 2004, for arbitration.
The (A merican) International Centre for Dispute
Resolution Commercial Arbitration Tribunal accepted this
case on the 15th November 2004, and formed an arbitration
tribunal of a single arbitrator. The four Respondents
submitted an answer and arbitration counterclaim to the
Arbitration Tribunal. On 4th January 2005, the Applicant
and the four respondents agreed to a timetable for the
arbitration of this case, and determined that the time for
the tribunal hearing of this case would be between the
25th and 27th day of May 2005. Applicant North American
Foreign Trading Corporation applied for delay on 21st
March 2005, and the Arbitration Tribunal approved of
the delay on 22 nd March 2005, and cancelled the time
[arrangement] between the 25th and 27th day of May 2005
for tribunal hearing. The four Respondents opposed the
delay and requested the tribunal hearing to be held at
the time originally agreed to. The Arbitration Tribunal
sent a facsimile to both parties in 2005, requesting that
the tribunal hearing be held on 16th August 2005, but
the four Respondents did not appear in the tribunal.
The Arbitration Tribunal, after having conducted the
hearing by default, made an award on 4th October 2005,
and served by mail the award on the four respondents.
Applicant North American Foreign Trading Corporation
applied to our court on 7th February 2006 for recognition
and enforcement of this Arbitral Award.
Our court deems that this case is [regarding] an
application for the recognition and enforcement of an

171a
Appendix X
American arbitral award. Since both China and the Untied
States are member states to the New York Convention
on the Recognition and Enforcement of Foreign Arbitral
Awards, this Convention shall apply to this case. The
Cooperative Agreement between the Applicant and
the Respondents in this case had an arbitration clause.
Applicant North American Foreign Trading Corporation
submitted an application for arbitration to the (American)
International Centre for Dispute Resolution Commercial
Arbitration Tribunal pursuant to the Agreement. The
four Respondents provided an answer and submitted a
counterclaim, sufficiently stating their own opinions. The
four Respondents put forth that they did not receive the
notice of the time of arbitration tribunal hearing, but the
Arbitration Tribunal, simply based on the arbitration
Applicant’s applicantion, canceled the tribunal hearing
originally scheduled to be between the 25th and 27th day
of May 2005, delayed the tribunal hearing to 16th August
2005, and notified all the parties concerned by facsimile.
The four Respondents opposed this, disagreed with the
delay in tribunal hearing, and requested the tribunal
hearing to be held as per the original schedule. The four
Respondents had no evidence of their unawareness of
the delay in tribunal hearing. The arbitration procedures
complied with the arbitration rules that applied as all the
parties concerned had agreed to. Upon making an award
that involved foreign parties, the Arbitration Tribunal sent
the award by international registered mail to the address
provided by the Respondents [in this] arbitration, but it was
returned. Later on 16th May 2006, the Arbitration Tribunal
sent against [the award] by mail as per the address
(which was also the registered address of Shenzhen
Lionda Technology Co., Ltd., one of the Respondents [in

172a
Appendix X
this] arbitration,) provided by the arbitration rules that
should apply. The Arbitral Award contained none of the
circumstances under Article 5 of the New York Convention
on the Recognition and Enforcement of Foreign Arbitral
Awards, and should be recognized and enforced. Pursuant
to the provisions of Article 267 of the Civil Procedure Law
of the People’s Republic of China and Article 5 of the New
York Convention on the Recognition and Enforcement of
Foreign Arbitral Awards, [our] ruling is as follows:
the Arbitral Award No. 50 181 T 00251 04 made by the
(American) International Centre for Dispute Resolution
Commercial Arbitration Tribunal on 4th October 2005 is
to be recognized and enforced.
The four Respondents shall assume the fee of RMB
185,669 for the application for enforcement in this case.
This amount has been paid in advance by the Applicant to
the court, which is not to be returned by our court but to
be paid directly by the four Respondents to the Applicant.
The Applicant has also paid in advance to our court a fee
of RMB 500 for [its] application for recognition, which our
court is to return to the applicant.
Chief Judge: Wen Daren
Judge: Zhu Ping
Judge: Li Xiang
3rd November 2009
Clerk: Pan Liang (concurrent [post])
This copy has been verified as identical with the original

173a
Appendix X

174a
Appendix X
NOTARIAL CERTIFICATE (Translation)
(2013) YGNF, Zi, No. 111298
Applicant:
Name and surname: BUXBAUM, David C.
Sex: Male
Date of birth: July 16, 1933
Hong Kong Permanent Identity Card No. K476892 (2)
Authorized person:
Name and surname: LIU Yun
Sex: Female Date of birth: April 19, 1982
National Identity Card No. 430724198204190025
In the Matter of: Photocopy True to the Original
This is to certify that the photocopy attached hereto is
true to the original of Civil Ruling by the Intermediate
People’s Court of Shenzhen City, Guangdong Province,
the People’s Republic of China [(2006) Shen Zhong Fa
Min Si Chu Zi No. 77] produced and shown to me by LIU
Yun, authorized person of BUXBAUM, David C.
Notary: HUANG Shangqing
South China Notary Public Office
Guangzhou, Guangdong Province
The People’s Republic of China
November 1, 2013

